1a
934 F.3d 53
United States Court of Appeals, Second Circuit.
Stuart FORCE, individually and as Administrator
on behalf of the Estate of Taylor Force, Robbi Force,
Kristin Ann Force, Abraham Ron Fraenkel,
individually and as Administrator on behalf of the
Estate of Yaakov Naftali Fraenkel, and as the
natural and legal guardian of minor plaintiffs
A.H.H.F., A.L.F., N.E.F, N.S.F., and S.R.F., A.H.H.F.,
A.L.F., N.E.F., N.S.F., S.R.F., Rachel Devora Sprecher
Fraenkel, individually and as Administrator on behalf
of the Estate of Yaakov Naftali Fraenkel and as the
natural and legal guardian of minor plaintiffs
A.H.H.F., A.L.F., N.E.F, N.S.F., and S.R.F., TZVI
Amitay Fraenkel, Shmuel Elimelech Braun,
individually and as Administrator on behalf of the
Estate of Chaya Zissel Braun, Chana Braun,
individually and as Administrator on behalf of the
Estate of Chaya Zissel Braun, Shimshon Sam
Halperin, Sara Halperin, Murray Braun,
Esther Braun, Micah Lakin Avni, individually and
as Joint Administrator on behalf of the Estate of
Richard Lakin, Maya Lakin, individually and as
Joint Administrator on behalf of the Estate of
Richard Lakin, Menachem Mendel Rivkin,
individually and as the natural and legal guardian
of minor plaintiffs S.S.R., M.M.R., R.M.R., S.Z.R.,
Bracha Rivkin, individually and as the natural and
legal guardian of minor plaintiffs S.S.R., M.M.R.,
R.M.R., and S.Z.R., S.S.R., M.M.R., R.M.R., S.Z.R.,
Plaintiffs-Appellants,
v.

2a
FACEBOOK, INC., Defendant-Appellee.1
No. 18-397
|
August Term, 2018
|
Argued: February 25, 2019
|
Decided: July 31, 2019
Appeal from the United States District Court for
the Eastern District of New York, No. 16-cv-5158—
Nicholas G. Garaufis, Judge.
Attorneys and Law Firms
Meir Katz (Robert J. Tolchin, on the brief ), The Berkman Law Office, LLC, Brooklyn, New York, for Plaintiffs-Appellants.
Craig S. Primis (K. Winn Allen, Matthew S. Brooker,
on the brief ), Kirkland & Ellis, LLP, Washington, DC,
for Defendant-Appellee.
Sophia Cope, David Greene, Electronic Frontier Foundation, San Francisco, CA, amicus curiae.
Before: Katzmann, Chief Judge, Droney, and Sullivan,
Circuit Judges.

1

The Clerk of the Court is directed to amend the official caption to conform to the above.

3a
Opinion
Droney, Circuit Judge:
The principal question presented in this appeal
is whether 47 U.S.C. § 230(c)(1), a provision enacted
by the Communications Decency Act of 1996, shields
Defendant-Appellee Facebook, Inc., from civil liability
as to Plaintiffs-Appellants’ federal anti-terrorism claims.
Plaintiffs include the U.S. citizen victims, and relatives
and representatives of the estates of those victims,
of certain terrorist attacks committed by Hamas in
Israel. They contend that Facebook unlawfully provided Hamas, a U.S.-designated foreign terrorist organization, with a communications platform that
enabled those attacks.
The district court granted Facebook’s motion to
dismiss plaintiffs’ First Amended Complaint under
Federal Rule of Civil Procedure 12(b)(6) on the basis
of Section 230(c)(1) immunity, an affirmative defense.
After entering judgment without prejudice to moving
to file an amended complaint, the district court denied
with prejudice plaintiffs’ motion to file a second
amended complaint on the basis that the proposed
complaint did not cure the deficiencies in the First
Amended Complaint.
On appeal, plaintiffs argue that the district court
improperly dismissed their claims because Section
230(c)(1) does not provide immunity to Facebook under
the circumstances of their allegations.

4a
We conclude that the district court properly applied Section 230(c)(1) to plaintiffs’ federal claims.
Also, upon our review of plaintiffs’ assertion of diversity jurisdiction over their foreign law claims, 28 U.S.C.
§ 1332(a), we conclude that such jurisdiction is lacking.
Accordingly, we affirm the judgment of the district
court as to the federal claims. We also dismiss the foreign law claims, but without prejudice.
FACTUAL AND PROCEDURAL BACKGROUND
Allegations in Plaintiffs’ Complaint2

I.

Because this case comes to us on a motion to dismiss, we recount the facts as plaintiffs provide them to
us, treating as true the allegations in their complaint.
See Galper v. JP Morgan Chase Bank, N.A., 802 F.3d
437, 442 (2d Cir. 2015).
A. The Attacks
Hamas is a Palestinian Islamist organization centered in Gaza. It has been designated a foreign terrorist organization by the United States and Israel. Since
it was formed in 1987, Hamas has conducted thousands of terrorist attacks against civilians in Israel.
Plaintiffs’ complaint describes terrorist attacks by
Hamas against five Americans in Israel between 2014
2

As used here, the term “complaint” refers to both the allegations of the First Amended Complaint and those of the proposed
second amended complaint, which sought to supplement the prior
complaint.

5a
and 2016. Yaakov Naftali Fraenkel, a teenager, was
kidnapped by a Hamas operative in 2014 while walking home from school in Gush Etzion, near Jerusalem,
and then was shot to death. Chaya Zissel Braun, a 3month-old baby, was killed at a train station in Jerusalem in 2014 when a Hamas operative drove a car into
a crowd. Richard Lakin died after Hamas members
shot and stabbed him in an attack on a bus in Jerusalem in 2015. Graduate student Taylor Force was
stabbed to death by a Hamas attacker while walking
on the Jaffa boardwalk in Tel Aviv in 2016. Menachem
Mendel Rivkin was stabbed in the neck in 2016 by a
Hamas operative while walking to a restaurant in a
town near Jerusalem. He suffered serious injuries
but survived. Except for Rivkin, plaintiffs are the representatives of the estates of those who died in these
attacks and family members of the victims.
B. Facebook’s Alleged Role in the Attacks
1.

How Facebook Works

Facebook operates an “online social network platform and communications service[ ].” App’x 230. Facebook users populate their own “Facebook ‘pages’ ” with
“content,” including personal identifying information
and indications of their particular “interests.” App’x
250-51, 345. Organizations and other entities may also
have Facebook pages. Users can post content on others’
Facebook pages, reshare each other’s content, and send
messages to one another. The content can be text-based

6a
messages and statements, photos, web links, or other
information.
Facebook users must first register for a Facebook
account, providing their names, telephone numbers,
and email addresses. When registering, users do not
specify the nature of the content they intend to publish
on the platform, nor does Facebook screen new users
based on its expectation of what content they will
share with other Facebook users. There is no charge to
prospective users for joining Facebook.3
Facebook does not preview or edit the content that
its users post. Facebook’s terms of service specify that
a user “own[s] all of the content and information [the
user] post[s] on Facebook, and [the user] can control
how it is shared through [the user’s] privacy and application settings.” App’x 252 (alterations in original).
While Facebook users may view each other’s shared
content simply by visiting other Facebook pages and
profiles, Facebook also provides a personalized “newsfeed” page for each user. Facebook uses algorithms—“a
precisely defined set of mathematical or logical operations for the performance of a particular task,” Algorithm, Oxford English Dictionary (3d ed. 2012)—to
determine the content to display to users on the
newsfeed webpage. Newsfeed content is displayed
within banners or modules and changes frequently.
The newsfeed algorithms—developed by programmers

3

According to Facebook, hundreds of millions of Facebook
pages are maintained on its platform.

7a
employed by Facebook—automatically analyze Facebook users’ prior behavior on the Facebook website to
predict and display the content that is most likely to
interest and engage those particular users. Other algorithms similarly use Facebook users’ behavioral and
demographic data to show those users third-party
groups, products, services, and local events likely to be
of interest to them.
Facebook’s algorithms also provide “friend suggestions,” which, if accepted by the user, result in those
users seeing each other’s shared content. App’x 346–
47. The friend-suggestion algorithms are based on such
factors as the users’ common membership in Facebook’s online “groups,” geographic location, attendance
at events, spoken language, and mutual friend connections on Facebook. App’x 346.
Facebook’s advertising algorithms and “remarketing” technology also allow advertisers on Facebook to
target specific ads to its users who are likely to be most
interested in them and thus to be most beneficial to
those advertisers. App’x 347. Those advertisements are
displayed on the users’ pages and other Facebook
webpages. A substantial portion of Facebook’s revenues is from such advertisers.

8a
2.

Hamas’s Use of Facebook4

Plaintiffs allege that Hamas used Facebook to
post content that encouraged terrorist attacks in Israel
during the time period of the attacks in this case. The
attackers allegedly viewed that content on Facebook.
The encouraging content ranged in specificity; for example, Fraenkel, although not a soldier, was kidnapped and murdered after Hamas members posted
messages on Facebook that advocated the kidnapping
of Israeli soldiers. The attack that killed the Braun
baby at the light rail station in Jerusalem came after
Hamas posts encouraged car-ramming attacks at light
rail stations. By contrast, the killer of Force is alleged
to have been a Facebook user, but plaintiffs do not set
forth what specific content encouraged his attack,
other than that “Hamas . . . use[d] Facebook to promote
terrorist stabbings.” App’x 335.
Hamas also used Facebook to celebrate these attacks and others, to transmit political messages, and to
generally support further violence against Israel. The
perpetrators were able to view this content because,
although Facebook’s terms and policies bar such use by
Hamas and other designated foreign terrorist organizations, Facebook has allegedly failed to remove the
“openly maintained” pages and associated content of
certain Hamas leaders, spokesmen, and other members. App’x 229. It is also alleged that Facebook’s
4

When we refer to “Hamas” as users of Facebook in this
opinion, we mean individuals alleged to be Hamas members or
supporters, as well as various Hamas entities that are alleged to
have Facebook pages.

9a
algorithms directed such content to the personalized
newsfeeds of the individuals who harmed the plaintiffs. Thus, plaintiffs claim, Facebook enables Hamas
“to disseminate its messages directly to its intended
audiences,” App’x 255, and to “carry out the essential
communication components of [its] terror attacks,”
App’x 256.
II.

Facebook’s Antiterrorism Efforts
A. Intended Uses of Facebook

Facebook has Terms of Service that govern the
use of Facebook and purport to incorporate Facebook’s
Community Standards.5 In its Terms of Service, Facebook represents that its services are intended to
“[c]onnect you with people and organizations you care
about,” by, among other things, “[p]rovid[ing] a personalized experience” and “[h]elp[ing] you discover content, products, and services that may interest you.”
Terms of Service, Facebook, https://www.facebook.com/
terms.php (last visited June 26, 2019). To do so,
5

Plaintiffs’ complaint relies extensively on, and incorporates
by reference, Facebook’s Terms of Service and Community Standards (together, “terms”). The publicly available terms are also
subject to judicial notice. See Fed. R. Evid. 201(b)(2); see also, e.g.,
23-34 94th St. Grocery Corp. v. N.Y.C. Bd. of Health, 685 F.3d 174,
183 n.7 (2d Cir. 2012) (taking judicial notice of content of website
whose authenticity was not in question). With the exception of
such terms that plaintiffs allege Facebook actually follows in
practice, we recount this information only for the limited purpose
of setting forth Facebook’s stated representations about its policies and practices and to provide context for plaintiffs’ allegations,
but not for the truth of whether Facebook follows those policies.

10a
Facebook “must collect and use your personal data,”
id., subject to a detailed “Data Policy,” Data Policy,
Facebook, https://www.facebook.com/about/privacy/update (last visited June 26, 2019). Facebook also uses
information about its users to sell targeted online advertising and to provide advertisers with data on the
effectiveness of their ads. How do we use this information?, Data Policy, Facebook, https://www.facebook.com/
about/privacy/update (last visited May 23, 2019).
B. Prohibited Uses of Facebook
According to the current version of Facebook’s Community Standards, Facebook “remove[s] content that
expresses support or praise for groups, leaders, or individuals involved in,” inter alia, “[t]errorist activity.” 2.
Dangerous Individuals and Organizations, Community
Standards, Facebook, https://www.facebook.com/community
standards/dangerous_individuals_organizations (last
visited June 26, 2019). “Terrorist organizations and
terrorists” may not “maintain a presence” on Facebook,
nor is “coordination of support” for them allowed. Id.
Facebook “do[es] not allow symbols that represent any
[terrorist] organizations or [terrorists] to be shared on
[the] platform without context that condemns or neutrally discusses the content.” Id. In addition, Facebook
purports to ban “hate speech” and to “remove content
that glorifies violence or celebrates the suffering or
humiliation of others.” Objectionable Content, Community Standards, Facebook, https://www.facebook.com/
communitystandards/objectionable_content (last visited June 26, 2019).

11a
Facebook’s Terms of Service also prohibit using
its services “to do or share anything” that is, inter alia,
“unlawful” or that “infringes or violates someone else’s
rights.”6 Terms of Service, supra. Violating any of these
policies may result in Facebook suspending or disabling a user’s account, removing the user’s content,
blocking access to certain features, and contacting law
enforcement. Id.
According to recent testimony by Facebook’s General Counsel in a United States Senate hearing, Facebook employs a multilayered strategy to enforce these
policies and combat extremist content on its platform.7
Facebook claimed in the hearing that most of the content it removes is identified by Facebook’s internal procedures before it is reported by users. For example,
terrorist photos or videos that users attempt to upload
are matched against an inventory of known terrorist
content. Facebook is also experimenting with artificial
intelligence to block or remove “text that might be advocating for terrorism.” App’x 373. When Facebook detects terrorist-related content, it also uses artificial
6

Facebook’s sign-up webpage states that by clicking “Sign
Up,” prospective users agree to Facebook’s Terms of Service, Data
Policy, and Cookies Policy—all of which are hyperlinked from that
page. Create a New Account, Facebook, https://www.facebook.com/
r.php (last visited June 26, 2019). As indicated above, the Terms
of Service also purport to incorporate Facebook’s Community
Standards.
7
Plaintiffs included this testimony in the appendix on appeal and attached and referred to the testimony in their brief responding to the district court’s order to show cause for why their
proposed second amended complaint was not futile. We recount
such testimony only for the purposes described supra n.5.

12a
intelligence to identify similar, socially interconnected
accounts, content, and pages that may themselves support terrorism.
The General Counsel also testified that, for content that is not automatically detected, Facebook employs thousands of people who respond to user reports
of inappropriate content and remove such content. Id.
Facebook also has a 150-person team of “counterterrorism specialists,” including academics, engineers, and
former prosecutors and law enforcement officers.8 Id.
III. District Court Proceeding
Plaintiffs brought this action on July 10, 2016, in
the United States District Court for the Southern District of New York. On consent of the parties, the action
was transferred to the United States District Court
for the Eastern District of New York on September 16,
8

Facebook has been criticized recently—and frequently—for
not doing enough to take down offensive or illegal content. E.g.,
Cecilia Kang, Nancy Pelosi Criticizes Facebook for Handling of
Altered Videos, N.Y. Times (May 29, 2019), https://www.nytimes.com/
2019/05/29/technology/facebook-pelosi-video.html; Kalev Leetaru,
Countering Online Extremism Is Too Important to Leave to Facebook, FORBES (May 9, 2019), https://www.forbes.com/sites/
kalevleetaru/2019/05/09/countering-online-extremism-is-tooimportant-to-leave-to-facebook; Julia Fioretti, Internet Giants
Not Doing Enough to Take Down Illegal Content: EU, Reuters
(Jan. 9, 2018), https://www.reuters.com/article/us-eu-internetmeeting/internet-giants-not-doing-enough-to-take-down-illegalcontent-eu-idUSKBN1EY2BL; see Staehr v. Hartford Fin. Servs.
Grp., Inc., 547 F.3d 406, 425 (2d Cir. 2008) (“[I]t is proper to take
judicial notice of the fact that press coverage . . . contained certain
information, without regard to the truth of their contents.”).

13a
2016.9 In their First Amended Complaint, Plaintiffs
claimed that, under 18 U.S.C. § 2333, Facebook was
civilly liable for aiding and abetting Hamas’s acts of
international terrorism; conspiring with Hamas in furtherance of acts of international terrorism; providing
material support to terrorists; and providing material
support to a designated foreign terrorist organization.10 Plaintiffs also alleged that the district court had
diversity-based subject matter jurisdiction under 28
U.S.C. § 1332(a)(2) to adjudicate Plaintiffs’ Israeli-law
tort claims arising from the same conduct.
Facebook moved to dismiss plaintiffs’ claims for
lack of personal jurisdiction under Rule 12(b)(2) and
for failure to state a claim under Rule 12(b)(6). The
district court determined that it had personal jurisdiction over Facebook, a ruling that Facebook does not
challenge on appeal. But the district court also held
that 47 U.S.C. § 230(c)(1) foreclosed plaintiffs’ claims
because they impermissibly involved “treat[ing]” Facebook “as the publisher or speaker of any information
provided by” Hamas. Cohen v. Facebook, Inc., 252
F.Supp.3d 140, 155–58 (E.D.N.Y. 2017) (quoting 47
9

The parties moved jointly under 28 U.S.C. § 1404(a) to
transfer the case to the Eastern District of New York because
plaintiffs’ counsel had already filed the Cohen action there, see
infra n.11, and resolving both cases in the same district, the parties argued, would be efficient and convenient.
10
18 U.S.C. § 2333 provides civil remedies for injuries suffered through acts of international terrorism. Plaintiffs also cite
to 18 U.S.C. § 2339A (providing material support for terrorism)
and § 2339B (providing material support or resources to a designated foreign terrorist organization).

14a
U.S.C. § 230(c)(1)).11 On May 18, 2017, the district court
granted the motion to dismiss under Rule 12(b)(6) and
entered judgment in Facebook’s favor, without prejudice to plaintiffs seeking leave to file an amended complaint.
Plaintiffs then filed a Rule 59(e) motion to alter
the judgment, asking the district court to reconsider its
dismissal of their First Amended Complaint, and filed
a motion seeking leave to file a second amended complaint. The proposed complaint retained all of plaintiffs’ prior claims for relief and added a claim that
Facebook had concealed its alleged material support to
Hamas. In January 2018, the district court denied
plaintiffs’ motions with prejudice, holding that plaintiffs’ proposed second amended complaint was futile in
light of 47 U.S.C. § 230(c)(1). Plaintiffs timely appealed.
STANDARD OF REVIEW
Because the district court determined that it was
futile to allow plaintiffs to file a second amended complaint, we evaluate that proposed complaint “as we
would a motion to dismiss, determining whether [it]
11

In the same opinion, the district court also dismissed for
lack of Article III standing the claims brought in a separate action by 20,000 Israeli citizens who, according to the district
court, claimed “to be threatened only by potential future attacks.”
S. App’x 3. The district court referred to those plaintiffs as the
“Cohen Plaintiffs” and to the plaintiffs in this appeal as the “Force
Plaintiffs.” Id. at 1. The Cohen Plaintiffs did not appeal. Cohen v.
Facebook, 16-cv-04453-NGG-LB (E.D.N.Y.).

15a
contains enough facts to state a claim to relief that is
plausible on its face.”12 Ind. Pub. Ret. Sys. v. SAIC, Inc.,
818 F.3d 85, 92 (2d Cir. 2016) (citation and internal
quotation marks omitted). We accept as true all alleged
facts in both the First Amended Complaint and the
proposed second amended complaint.13 See Ashcroft v.
Iqbal, 556 U.S. 662, 678, 129 S.Ct. 1937, 173 L.Ed.2d
868 (2009). We also review de novo a district court’s
grant of a Rule 12(b)(6) motion to dismiss on the basis
of an affirmative defense. See Ricci v. Teamsters Union
Local 456, 781 F.3d 25, 26 (2d Cir. 2015).
DISCUSSION
On appeal, plaintiffs contend that the district
court improperly held that Section 230(c)(1) barred
their claims. Plaintiffs argue that their claims do not
treat Facebook as the “publisher” or “speaker” of content14 provided by Hamas, as Section 230(c)(1) requires
for immunity. Plaintiffs similarly contend that Facebook contributed to that content through its algorithms. Plaintiffs also argue that to apply Section
230(c)(1) to their claims based on Facebook’s and
12

We have jurisdiction over this appeal from a final judgment. 28 U.S.C. § 1291.
13
Plaintiffs do not distinguish their arguments between
their First Amended Complaint, which the district court dismissed, and their proposed second amended complaint, which the
district court determined was futile. We agree that the Section
230(c)(1) issues raised by both complaints are materially indistinguishable.
14
We refer to “content” and “information” synonymously in
this opinion.

16a
Hamas’s actions taken outside of the United States
would constitute the unlawful extraterritorial application of that statute. In addition, plaintiffs maintain
that 47 U.S.C. § 230(e)(1), which provides that Section
230 shall not be “construed to impair the enforcement
of . . . any . . . Federal criminal statute,” precludes the
application of Section 230(c)(1) to their claims, that the
Anti-Terrorism Act’s (“ATA”) civil remedies provision,
18 U.S.C. § 2333, irreconcilably conflicts with Section
230(c)(1), and that the Justice Against Sponsors of
Terrorism Act (“JASTA”) impliedly narrowed or repealed Section 230(c)(1). Lastly, plaintiffs contend that
Section 230(c)(1) cannot apply to their claims brought
under the foreign law of Israel.
In response to plaintiffs’ claims, Facebook contends that Section 230(c)(1) provides it immunity and
that, even absent such immunity, plaintiffs fail to plausibly allege that Facebook assisted Hamas in the
ways required for their federal antiterrorism claims
and Israeli law claims.
We first turn to the issues regarding Section
230(c)(1).15

15

Plaintiffs argue that the district court prematurely applied
Section 230(c)(1), an affirmative defense, because discovery might
show that Facebook was indeed a “developer” of Hamas’s content.
However, the application of Section 230(c)(1) is appropriate at the
pleading stage when, as here, the “statute’s barrier to suit is evident from the face of ” plaintiffs’ proposed complaint. Ricci, 781
F.3d at 28; see also Marshall’s Locksmith Serv. Inc. v. Google,
LLC, 925 F.3d 1263, 1267-68 (D.C. Cir. 2019) (affirming dismissal
of claims at pleading stage based on Section 230(c)(1) immunity).

17a
I.

Background of Section 230(c)(1)

The primary purpose of the proposed legislation
that ultimately resulted in the Communications Decency Act (“CDA”) “was to protect children from sexually
explicit internet content.” FTC v. LeadClick Media,
LLC, 838 F.3d 158, 173 (2d Cir. 2016) (citing 141 Cong.
Rec. S1953 (daily ed. Feb. 1, 1995) (statement of Sen.
Exon)). Section 230, though—added as an amendment
to the CDA bill, id.—was enacted “to maintain the robust nature of Internet communication and, accordingly, to keep government interference in the medium
to a minimum,” Ricci, 781 F.3d at 28 (quoting Zeran v.
Am. Online, Inc., 129 F.3d 327, 330 (4th Cir. 1997)). Indeed, Congress stated in Section 230 that “[i]t is the
policy of the United States—(1) to promote the continued development of the Internet and other interactive
computer services and other interactive media; [and]
(2) to preserve the vibrant and competitive free market
that presently exists for the Internet and other interactive computer services, unfettered by Federal or
State regulation.” 47 U.S.C. § 230(b)(1)–(2).
In the seminal Fourth Circuit decision interpreting the immunity of Section 230 shortly after its enactment, Zeran v. America Online, Inc., that court
described Congress’s concerns underlying Section 230:
The amount of information communicated via
interactive computer services is . . . staggering. The specter of . . . liability in an area of
such prolific speech would have an obvious
chilling effect. It would be impossible for service providers to screen each of their millions

18a
of postings for possible problems. Faced with
potential liability for each message republished by their services, interactive computer
service providers might choose to severely
restrict the number and type of messages
posted. Congress . . . chose to immunize service providers to avoid any such restrictive effect.
129 F.3d at 331.
The addition of Section 230 to the proposed CDA
also “assuaged Congressional concern regarding the
outcome of two inconsistent judicial decisions,” Cubby,
Inc. v. CompuServe, Inc., 776 F. Supp. 135 (S.D.N.Y.
1991) and Stratton Oakmont, Inc. v. Prodigy Servs. Co.,
No. 31063/94, 1995 WL 323710 (N.Y. Sup. Ct. May 24,
1995), both of which “appl[ied] traditional defamation
law to internet providers,” LeadClick, 838 F.3d at 173.
As we noted in LeadClick, “[t]he first [decision] held
that an interactive computer service provider could not
be liable for a third party’s defamatory statement . . .
but the second imposed liability where a service provider filtered its content in an effort to block obscene
material.” Id. (citations omitted) (citing 141 Cong. Rec.
H8469-70141 Cong. Rec. H8469-70 (daily ed. Aug. 4,
1995 (statement of Rep. Cox))).
To “overrule Stratton,” id., and to accomplish its
other objectives, Section 230(c)(1) provides that “[n]o
provider . . . of an interactive computer service shall be
treated as the publisher or speaker of any information

19a
provided by another information content provider.”16
47 U.S.C. § 230(c)(1). Subject to certain delineated exceptions, id. § 230(e), Section 230(c)(1) thus shields a
defendant from civil liability when: (1) it is a “provider
or user of an interactive computer service,” as defined
by § 230(f )(2); (2) the plaintiff ’s claims “treat[ ]” the defendant as the “publisher or speaker” of information,
id. § 230(c)(1); and (3) that information is “provided by”
an “information content provider,” id. § 230(f )(3), other
than the defendant interactive computer service.
In light of Congress’s objectives, the Circuits are
in general agreement that the text of Section 230(c)(1)
should be construed broadly in favor of immunity.
See LeadClick, 838 F.3d at 173 (collecting cases);
Marshall’s Locksmith Serv. Inc. v. Google, LLC, 925
F.3d 1263, 1267 (D.C. Cir. 2019) (“Congress inten[ded]
to confer broad immunity for the re-publication of
third-party content.”); Jane Doe No. 1 v. Backpage.com,
LLC, 817 F.3d 12, 18 (1st Cir. 2016) (“There has been
near-universal agreement that section 230 should not
16

Section 230(c)(2), which, like Section 230(c)(1), is contained under the subheading “Protection for ‘Good Samaritan’
Blocking and Screening of Offensive Material,” 47 U.S.C. § 230(c),
responds to Stratton even more directly. It provides that “[n]o provider or user of an interactive computer service shall be held liable on account of—(A) any action voluntarily taken in good faith
to restrict access to or availability of material that the provider or
user considers to be obscene, lewd, lascivious, filthy, excessively
violent, harassing, or otherwise objectionable, whether or not
such material is constitutionally protected; or (B) any action
taken to enable or make available to information content providers or others the technical means to restrict access to material
described in [Section 230(c)(1)].” Id. § 230(c)(2).

20a
be construed grudgingly.”); Jones v. Dirty World Entm’t
Recordings LLC, 755 F.3d 398, 408 (6th Cir. 2014)
(“[C]lose cases . . . must be resolved in favor of immunity.”)
(quoting Fair Hous. Council v. Roommates.Com, LLC,
521 F.3d 1157, 1174 (9th Cir. 2008) (en banc)); Doe v.
MySpace, Inc., 528 F.3d 413, 418 (5th Cir. 2008) (“Courts
have construed the immunity provisions in § 230
broadly in all cases arising from the publication of usergenerated content.”); Almeida v. Amazon.com, Inc., 456
F.3d 1316, 1321 (11th Cir. 2006) (“The majority of federal circuits have interpreted [Section 230] to establish
broad . . . immunity.”); Carafano v. Metrosplash.com,
Inc., 339 F.3d 1119, 1123 (9th Cir. 2003) (“§ 230(c) provides broad immunity for publishing content provided
primarily by third parties.”) (citation omitted); Zeran,
129 F.3d at 330 (4th Cir. 1997) (“Congress recognized
the threat that tort-based lawsuits pose to freedom of
speech in the new and burgeoning Internet medium.”).
II.

Whether Section 230(c)(1) Protects Facebook’s
Alleged Conduct17

The parties agree that Facebook is a provider of
an “interactive computer service,” but dispute whether
plaintiffs’ claims allege that (1) Facebook is acting as
the protected publisher of information, and (2) the

17

Because, as is discussed later in this opinion, plaintiffs’ foreign law claims are dismissed on jurisdictional grounds, our discussion of Section 230(c)(1) immunity is confined to plaintiffs’
federal claims.

21a
challenged information is provided by Hamas, or by
Facebook itself.18
A. Whether Plaintiffs’ Claims Implicate
Facebook as a “Publisher” of Information
Certain important terms are left undefined by
Section 230(c)(1), including “publisher.” 47 U.S.C.
§ 230(c)(1). This Circuit and others have generally
looked to that term’s ordinary meaning:19 “one that
makes public,” Klayman v. Zuckerberg, 753 F.3d 1354,
1359 (D.C. Cir. 2014) (citing Webster’s Third New International Dictionary 1837 (1981)); “the reproducer of
18

Plaintiffs also argue that because publication is not an explicit element of their federal anti-terrorism claims, Section
230(c)(1) does not provide Facebook with immunity. However, it
is well established that Section 230(c)(1) applies not only to defamation claims, where publication is an explicit element, but also
to claims where “the duty that the plaintiff alleges the defendant
violated derives from the defendant’s status or conduct as a publisher or speaker.” LeadClick, 838 F.3d at 175 (quoting Barnes v.
Yahoo!, Inc., 570 F.3d 1096, 1102 (9th Cir. 2009)) (emphasis added)
(internal quotation marks omitted). “Thus, courts have invoked
the prophylaxis of section 230(c)(1) in connection with a wide variety of causes of action, including housing discrimination, negligence, and securities fraud and cyberstalking.” Backpage.com,
817 F.3d at 19 (internal citations omitted); see also Marshall’s
Locksmith, 925 F.3d at 1267 (“As courts uniformly recognize, § 230
immunizes internet services for third-party content that they publish, . . . against causes of action of all kinds.”); HomeAway.com,
Inc. v. City of Santa Monica, 918 F.3d 676, 684 (9th Cir. 2019)
(“[W]e have repeatedly held the scope of [Section 230] immunity
to reach beyond defamation cases.”).
19
“When a term goes undefined in a statute, we give the term
its ordinary meaning.” Taniguchi v. Kan Pac. Saipan, Ltd., 566
U.S. 560, 566, 132 S.Ct. 1997, 182 L.Ed.2d 903 (2012).

22a
a work intended for public consumption,” LeadClick,
838 F.3d at 175 (citing Barnes v. Yahoo!, Inc., 570 F.3d
1096, 1102 (9th Cir. 2009) (quoting Webster’s Third
New International Dictionary 1837 (Philip Babcock
Gove ed., 1986))); and “one whose business is publication,” id. Consistent with these definitions, in Zeran v.
America Online, Inc., the Fourth Circuit concluded
that “[e]ven distributors are considered to be publishers,” including “[t]hose who are in the business of making their facilities available to disseminate . . . the
information gathered by others.” 129 F.3d at 332 (quoting W. Page Keeton et al., Prosser and Keeton on the
Law of Torts § 113, at 803 (5th ed. 1984)). The courts’
generally broad construction of Section 230(c)(1) in
favor of immunity “has resulted in a capacious conception of what it means to treat a website operator as the
publisher . . . of information provided by a third party.”
Backpage.com, 817 F.3d at 19.
Plaintiffs seek to hold Facebook liable for “giving
Hamas a forum with which to communicate and for actively bringing Hamas’ message to interested parties.”
Appellants’ Reply Br. 37; see also, e.g., Appellants’ Br.
50–51 (arguing that the federal anti-terrorism statutes
“prohibit[ ] Facebook from supplying Hamas a platform
and communications services”). But that alleged conduct by Facebook falls within the heartland of what
it means to be the “publisher” of information under
Section 230(c)(1). So, too, does Facebook’s alleged failure to delete content from Hamas members’ Facebook
pages. See LeadClick, 838 F.3d at 174 (stating that

23a
acting as the “publisher” under Section 230(c)(1) includes the decision whether to “withdraw” content).
Plaintiffs also argue that Facebook does not act as
the publisher of Hamas’s content within the meaning
of Section 230(c)(1) because it uses algorithms to suggest content to users, resulting in “matchmaking.” Appellants’ Br. 51–52. For example, plaintiffs allege that
Facebook’s “newsfeed” uses algorithms that predict
and show the third-party content that is most likely to
interest and engage users. Facebook’s algorithms also
provide “friend suggestions,” based on analysis of users’ existing social connections on Facebook and other
behavioral and demographic data. And, Facebook’s advertising algorithms and “remarketing” technology allow advertisers to target ads to its users who are likely
most interested in those ads.
We disagree with plaintiffs’ contention that Facebook’s use of algorithms renders it a non-publisher.
First, we find no basis in the ordinary meaning of “publisher,” the other text of Section 230, or decisions interpreting Section 230, for concluding that an interactive
computer service is not the “publisher” of third-party
information when it uses tools such as algorithms that
are designed to match that information with a consumer’s interests.20 Cf., e.g., Roommates.Com, 521 F.3d
at 1172 (recognizing that Matchmaker.com website,
which “provided neutral tools specifically designed to
20

To the extent that plaintiffs rely on their undeveloped contention that the algorithms are “designed to radicalize,” Appellants’ Br. 51, we deem that argument waived. In addition, this
allegation is not made in plaintiffs’ complaints.

24a
match romantic partners depending on their voluntary
inputs,” was immune under Section 230(c)(1)) (citing
Carafano, Inc., 339 F.3d 1119); Carafano, 339 F.3d at
1124–25 (“Matchmaker’s decision to structure the information provided by users allows the company to
offer additional features, such as ‘matching’ profiles
with similar characteristics . . . , [and such features]
[a]rguably promote[ ] the expressed Congressional policy ‘to promote the continued development of the Internet and other interactive computer services.’ 47 U.S.C.
§ 230(b)(1).”); Herrick v. Grindr, LLC, 765 F. App’x 586,
591 (2d Cir. 2019) (summary order) (“To the extent
that [plaintiff ’s claims] are premised on Grindr’s [userprofile] matching and geolocation features, they are
likewise barred. . . .”).21
Indeed, arranging and distributing third-party
information inherently forms “connections” and
“matches” among speakers, content, and viewers of
content, whether in interactive internet forums or in
more traditional media.22 That is an essential result of
21

While lacking precedential value, “[w]e are, of course, permitted to consider summary orders for their persuasive value,
and often draw guidance from them in later cases.” Brault v. Soc.
Sec. Admin., Comm’r, 683 F.3d 443, 450 n.5 (2d Cir. 2012).
22
As journalist and author Tom Standage has observed,
“[M]any of the ways in which we share, consume, and manipulate
information, even in the Internet era, build upon habits and conventions that date back centuries.” Tom Standage, Writing on the
Wall: Social Media—The First 2000 Years 5 (2013). See also Tom
Standage, Benjamin Franklin, Social Media Pioneer, Medium
(Dec. 10, 2013), https://medium.com/new-media/benjamin-franklinsocial-media-pioneer-3fb505b1ce7c (“Small and local, with circulations of a few hundred copies at best, [colonial] newspapers

25a
publishing. Accepting plaintiffs’ argument would eviscerate Section 230(c)(1); a defendant interactive computer service would be ineligible for Section 230(c)(1)
immunity by virtue of simply organizing and displaying content exclusively provided by third parties.
Plaintiffs’ “matchmaking” argument would also
deny immunity for the editorial decisions regarding
third-party content that interactive computer services
have made since the early days of the Internet. The
services have always decided, for example, where on
their sites (or other digital property) particular thirdparty content should reside and to whom it should be
shown. Placing certain third-party content on a
homepage, for example, tends to recommend that content to users more than if it were located elsewhere on
a website. Internet services have also long been able to
target the third-party content displayed to users based
on, among other things, users’ geolocation, language of
choice, and registration information. And, of course,
the services must also decide what type and format of
third-party content they will display, whether that be
a chat forum for classic car lovers, a platform for blogging, a feed of recent articles from news sources frequently visited by the user, a map or directory of local
businesses, or a dating service to find romantic partners. All of these decisions, like the decision to host
third-party content in the first place, result in
consisted in large part of letters from readers, and reprinted
speeches, pamphlets and items from other papers. They provided
an open platform through which people could share and discuss
their views with others. They were, in short, social media.”).

26a
“connections” or “matches” of information and individuals, which would have not occurred but for the internet services’ particular editorial choices regarding the
display of third-party content. We, again, are unaware
of case law denying Section 230(c)(1) immunity because of the “matchmaking” results of such editorial
decisions.
Seen in this context, plaintiffs’ argument that
Facebook’s algorithms uniquely form “connections” or
“matchmake” is wrong. That, again, has been a fundamental result of publishing third-party content on the
Internet since its beginning. Like the decision to place
third-party content on a homepage, for example, Facebook’s algorithms might cause more such “matches”
than other editorial decisions. But that is not a basis
to exclude the use of algorithms from the scope of what
it means to be a “publisher” under Section 230(c)(1).
The matches also might—as compared to those resulting from other editorial decisions—present users with
targeted content of even more interest to them, just as
an English speaker, for example, may be best matched
with English-language content. But it would turn Section 230(c)(1) upside down to hold that Congress intended that when publishers of third-party content
become especially adept at performing the functions of
publishers, they are no longer immunized from civil liability.23
23

The dissent contends that our holding would necessarily
immunize the dissent’s hypothetical phone-calling acquaintance
who brokers a connection between two published authors and
facilitates the sharing of their works. See Dissent at 76. We

27a
Second, plaintiffs argue, in effect, that Facebook’s
use of algorithms is outside the scope of publishing
because the algorithms automate Facebook’s editorial
decision-making. That argument, too, fails because “so
long as a third party willingly provides the essential
published content, the interactive service provider
receives full immunity regardless of the specific
edit[orial] or selection process.” Carafano, 339 F.3d at
1124; see Marshall’s Locksmith, 925 F.3d at 1271 (holding that “automated editorial act[s]” are protected by
Section 230) (quoting O’Kroley v. Fastcase, Inc., 831
F.3d 352, 355 (6th Cir. 2016)); cf., e.g., Roommates.Com,
521 F.3d at 1172; Herrick, 765 F. App’x at 591. We disagree with plaintiffs that in enacting Section 230 to,
inter alia, “promote the continued development of the
Internet,” 47 U.S.C. § 230(b)(1), and “preserve the vibrant and competitive free market,” id. § 230(b)(2),
Congress implicitly intended to restrain the automation of interactive computer services’ publishing activities in order for them to retain immunity.
Our dissenting colleague calls for a narrow textual
interpretation of Section 230(c)(1) by contending that
the Internet was an “afterthought” of Congress in the
CDA because the medium received less “committee attention” than other forms of media and that Congress,
with Section 230, “tackled only . . . the ease with which
disagree, for the simple reason that Section 230(c)(1) immunizes
publishing activity only insofar as it is conducted by an “interactive computer service.” Moreover, the third-party information
must be “provided through the Internet or any other interactive
computer service.” 47 U.S.C. § 230(f )(3).

28a
the Internet delivers indecent or offensive material,
especially to minors.” Dissent at 78. But such a constrained view of Section 230 simply is not supported by
the actual text of the statute that Congress passed.
In addition to the broad language of Section 230(c)(1)
and the pro-Internet-development policy statements in
Section 230 (discussed supra at 63, 67), Congress announced the following specific findings in Section 230:
(1) The rapidly developing array of Internet
and other interactive computer services available to individual Americans represent an
extraordinary advance in the availability of
educational and informational resources to
our citizens.
(2) These services offer users a great degree
of control over the information that they receive, as well as the potential for even greater
control in the future as technology develops.
(3) The Internet and other interactive computer services offer a forum for a true diversity
of political discourse, unique opportunities for
cultural development, and myriad avenues for
intellectual activity.
(4) The Internet and other interactive computer services have flourished, to the benefit
of all Americans, with a minimum of government regulation.
(5) Increasingly Americans are relying on
interactive media for a variety of political, educational, cultural, and entertainment services.

29a
47 U.S.C. § 230(a)(1)–(5). These Congressional statements all point to the benefits of interactive media and
“publisher” immunity to interactive computer services
when they arrange and transmit information provided
by others.
We therefore conclude that plaintiffs’ claims fall
within Facebook’s status as the “publisher” of information within the meaning of Section 230(c)(1).
B. Whether Facebook is the Provider of the
Information
We turn next to whether Facebook is plausibly alleged to itself be an “information content provider,” or
whether it is Hamas that provides all of the complained-of content. “The term ‘information content provider’ means any person or entity that is responsible,
in whole or in part, for the creation or development of
information provided through the Internet or any other
interactive computer service.” 47 U.S.C. § 230(f )(3). If
Facebook was a creator or developer, even “in part,” of
the terrorism-related content upon which plaintiffs’
claims rely, then Facebook is an “information content
provider” of that content and is not protected by Section 230(c)(1) immunity. 47 U.S.C. § 230(f )(3). Plaintiffs contend that Facebook’s algorithms “develop”
Hamas’s content by directing such content to users
who are most interested in Hamas and its terrorist activities, without those users necessarily seeking that
content.

30a
The term “development” in Section 230(f )(3) is undefined. However, consistent with broadly construing
“publisher” under Section 230(c)(1), we have recognized that a defendant will not be considered to have
developed third-party content unless the defendant directly and “materially” contributed to what made the
content itself “unlawful.” LeadClick, 838 F.3d at 174
(quoting Roommates.Com, 521 F.3d at 1168). This “material contribution” test, as the Ninth Circuit has described it, “draw[s] the line at the ‘crucial distinction
between, on the one hand, taking actions . . . to . . . display . . . actionable content and, on the other hand, responsibility for what makes the displayed content
[itself ] illegal or actionable.’ ” Kimzey v. Yelp! Inc., 836
F.3d 1263, 1269 n.4 (9th Cir. 2016) (quoting Jones, 755
F.3d at 413–14).
Employing this “material contribution” test, we
held in FTC v. LeadClick that the defendant LeadClick
had “developed” third parties’ content by giving specific instructions to those parties on how to edit “fake
news” that they were using in their ads to encourage
consumers to purchase their weight-loss products.
LeadClick, 838 F.3d at 176. LeadClick’s suggestions
included adjusting weight-loss claims and providing
legitimate-appearing news endorsements, thus “materially contributing to [the content’s] alleged unlawfulness.” Id. (quoting Roommates.Com, 521 F.3d at 1160)
(alterations in the original). LeadClick also concluded
that a defendant may, in some circumstances, be a developer of its users’ content if it encourages or advises
users to provide the specific actionable content that

31a
forms the basis for the claim. See id. Similarly, in
Fair Housing Council v. Roommates.Com, 521 F.3d at
1172, the Ninth Circuit determined that—in the context of the Fair Housing Act, 42 U.S.C. § 3601 et seq.,
which prohibits discrimination on the basis of sex,
family status, sexual orientation, and other protected
classes in activities related to housing—the defendant
website’s practice of requiring users to use pre-populated
responses to answer inherently discriminatory questions about membership in those protected classes
amounted to developing the actionable information for
purposes of the plaintiffs’ discrimination claim.
Although it did not explicitly adopt the “material
contribution” test, the D.C. Circuit’s recent decision in
Marshall’s Locksmith Service v. Google, 925 F.3d 1263,
illustrates how a website’s display of third-party information does not cross the line into content development. There, “scam locksmiths”—who were apparently
actual locksmiths seeking to mislead consumers with
lock emergencies into believing that they were closer
in proximity to the emergency location than they actually were—allegedly provided Google, Microsoft, and
Yahoo!’s internet mapping services with false locations, some of which were exact street addresses and
others which were “less-exact,” such as telephone area
codes. Id. at 1265–70. The internet mapping services of
Google, Microsoft, and Yahoo! translated this information into textual and pictorial “pinpoints” on maps
that were displayed to the services’ users. Id. at 1269.
The D.C. Circuit concluded that this “translation” of the
third-party information by the interactive computer

32a
services did not develop that information (or create
new content) because the underlying “information
[was] entirely provided by the third party, and the
choice of presentation” fell within the interactive computer services’ prerogative as publishers. Id. (emphasis
added).
As to the “less-exact” location information, such as
area codes, provided by the scam locksmiths, the plaintiffs also argued that the mapping services’ algorithmic translation of this information into exact pinpoint
map locations developed or created the misleading
information. Id. at 1269–70. The D.C. Circuit also rejected that argument, holding that “defendants’ translation of [imprecise] third-party information into map
pinpoints does not convert them into ‘information content providers’ because defendants use a neutral algorithm to make that translation.” Id. at 1270. In using
the term “neutral,” the court observed that the algorithms were alleged to make no distinction between
“scam” and other locksmiths and that the algorithms
did not materially alter (i.e., they “hew[ed] to”) the underlying information provided by the third parties. Id.
at 1270 n.5, 1270–71.
Here, plaintiffs’ allegations about Facebook’s conduct do not render it responsible for the Hamas-related
content. As an initial matter, Facebook does not edit
(or suggest edits) for the content that its users—including Hamas—publish. That practice is consistent
with Facebook’s Terms of Service, which emphasize
that a Facebook user “own[s] all of the content and information [the user] post[s] on Facebook, and [the

33a
user] can control how it is shared through [the user’s]
privacy and application settings.” App’x 252.
Nor does Facebook’s acquiring certain information
from users render it a developer for the purposes of
Section 230. Facebook requires users to provide only
basic identifying information: their names, telephone
numbers, and email addresses. In so doing, Facebook
acts as a “neutral intermediary.” LeadClick, 838 F.3d at
174. Moreover, plaintiffs concede in the pleadings that
Facebook does not publish that information, cf., e.g.,
Roommates.Com, 521 F.3d at 1172, and so such content
plainly has no bearing on plaintiffs’ claims.
Plaintiffs’ allegations likewise indicate that Facebook’s algorithms are content “neutral” in the sense
that the D.C. Circuit used that term in Marshall’s
Locksmith: The algorithms take the information provided by Facebook users and “match” it to other users—again, materially unaltered—based on objective
factors applicable to any content, whether it concerns
soccer, Picasso, or plumbers.24 Merely arranging and
displaying others’ content to users of Facebook through
such algorithms—even if the content is not actively
sought by those users—is not enough to hold Facebook
24

We do not mean that Section 230 requires algorithms to
treat all types of content the same. To the contrary, Section 230
would plainly allow Facebook’s algorithms to, for example, depromote or block content it deemed objectionable. We emphasize
only—assuming that such conduct could constitute “development” of third-party content—that plaintiffs do not plausibly
allege that Facebook augments terrorist-supporting content primarily on the basis of its subject matter.

34a
responsible as the “develop[er]” or “creat[or]” of that
content. See, e.g., Marshall’s Locksmith, 925 F.3d at
1269–71; Roommates.Com, 521 F.3d at 1169–70.
Plaintiffs’ arguments to the contrary are unpersuasive. For one, they point to the Ninth Circuit’s decision in Roommates.Com as holding that requiring or
encouraging users to provide any particular information whatsoever to the interactive computer service
transforms a defendant into a developer of that information. The Roommates.Com holding, however, was
not so broad; it concluded only that the site’s conduct
in requiring users to select from “a limited set of prepopulated answers” to respond to particular “discriminatory questions” had a content-development effect
that was actionable in the context of the Fair Housing
Act. See 521 F.3d at 1166. There is no comparable allegation here.
Plaintiffs also argue that Facebook develops Hamas’s content because Facebook’s algorithms make
that content more “visible,” “available,” and “usable.”
Appellants’ Br. at 45–46. But making information more
available is, again, an essential part of traditional publishing; it does not amount to “developing” that information within the meaning of Section 230. Similarly,
plaintiffs assert that Facebook’s algorithms suggest
third-party content to users “based on what Facebook
believes will cause the user to use Facebook as much
as possible” and that Facebook intends to “influence”
consumers’ responses to that content. Appellants’ Br.
48. This does not describe anything more than Facebook vigorously fulfilling its role as a publisher.

35a
Plaintiffs’ suggestion that publishers must have no
role in organizing or distributing third-party content
in order to avoid “develop[ing]” that content is both ungrounded in the text of Section 230 and contrary to its
purpose.
Finally, we note that plaintiffs also argue that
Facebook should not be afforded Section 230 immunity
because Facebook has chosen to undertake efforts to
eliminate objectionable and dangerous content but has
not been effective or consistent in those efforts. However, again, one of the purposes of Section 230 was to
ensure that interactive computer services should not
incur liability as developers or creators of third-party
content merely because they undertake such efforts—
even if they are not completely effective.25
We therefore conclude from the allegations of
plaintiffs’ complaint that Facebook did not “develop”
the content of the Facebook postings by Hamas and
that Section 230(c)(1) applies to Facebook’s alleged
conduct in this case.
III. Whether Applying Section 230(c)(1) to
Plaintiffs’ Claims Would Impair the Enforcement of a Federal Criminal Statute
Plaintiffs also argue that Section 230(c)(1) may
not be applied to their claims because that would impermissibly “impair the enforcement” of a “Federal
criminal statute.” Appellant’s Br. at 52 (quoting 47
25

See supra, Discussion, Part I.

36a
U.S.C. § 230(e)(1)). Section 230(e)(1), entitled, “No effect on criminal law,” is one of the enumerated exceptions to the application of Section 230(c)(1) immunity.
It provides that “[n]othing in . . . section [230] shall be
construed to impair the enforcement of . . . any [ ] Federal criminal statute.” 47 U.S.C. § 230(e)(1). Plaintiffs
observe that 18 U.S.C. §§ 2339A, 2339B, and 2339C,
which criminalize providing material support for terrorism, providing material support for foreign terrorist
organizations, and financing terrorism, respectively,
are federal criminal statutes. Plaintiffs argue that
preventing them from bringing an action under the
statute providing for “civil remedies” for individuals
injured “by reason of an act of international terrorism,”
18 U.S.C. § 2333(a), would “impair the enforcement” of
those criminal statutes within the meaning of 47
U.S.C. § 230(e)(1). In response, citing the First Circuit’s
decision in Backpage.com, 817 F.3d at 23–24, Facebook
argues that Section 230(e)(1) pertains only to criminal
enforcement actions brought by a prosecutor, not civil
actions such as this.
We agree with the district court’s conclusion that
Section 230(e)(1) is inapplicable in this civil action.
Even accepting, arguendo, plaintiffs’ assertion that a
civil litigant could be said to “enforce” a criminal statute through a separate civil remedies provision, any
purported ambiguity in Section 230(e)(1) is resolved
by its title, “No effect on criminal law.”26 “Criminal law”
26

“[W]here the text is ambiguous, a statute’s titles can offer
‘a useful aid in resolving [the] ambiguity.’ ” Lawson v. FMR LLC,
571 U.S. 429, 465, 134 S.Ct. 1158, 188 L.Ed.2d 158 (2014)

37a
concerns “prosecuting and punishing offenders” and is
“contrasted with civil law,” which, as here, concerns
“private relations between individuals.” Criminal Law,
Civil Law, Oxford English Dictionary (3d ed. 2010).
Furthermore, as the First Circuit pointed out in Jane
Doe No. 1 v. Backpage.com, LLC, “where Congress
wanted to include both civil and criminal remedies in
CDA provisions, it did so through broader language.”
817 F.3d at 23. Section 230(e)(4), for example, states
that Section 230 “should not ‘be construed to limit the
application of the Electronic Communications Privacy
Act of 1986,’ a statute that contains both criminal penalties and civil remedies.” Id. (first quoting 18 U.S.C.
§ 230(e)(4), then citing 18 U.S.C. §§ 2511, 2520). In
light of the presumption that the use of “different
words within the same statutory scheme is deliberate,”
the fact that Congress’s word choice in “[p]reserving
the ‘application’ of this Act” is distinct from its “significantly narrower word choice in safeguarding the ‘enforcement’ of federal criminal statutes” counsels
against the broad reading of Section 230(e)(1) urged by
plaintiffs. Id. (citing Sosa v. Alvarez-Machain, 542 U.S.
692, 711 n.9, 124 S.Ct. 2739, 159 L.Ed.2d 718 (2004)).27

(quoting FTC v. Mandel Bros., Inc., 359 U.S. 385, 388-89, 79 S.Ct.
818, 3 L.Ed.2d 893 (1959) (alterations in original)).
27
We do not here decide whether the word “enforcing” in a
different provision, Section 230(e)(3), necessarily has the same
meaning as “enforcement” in Section 230(e)(1), given their different linguistic contexts. See 47 U.S.C. § 230(e)(3) (“Nothing in this
section shall be construed to prevent any State from enforcing any
State law that is consistent with this section.”); Beharry v. Ashcroft, 329 F.3d 51, 61 (2d Cir. 2003) (Sotomayor, J.) (“Usually

38a
We therefore join the First Circuit in concluding that
Section 230(e)(1) is “quite clearly . . . limited to criminal
prosecutions.” Backpage.com, 817 F.3d at 23. Accordingly, Section 230(e)(1) provides no obstacle to the
application of Section 230(c)(1) in this case.
IV. Whether the Anti-Terrorism Act’s Civil
Remedies Provision, 18 U.S.C. § 2333, Implicitly Narrowed or Repealed Section 230(c)(1)
Plaintiffs also argue that the ATA’s civil remedies
provision, 18 U.S.C. § 2333, irreconcilably conflicts
with Section 230 and impliedly repealed it when Congress amended Section 2333 by adopting the Justice
Against Sponsors of Terrorism Act (“JASTA”) in 2016.
JASTA, among other things, added civil liability for
aiding and abetting and civil conspiracy to Section
2333, with a stated purpose of “provid[ing] civil litigants with the broadest possible basis . . . to seek relief ” against material supporters of terrorism. Pub. L.
114-222, § 2(b), 130 Stat. 852, 853 (2016).
“[R]epeals by implication are not favored and will
not be presumed unless the intention of the legislature
to repeal is clear and manifest.” Nat’l Ass’n of Home
Builders v. Defs. of Wildlife, 551 U.S. 644, 662, 127 S.Ct.
2518, 168 L.Ed.2d 467 (2007) (citation, internal quotation marks, and alterations omitted). In other words,
“[a]n implied repeal will only be found where provisions in two statutes are in irreconcilable conflict, or
identical words in different sections mean identical things, but
not invariably. All depends on context.” (citation omitted)).

39a
where the latter Act covers the whole subject of the
earlier one and is clearly intended as a substitute.”
Branch v. Smith, 538 U.S. 254, 273, 123 S.Ct. 1429, 155
L.Ed.2d 407 (2003) (citation and internal quotation
marks omitted). Here, there is no irreconcilable conflict
between the statutes. Section 230 provides an affirmative defense to liability under Section 2333 for only the
narrow set of defendants and conduct to which Section
230 applies. JASTA merely expanded Section 2333’s
cause of action to secondary liability; it provides no
obstacle—explicit or implicit—to applying Section 230.
V.

Whether Applying Section 230(c)(1) to Plaintiffs’ Claims Would Be Impermissibly Extraterritorial

Plaintiffs also argue that the presumption against
the extraterritorial application of federal statutes
bars applying Section 230(c)(1) to their claims because
Hamas posted content and conducted the attacks from
overseas, and because Facebook’s employees who failed
to take down Hamas’s content were allegedly located
outside the United States, in Facebook’s foreign facilities. In response, Facebook contends that Section
230(c)(1) merely limits civil liability in American
courts, a purely domestic application.
Under the canon of statutory interpretation
known as the “presumption against extraterritoriality,” “[a]bsent clearly expressed congressional intent
to the contrary, federal laws will be construed to have
only domestic application.” RJR Nabisco, Inc. v.

40a
European Cmty., ___ U.S. ___, 136 S. Ct. 2090, 2100,
195 L.Ed.2d 476 (2016). The Supreme Court has instructed courts to apply “a two-step framework for analyzing extraterritoriality issues.” Id. at 2101. “At the
first step, we ask whether the presumption against extraterritoriality has been rebutted—that is, whether
the statute gives a clear, affirmative indication that it
applies extraterritorially.” Id.
If the statute is not extraterritorial on its face,
then “at the second step we determine whether the
case involves a domestic application of the statute, and
we do this by looking to the statute’s ‘focus.’ ” Id. “The
focus of a statute is the object of its solicitude, which
can include the conduct it seeks to regulate, as well as
the parties and interests it seeks to protect or vindicate.” WesternGeco LLC v. ION Geophysical Corp., ___
U.S. ___, 138 S. Ct. 2129, 2137, 201 L.Ed.2d 584 (2018)
(citation, internal quotation marks, and alterations
omitted). “If the conduct relevant to the statute’s focus
occurred in the United States, then the case involves a
permissible domestic application even if other conduct
occurred abroad. . . .” RJR Nabisco, 136 S. Ct. at 2101.
“[B]ut if the conduct relevant to the focus occurred in
a foreign country, then the case involves an impermissible extraterritorial application regardless of any
other conduct that occurred in U.S. territory.” Id.
The two-step framework arguably does not easily apply to a statutory provision that affords an affirmative defense to civil liability. Indeed, it is
unclear how an American court could apply such a provision “extraterritorially.” Even if it could be applied

41a
extraterritorially—say, by somehow treating the defendant’s conduct rather than the lawsuit itself as the
“focus” of a liability-limiting provision—the presumption against extraterritoriality primarily “serves to
avoid the international discord that can result when
U.S. law is applied to conduct in foreign countries.” Id.
at 2100. Allowing a plaintiff ’s claim to go forward because the cause of action applies extraterritorially,
while then applying the presumption to block a different provision setting out defenses to that claim, would
seem only to increase the possibility of international
friction. Such a regime could also give plaintiffs an advantage when they sue over extraterritorial wrongdoing that they would not receive if the defendant’s
conduct occurred domestically. It is doubtful that Congress ever intends such a result when it writes provisions limiting civil liability.
The Ninth Circuit addressed this issue in
Blazevska v. Raytheon Aircraft Co., 522 F.3d 948 (9th
Cir. 2008), which was decided prior to the Supreme
Court’s adoption of the two-step extraterritoriality
framework. The plaintiffs in Blazevska argued that the
General Aviation Revitalization Act’s (“GARA”) statute
of repose could not limit the defendant’s liability because, like here, certain events related to plaintiffs’
claims occurred overseas. Id. at 950. The Ninth Circuit
disagreed, holding that the presumption against extraterritoriality was inapplicable to a liability-limiting
statute. It found that GARA did not “impermissibly
regulate conduct that has occurred abroad,” and instead,

42a
merely eliminates the power of any party to
bring a suit for damages against a general aviation aircraft manufacturer, in a U.S. federal
or state court, after the limitation period. The
only conduct it could arguably be said to regulate is the ability of a party to initiate an action for damages against a manufacturer in
American courts—an entirely domestic endeavor. Congress has no power to tell courts of
foreign countries whether they could entertain a suit against an American defendant.
Id. at 953. “Accordingly,” the Ninth Circuit held, “the
presumption against extraterritoriality simply is not
implicated by GARA’s application.” Id.
The Supreme Court has left open the question of
whether certain types of statutes might not be subject
to the presumption against extraterritoriality. See
WesternGeco, 138 S. Ct. at 2136 (noting, without deciding, the question whether “the presumption against extraterritoriality should never apply to statutes . . . that
merely provide a general damages remedy for conduct
that Congress has declared unlawful”). However, we
need not decide here whether the presumption against
extraterritoriality is “simply . . . not implicated,”
Blazevska, 522 F.3d at 953, by statutes that merely
limit civil liability, or whether the two-step RJR
Nabisco framework must be applied, because that
framework is workable in this context and compels the
same result. At step two, we conclude from the text of
Section 230, particularly the words “shall be treated,”
that its primary purpose is limiting civil liability in

43a
American courts.28 The regulated conduct—the litigation of civil claims in federal courts—occurs entirely
domestically in its application here. We thus hold that
the presumption against extraterritoriality is no barrier to the application of Section 230(c)(1) in this case.29
VI. Foreign Law Claims
Turning next to plaintiffs’ foreign tort claims, the
parties disagree as to the reach of Section 230 immunity. The district court held that Section 230 applies to
foreign law claims brought in United States courts, but
it did not address the basis for its exercise of subject
matter jurisdiction over those claims. Before we can
reach the merits of those causes of action, including the
applicability of Section 230, we must independently
ensure the basis for federal subject matter jurisdiction.
Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574, 583, 119
S.Ct. 1563, 143 L.Ed.2d 760 (1999).
Plaintiffs allege that, under 28 U.S.C. § 1332(a)(2),
we have diversity jurisdiction over their foreign law
claims purportedly brought between “citizens of a
State and citizens or subjects of a foreign state.” It is
28

Although “a finding of extraterritoriality at step one will
obviate step two’s ‘focus’ inquiry,” courts may instead “start[ ] at
step two in appropriate cases.” RJR Nabisco, 136 S. Ct. at 2101
n.5.
29
Because we conclude that the affirmative defense of Section 230(c)(1) applies, we need not reach Facebook’s alternative
argument that plaintiffs’ complaint does not plausibly allege that,
absent such immunity, Facebook assisted Hamas under the federal antiterrorism claims.

44a
well established, however, that “United States citizens
who are domiciled abroad are neither citizens of any
state of the United States nor citizens or subjects of a
foreign state, and § 1332(a) does not provide that the
courts have jurisdiction over a suit to which such persons are parties.” Cresswell v. Sullivan & Cromwell,
922 F.2d 60, 68 (2d Cir. 1990). In other words, “a suit
by or against United States citizens domiciled abroad
may not be premised on diversity.” Id.; see also NewmanGreen, Inc. v. Alfonzo-Larrain, 490 U.S. 826, 829, 109
S.Ct. 2218, 104 L.Ed.2d 893 (1989) (stating that “stateless” United States citizens may not be parties to diversity-based suits).
Here, a substantial majority of the plaintiffs are
alleged to be United States citizens domiciled in Israel.30
A suit based on diversity jurisdiction may not proceed
with these plaintiffs as parties.
In addition, “[i]t is well established that for a case
to come within [ § 1332] there must be complete diversity,” Cresswell, 922 F.2d at 68, and the complaint
must set forth the citizenship of the parties, Leveraged
Leasing Admin. Corp. v. PacifiCorp Capital, Inc., 87
F.3d 44, 47 (2d Cir. 1996). Plaintiffs’ complaint fails to
allege the state citizenship, if any, of U.S.-citizen plaintiffs Taylor Force, Kristin Ann Force, Yaakov Naftali
Fraenkel, Chaya Zissel Braun, Richard Lakin, or the
minor-children plaintiffs S.S.R., M.M.R., R.M.R. and
30

A representative of a decedent’s estate is “deemed to be a
citizen only of the same State as the decedent.” 28 U.S.C.
§ 1332(c)(2).

45a
S.Z.R. We thus cannot determine on the present record
whether those plaintiffs are of diverse citizenship from
Facebook. Indeed, only two plaintiffs—Stuart Force
and Robbi Force—are alleged to be of diverse citizenship to Facebook.
The joinder of Israel-domiciled U.S.-citizen plaintiffs requires us either to dismiss the diversity-based
claims altogether, or exercise our discretion to: 1) dismiss those plaintiffs who we determine are “dispensable jurisdictional spoilers;” or 2) vacate in part the
judgment of the district court and remand for it to
make that indispensability determination and to determine whether dismissal of those individuals would
be appropriate. SCS Commc’ns, Inc. v. Herrick Co., 360
F.3d 329, 335 (2d Cir. 2004). As for the plaintiffs for
whom no state citizenship is alleged, we have discretionary authority to accept submissions for the purpose of amending the complaint on appeal, or we could
remand for amendment. See Leveraged Leasing, 87
F.3d at 47 (“Defective allegations of jurisdiction may be
amended, upon terms, in the trial or appellate courts.”
(quoting 28 U.S.C. § 1653)).
We decline to exercise our discretion to attempt to
remedy these jurisdictional defects. This is not a case
in which a small number of nondiverse parties defeats
jurisdiction, but rather one in which—after multiple
complaints have been submitted—most of the plaintiffs are improperly joined. Moreover, the case remains
at the pleading stage, with discovery not yet having begun. Proceeding with the few diverse plaintiffs would
be inefficient given the expenditure of judicial and

46a
party resources that would be required to address the
jurisdictional defects. The most appropriate course is
for any diverse plaintiffs to bring a new action and
demonstrate subject matter jurisdiction in that action.31 Accordingly, plaintiffs’ foreign law claims are
dismissed, without prejudice.32
CONCLUSION
For the foregoing reasons, we AFFIRM the judgment of the district court as to plaintiffs’ federal claims
and DISMISS plaintiffs’ foreign law claims.

Katzmann, Chief Judge, concurring in part and dissenting in part:
I agree with much of the reasoning in the excellent
majority opinion, and I join that opinion except for
Parts I and II of the Discussion. But I must respectfully
part company with the majority on its treatment of
31

Plaintiffs do not assert supplemental jurisdiction under 28
U.S.C. § 1367. All claims over which we have original jurisdiction
are dismissed at the pleading stage, see id. § 1367(c)(3), and, by
plaintiffs’ own argument, some of the foreign claims “differ[ ]
markedly from American concepts of . . . liability,” Appellants’ Br.
59; see id. § 1367(c)(1). Therefore, even assuming that plaintiffs’
foreign law claims form “part of the same case or controversy” as
their federal claims, 28 U.S.C. § 1367(a), we decline to exercise
supplemental jurisdiction here.
32
Because plaintiffs’ foreign law claims are dismissed on jurisdictional grounds, we express no opinion as to the district
court’s conclusion that Section 230 applies to foreign law claims
brought in United States courts.

47a
Facebook’s friend- and content-suggestion algorithms
under the Communications Decency Act (“CDA”).1

1

I agree with the majority that the CDA’s exception for enforcement of criminal laws, 47 U.S.C. § 230(e)(1), does not apply
to plaintiffs’ claims, see ante, at 71-72. However, I find the question to be somewhat closer than the majority does, in part because
some of the statutes enumerated in § 230(e)(1)themselves contain
civil remedies. Section 230(e)(1) states that “[n]othing in [ § 230]
shall be construed to impair the enforcement of section 223 or 231
of this title, chapter 71 (relating to obscenity) or 110 (relating to
sexual exploitation of children) of title 18, or any other Federal
criminal statute.” One of those enumerated chapters—Chapter
110 of Title 18—includes a civil suit provision for victims of specific child sex crimes. See 18 U.S.C. § 2255. Meanwhile, 47 U.S.C.
§ 223—which prohibits obscene or harassing phone calls—specifies that civil fines may be levied “pursuant to civil action by,” or
“after appropriate administrative proceedings” of, the Federal
Communications Commission (“FCC”), and it authorizes the Attorney General to bring civil suits to enjoin practices that violate
the statute. 47 U.S.C. § 223(b)(5)(B)- (b)(6). If § 230(e)(1) covers
“enforcement” of the listed chapters in their entirety, it is difficult
to see how it would not cover other provisions that authorize civil
suits for violations of criminal laws, particularly given that the
enumerated list is followed by “or any other criminal law.”
However, as detailed post, § 230 was designed as a privatesector-driven alternative to a Senate plan that would allow the
FCC “either civilly or criminally, to punish people” who put objectionable material on the Internet. 141 Cong. Rec. 22,045 (1995)
(statement of Rep. Cox); accord id. at 22,045-46 (statement of Rep.
Wyden); see Reno v. ACLU, 521 U.S. 844, 859 & n.24, 117 S.Ct.
2329, 138 L.Ed.2d 874 (1997). On the House floor, author Christopher Cox disparaged the idea of FCC enforcement and then
stated: “Certainly, criminal enforcement of our obscenity laws as
an adjunct is a useful way of punishing the truly guilty.” 141
Cong. Rec. 22,045 (emphasis added). This history, along with the
provision’s title, strongly suggests that § 230(e)(1) was intended
as a narrow criminal-law exception. It would be odd, then, to read

48a
As to the reasons for my disagreement, consider a
hypothetical. Suppose that you are a published author.
One day, an acquaintance calls. “I’ve been reading over
everything you’ve ever published,” he informs you. “I’ve
also been looking at everything you’ve ever said on the
Internet. I’ve done the same for this other author. You
two have very similar interests; I think you’d get
along.” The acquaintance then gives you the other author’s contact information and photo, along with a link
to all her published works. He calls back three more
times over the next week with more names of writers
you should get to know.
Now, you might say your acquaintance fancies
himself a matchmaker. But would you say he’s acting
as the publisher of the other authors’ work?
Facebook and the majority would have us answer
this question “yes.” I, however, cannot do so. For the
scenario I have just described is little different from
how Facebook’s algorithms allegedly work. And while
those algorithms do end up showing users profile,
group, or event pages written by other users, it strains
the English language to say that in targeting and recommending these writings to users—and thereby forging connections, developing new social networks—
Facebook is acting as “the publisher of . . . information
provided by another information content provider.” 47
U.S.C. § 230(c)(1) (emphasis added).

§ 230(e)(1) as allowing for civil enforcement by, among others, the
FCC, even if only in aid of criminal law enforcement.

49a
It would be one thing if congressional intent compelled us to adopt the majority’s reading. It does not.
Instead, we today extend a provision that was designed
to encourage computer service providers to shield minors from obscene material so that it now immunizes
those same providers for allegedly connecting terrorists to one another. Neither the impetus for nor the text
of § 230(c)(1) requires such a result. When a plaintiff
brings a claim that is based not on the content of the
information shown but rather on the connections Facebook’s algorithms make between individuals, the CDA
does not and should not bar relief.
The Anti-Terrorism Act (“ATA”) claims in this case
fit this bill. According to plaintiffs’ Proposed Second
Amended Complaint (“PSAC”)—which we must take
as true at this early stage—Facebook has developed
“sophisticated algorithm[s]” for bringing its users together. App’x 347 ¶ 622. After collecting mountains of
data about each user’s activity on and off its platform,
Facebook unleashes its algorithms to generate friend,
group, and event suggestions based on what it perceives to be the user’s interests. Id. at 345-46 ¶¶ 60814. If a user posts about a Hamas attack or searches
for information about a Hamas leader, Facebook may
“suggest” that that user become friends with Hamas
terrorists on Facebook or join Hamas-related Facebook
groups. By “facilitat[ing] [Hamas’s] ability to reach and
engage an audience it could not otherwise reach as effectively,” plaintiffs allege that Facebook’s algorithms
provide material support and personnel to terrorists.
Id. at 347 ¶ 622; see id. at 352-58 ¶¶ 646-77. As applied

50a
to the algorithms, plaintiffs’ claims do not seek to punish Facebook for the content others post, for deciding
whether to publish third parties’ content, or for editing
(or failing to edit) others’ content before publishing it.
In short, they do not rely on treating Facebook as “the
publisher” of others’ information. Instead, they would
hold Facebook liable for its affirmative role in bringing
terrorists together.
When it comes to Facebook’s algorithms, then,
plaintiffs’ causes of action do not run afoul of the CDA.
Because the court below did not pass on the merits of
the ATA claims pressed below, I would send this case
back to the district court to decide the merits in the
first instance. The majority, however, cuts off all possibility for relief based on algorithms like Facebook’s,
even if these or future plaintiffs could prove a sufficient nexus between those algorithms and their injuries. In light of today’s decision and other judicial
interpretations of the statute that have generally immunized social media companies—and especially in
light of the new reality that has evolved since the
CDA’s passage—Congress may wish to revisit the CDA
to better calibrate the circumstances where such immunization is appropriate and inappropriate in light
of congressional purposes.
I.
To see how far we have strayed from the path on
which Congress set us out, we must consider where
that path began. What is now 47 U.S.C. § 230 was

51a
added as an amendment to the Telecommunications
Act of 1996, a statute designed to deregulate and encourage innovation in the telecommunications industry. Pub. L. 104-104, § 509, 110 Stat. 56, 56, 137-39; see
Reno, 521 U.S. at 857, 117 S.Ct. 2329. Congress devoted
much committee attention to traditional telephone and
broadcast media; by contrast, the Internet was an afterthought, addressed only through floor amendments
or in conference. Reno, 521 U.S. at 857-58, 117 S.Ct.
2329. Of the myriad issues the emerging Internet implicated, Congress tackled only one: the ease with
which the Internet delivers indecent or offensive material, especially to minors. See Telecommunications
Act of 1996, tit. V, subtit. A, 110 Stat. at 133-39. And
§ 230 provided one of two alternative ways of handling
this problem.
The action began in the Senate. Senator James J.
Exon introduced the CDA on February 1, 1995. See 141
Cong. Rec. 3,203. He presented a revised bill on June
9, 1995, “[t]he heart and the soul” of which was “its protection for families and children.” Id. at 15,503 (statement of Sen. Exon). The Exon Amendment sought to
reduce the proliferation of pornography and other obscene material online by subjecting to civil and criminal penalties those who use interactive computer
services to make, solicit, or transmit offensive material. Id. at 15,505.
The House of Representatives had the same goal—
to protect children from inappropriate online material—but a very different sense of how to achieve it.
Congressmen Christopher Cox (R-California) and Ron

52a
Wyden (D-Oregon) introduced an amendment to the
Telecommunications Act, entitled “Online Family Empowerment,” about two months after the revised CDA
appeared in the Senate. See id. at 22,044. Making the
argument for their amendment during the House floor
debate, Congressman Cox stated:
We want to make sure that everyone in America has an open invitation and feels welcome
to participate in the Internet. But as you
know, there is some reason for people to be
wary because, as a Time Magazine cover story
recently highlighted, there is in this vast
world of computer information, a literal computer library, some offensive material, some
things in the bookstore, if you will, that our
children ought not to see.
As the parent of two, I want to make sure that
my children have access to this future and
that I do not have to worry about what they
might be running into on line. I would like to
keep that out of my house and off my computer.
Id. at 22,044-45. Likewise, Congressman Wyden said:
“We are all against smut and pornography, and, as the
parents of two small computer-literate children, my
wife and I have seen our kids find their way into these
chat rooms that make their middle-aged parents
cringe.” Id. at 22,045.
As both sponsors noted, the debate between the
House and the Senate was not over the CDA’s primary
purpose but rather over the best means to that shared

53a
end. See id. (statement of Rep. Cox) (“How should we
do this? . . . Mr. Chairman, what we want are results.
We want to make sure we do something that actually
works.”); id. (statement of Rep. Wyden) (“So let us all
stipulate right at the outset the importance of protecting our kids and going to the issue of the best way to
do it.”). While the Exon Amendment would have the
FCC regulate online obscene materials, the sponsors of
the House proposal “believe[d] that parents and families are better suited to guard the portals of cyberspace
and protect our children than our Government bureaucrats.” Id. at 22,045 (statement of Rep. Wyden). They
also feared the effects the Senate’s approach might
have on the Internet itself. See id. (statement of Rep.
Cox) (“[The amendment] will establish as the policy of
the United States that we do not wish to have content
regulation by the Federal Government of what is on
the Internet, that we do not wish to have a Federal
Computer Commission with an army of bureaucrats
regulating the Internet. . . .”). The Cox-Wyden Amendment therefore sought to empower interactive computer service providers to self-regulate, and to provide
tools for parents to regulate, children’s access to inappropriate material. See S. Rep. No. 104-230, at 194 S.
Rep. No. 104-230, at 194 (1996) (Conf. Rep.); 141 Cong.
Rec. 22,045 (statement of Rep. Cox).
There was only one problem with this approach, as
the House sponsors saw it. A New York State trial
court had recently ruled that the online service Prodigy, by deciding to remove certain indecent material
from its site, had become a “publisher” and thus was

54a
liable for defamation when it failed to remove other objectionable content. Stratton Oakmont, Inc. v. Prodigy
Servs. Co., 1995 WL 323710, at *4 (N.Y. Sup. Ct. May
24, 1995) (unpublished). The authors of § 230 saw the
Stratton-Oakmont decision as indicative of a “legal system [that] provides a massive disincentive for the people who might best help us control the Internet to do
so.” 141 Cong. Rec. 22,045 (statement of Rep. Cox). CoxWyden was designed, in large part, to remove that disincentive. See S. Rep. No. 104-230, at 194 S. Rep. No.
104-230, at 194.
The House having passed the Cox-Wyden Amendment and the Senate the Exon Amendment, the conference committee had before it two alternative visions
for countering the spread of indecent online material
to minors. The committee chose not to choose. Congress
instead adopted both amendments as part of a final
Communications Decency Act. See Telecommunications Act of 1996, §§ 502, 509, 110 Stat. at 133-39; Reno,
521 U.S. at 858 n.24, 117 S.Ct. 2329.2 The Supreme
Court promptly struck down two major provisions of
the Exon Amendment as unconstitutionally overbroad
under the First Amendment, leaving the new § 230 as

2

It helped that the Cox-Wyden Amendment exempted from
its deregulatory regime the very provisions that the Exon Amendment strengthened, see Telecommunications Act of 1996, §§ 502,
507-508, 509(d)(1), 110 Stat. at 133-39, and that Congress
stripped from the House bill a provision that would have denied
jurisdiction to the FCC to regulate the Internet, compare id.
§ 509, 110 Stat. at 138 (eliminating original § 509(d)), with 141
Cong. Rec. 22,044 (including original § 509(d)).

55a
the dominant force for securing decency on the Internet. See Reno, 521 U.S. at 849, 117 S.Ct. 2329.
Section 230 overruled Stratton-Oakmont through
two interlocking provisions, both of which survived the
legislative process unscathed. The first, which is at issue in this case, states that “[n]o provider or user of an
interactive computer service shall be treated as the
publisher or speaker of any information provided by
another information content provider.” 47 U.S.C.
§ 230(c)(1). The second provision eliminates liability
for interactive computer service providers and users
for “any action voluntarily taken in good faith to restrict access to or availability of material that the provider or user considers to be . . . objectionable,” or “any
action taken to enable or make available to . . . others
the technical means to restrict access to [objectionable]
material.” Id. § 230(c)(2). These two subsections tackle,
in overlapping fashion, the two jurisprudential moves
of the Stratton-Oakmont court: first, that Prodigy’s decision to screen posts for offensiveness rendered it “a
publisher rather than a distributor,” 1995 WL 323710,
at *4; and second, that by making good-faith efforts to
remove offensive material Prodigy became liable for
any actionable material it did not remove.
The legislative history illustrates that in passing
§ 230 Congress was focused squarely on protecting minors from offensive online material, and that it sought
to do so by “empowering parents to determine the content of communications their children receive through
interactive computer services.” S. Rep. No. 104-230, at
194 S. Rep. No. 104-230, at 194. The “policy” section of

56a
§ 230’s text reflects this goal. See 47 U.S.C. § 230(b)(3)(4).3 It is not surprising, then, that Congress emphasized the narrow civil liability shield that became
§ 230(c)(2), rather than the broad rule of construction
laid out in § 230(c)(1). Indeed, the conference committee summarized § 230 by stating that it “provides
‘Good Samaritan’ protections from civil liability for
providers or users of an interactive computer service
for actions to restrict or to enable restriction of access
to objectionable online material”—a description that
could just as easily have applied to § 230(c)(2) alone. S.
Rep. No. 104-230, at 194 S. Rep. No. 104-230, at 194.
Congress also titled the entirety of § 230(c) “Protection
for ‘Good Samaritan’ blocking and screening of offensive material,” suggesting that the definitional rule
outlined in § 230(c)(1) may have been envisioned as

3

The policy section of the statute also expresses Congress’s
desire “to preserve the vibrant and competitive free market that
presently exists for the Internet and other interactive computer
services, unfettered by Federal or State regulation.” 47 U.S.C.
§ 230(b)(2). It is therefore true that “Section 230 was enacted, in
part, to maintain the robust nature of Internet communication.”
Ricci v. Teamsters Union Local 456, 781 F.3d 25, 28 (emphasis
added) (quoting Zeran v. Am. Online, Inc., 129 F.3d 327, 330 (4th
Cir. 1997)); see ante, at 63. As the legislative history laid out in
this opinion shows, however, one cannot fully understand the purpose of § 230 without considering that it was one chamber’s proposal in a disagreement between the two houses of Congress over
how best to shield children from indecent material, and that in
that contest the House was principally concerned with two things:
(1) overruling Stratton-Oakmont and (2) preventing “a Federal
Computer Commission with an army of bureaucrats regulating
the Internet.” 141 Cong. Rec. 22,045 (statement of Rep. Cox).

57a
supporting or working in tandem with the civil liability
shield in § 230(c)(2).
None of this is to say that § 230(c)(1) exempts interactive computer service providers from publisher
treatment only when they remove indecent content.
Statutory text cannot be ignored, and Congress
grabbed a bazooka to swat the Stratton-Oakmont fly.
Whatever prototypical situation its drafters may have
had in mind, § 230(c)(1) does not limit its protection
to situations involving “obscene material” provided
by others, instead using the expansive word “information.”4 Illuminating Congress’s original intent does,
however, underscore the extent of § 230(c)(1)’s subsequent mission creep. Given how far both Facebook’s
suggestion algorithms and plaintiffs’ terrorism claims
swim from the shore of congressional purpose, caution
is warranted before courts extend the CDA’s reach any
further.

4

This point—that Congress chose broader language than
may have been necessary to accomplish its primary goal—should
not be confused with the Seventh Circuit’s rationale for
§ 230(c)(1)’s general application: that “a law’s scope often differs
from its genesis.” See Chi. Lawyers’ Cmte. for Civil Rights Under
Law, Inc. v. Craigslist, Inc., 519 F.3d 666, 671 (7th Cir. 2008).
True as this axiom might be, it does not apply here—the language
of § 230(c)(1) remained untouched from introduction to passage.
Nor is there any evidence from the legislative record that interest
groups altered the statutory language. But cf. id. (“Once the legislative process gets rolling, interest groups seek (and often obtain) other provisions.”). That § 230(c)(1)’s breadth flowed from
Congress’s desire to overrule Stratton-Oakmont, rather than from
mere interest group protectionism, matters.

58a
II.
With the CDA’s background in mind, I turn to the
text. By its plain terms, § 230 does not apply whenever
a claim would treat the defendant as “a publisher” in
the abstract, immunizing defendants from liability
stemming from any activity in which one thinks publishing companies commonly engage. Contra ante, at
65, 66, 70. It states, more specifically, that “[n]o provider or user of an interactive computer service shall
be treated as the publisher or speaker of any information provided by another information content provider.” 47 U.S.C. § 230(c)(1) (emphases added). “Here
grammar and usage establish that ‘the’ is a function
word indicating that a following noun or noun equivalent is definite. . . .” Nielsen v. Preap, ___ U.S. ___, 139
S. Ct. 954, 965, 203 L.Ed.2d 333 (2019) (citation and
internal quotation marks omitted). The word “publisher” in this statute is thus inextricably linked to the
“information provided by another.” The question is
whether a plaintiff ’s claim arises from a third party’s
information, and—crucially—whether to establish the
claim the court must necessarily view the defendant,
not as a publisher in the abstract, but rather as the
publisher of that third-party information. See FTC v.
LeadClick Media, LLC, 838 F.3d 158, 175 (2d Cir. 2016)
(stating inquiry as “whether the cause of action inherently requires the court to treat the defendant as the
‘publisher or speaker’ of content provided by another”).
For this reason, § 230(c)(1) does not necessarily
immunize defendants from claims based on promoting
content or selling advertising, even if those activities

59a
might be common among publishing companies nowadays. A publisher might write an email promoting a
third-party event to its readers, for example, but the
publisher would be the author of the underlying content and therefore not immune from suit based on that
promotion. See 47 U.S.C. § 230(c)(1), (f )(3). Similarly,
the fact that publishers may sell advertising based on
user data does not immunize the publisher if someone
brings a claim based on the publisher’s selling of the
data, because the claim would not treat the defendant
as the publisher of a third party’s content. Cf. Oberdorf
v. Amazon.com Inc., No. 18-1041, 930 F.3d 136, 153–54,
2019 WL 2849153, at *12 (3d Cir. July 3, 2019) (holding
that the CDA does not bar claims against Amazon.com
“to the extent that” they “rely on Amazon’s role as an
actor in the sales process,” including both “selling” and
“marketing”). Section 230(c)(1) limits liability based on
the function the defendant performs, not its identity.
Accordingly, our precedent does not grant publishers CDA immunity for the full range of activities in
which they might engage. Rather, it “bars lawsuits
seeking to hold a service provider liable for its exercise
of a publisher’s traditional editorial functions—such as
deciding whether to publish, withdraw, postpone or alter content” provided by another for publication. LeadClick, 838 F.3d at 174 (citation and internal quotation
marks omitted); accord Oberdorf, 930 F.3d at 151, 2019
WL 2849153, at *10; Jane Doe No. 1 v. Backpage.com,
LLC, 817 F.3d 12, 19 (1st Cir. 2016); Jones v. Dirty
World Entm’t Recordings LLC, 755 F.3d 398, 407 (6th
Cir. 2014); Barnes v. Yahoo!, Inc., 570 F.3d 1096, 1102

60a
(9th Cir. 2009); Zeran, 129 F.3d at 330; see Klayman v.
Zuckerberg, 753 F.3d 1354, 1359 (D.C. Cir. 2014); Ben
Ezra, Weinstein, & Co., Inc. v. Am. Online Inc., 206 F.3d
980, 986 (10th Cir. 2000). For instance, a claim against
a newspaper based on the content of a classified ad (or
the decision to publish or withdraw that ad) would fail
under the CDA not because newspapers traditionally
publish classified ads, but rather because such a claim
would necessarily treat the newspaper as the publisher of the ad-maker’s content. Similarly, the newspaper does not act as an “information content
provider”—and thus maintains its CDA protection—
when it decides to run a classified ad because it neither
“creates” nor “develops” the information in the ad. 47
U.S.C. § 230(f )(3).
This case is different. Looking beyond Facebook’s
“broad statements of immunity” and relying “rather on
a careful exegesis of the statutory language,” Barnes,
570 F.3d at 1100, the CDA does not protect Facebook’s
friend- and content-suggestion algorithms. A combination of two factors, in my view, confirms that claims
based on these algorithms do not inherently treat Facebook as the publisher of third-party content.5 First,
Facebook uses the algorithms to create and communicate its own message: that it thinks you, the reader—
you, specifically—will like this content. And second,
5

Many of Facebook’s algorithms mentioned in the PSAC,
such as its third-party advertising algorithm, its algorithm that
places content in a user’s newsfeed, and (based on the limited
description in the PSAC) its video recommendation algorithm,
remain immune under the analysis I set out here.

61a
Facebook’s suggestions contribute to the creation of
real-world social networks. The result of at least some
suggestions is not just that the user consumes a third
party’s content. Sometimes, Facebook’s suggestions allegedly lead the user to become part of a unique global
community, the creation and maintenance of which
goes far beyond and differs in kind from traditional editorial functions.
It is true, as the majority notes, see ante, at 70,
that Facebook’s algorithms rely on and display users’
content. However, this is not enough to trigger the protections of § 230(c)(1). The CDA does not mandate “a
‘but-for’ test that would provide immunity . . . solely
because a cause of action would not otherwise have accrued but for the third-party content.” HomeAway.com,
Inc. v. City of Santa Monica, 918 F.3d 676, 682 (9th Cir.
2019). Rather, to fall within § 230(c)(1)’s radius, the
claim at issue must inherently fault the defendant’s
activity as the publisher of specific third-party content.
Plaintiffs’ claims about Facebook’s suggestion algorithms do not do this. The complaint alleges that “Facebook collects detailed information about its users,
including, inter alia, the content they post, type of content they view or engage with, people they communicate with, groups they belong to and how they interact
with such groups, visits to third party websites, apps
and Facebook partners.” App’x 345 ¶ 608. Then the algorithms “utilize the collected data to suggest friends,
groups, products, services and local events, and target
ads” based on each user’s input. Id. at 346 ¶ 610.

62a
If a third party got access to Facebook users’ data,
analyzed it using a proprietary algorithm, and sent its
own messages to Facebook users suggesting that people become friends or attend one another’s events, the
third party would not be protected as “the publisher”
of the users’ information. Similarly, if Facebook were to
use the algorithms to target its own material to particular users, such that the resulting posts consisted of
“information provided by” Facebook rather than by
“another information content provider,” § 230(c)(1), Facebook clearly would not be immune for that independent message.
Yet that is ultimately what plaintiffs allege Facebook is doing. The PSAC alleges that Facebook “actively provides ‘friend suggestions’ between users who
have expressed similar interests,” and that it “actively
suggests groups and events to users.” App’x 346
¶¶ 612-13. Facebook’s algorithms thus allegedly provide the user with a message from Facebook. Facebook
is telling users—perhaps implicitly, but clearly—that
they would like these people, groups, or events. In this
respect, Facebook “does not merely provide a framework that could be utilized for proper or improper purposes; rather, [Facebook’s] work in developing” the
algorithm and suggesting connections to users based
on their prior activity on Facebook, including their
shared interest in terrorism, “is directly related to the
alleged illegality of the site.” Fair Housing Council of
San Fernando Valley v. Roommates.Com, LLC, 521
F.3d 1157, 1171 (9th Cir. 2008) (en banc). The fact that
Facebook also publishes third-party content should not

63a
cause us to conflate its two separate roles with respect to its users and their information. Facebook
may be immune under the CDA from plaintiffs’ challenge to its allowance of Hamas accounts, since Facebook acts solely as the publisher of the Hamas users’
content. That does not mean, though, that it is also immune when it conducts statistical analyses of that information and delivers a message based on those
analyses.
Moreover, in part through its use of friend, group,
and event suggestions, Facebook is doing more than
just publishing content: it is proactively creating networks of people. Its algorithms forge real-world (if
digital) connections through friend and group suggestions, and they attempt to create similar connections
in the physical world through event suggestions. The
cumulative effect of recommending several friends, or
several groups or events, has an impact greater than
the sum of each suggestion. It envelops the user, immersing her in an entire universe filled with people,
ideas, and events she may never have discovered on
her own. According to the allegations in the complaint,
Facebook designed its website for this very purpose.
“Facebook has described itself as a provider of products and services that enable users . . . to find and
connect with other users. . . .” App’x 250 ¶ 129. CEO
Mark Zuckerberg has similarly described Facebook as
“build[ing] tools to help people connect with the people
they want,” thereby “extending people’s capacity to
build and maintain relationships.” Id. at 251 ¶ 132. Of
course, Facebook is not the only company that tries to

64a
bring people together this way, and perhaps other publishers try to introduce their readers to one another.
Yet the creation of social networks goes far beyond the
traditional editorial functions that the CDA immunizes.
Another way to consider the CDA immunity question is to “look . . . to what the duty at issue actually
requires: specifically, whether the duty would necessarily require an internet company to monitor[, alter,
or remove] third-party content.” HomeAway.com, 918
F.3d at 682. Here, too, the claims regarding the algorithms are a poor fit for statutory immunity. The duty
not to provide material support to terrorism, as applied
to Facebook’s use of the algorithms, simply requires
that Facebook not actively use that material to determine which of its users to connect to each other. It
could stop using the algorithms altogether, for instance. Or, short of that, Facebook could modify its algorithms to stop them introducing terrorists to one
another. None of this would change any underlying
content, nor would it necessarily require courts to assess further the difficult question of whether there is
an affirmative obligation to monitor that content.
In reaching this conclusion, I note that ATA torts
are atypical. Most of the common torts that might be
pleaded in relation to Facebook’s algorithms “derive liability from behavior that is identical to publishing or
speaking”—for instance, “publishing defamatory material; publishing material that inflicts emotional distress; or . . . attempting to de-publish hurtful material
but doing it badly.” Barnes, 570 F.3d at 1107. The fact

65a
that Facebook has figured out how to target material
to people more likely to read it does not matter to a
defamation claim, for instance, because the mere act of
publishing in the first place creates liability.
The ATA works differently. Plaintiffs’ material
support and aiding and abetting claims premise liability, not on publishing qua publishing, but rather on
Facebook’s provision of services and personnel to Hamas.
It happens that the way in which Facebook provides
these benefits includes republishing content, but Facebook’s duties under the ATA arise separately from the
republication of content. Cf. id. (determining that liability on a promissory estoppel theory for promising to
remove content “would come not from Yahoo’s publishing conduct, but from Yahoo’s manifest intention to be
legally obligated to do something, which happens to be
removal of material from publication”). For instance,
the operation of the algorithms is allegedly provision
of “expert advice or assistance,” and the message implied by Facebook’s prodding is allegedly a “service” or
an attempt to provide “personnel.” 18 U.S.C. § 2339A(b).
For these reasons, § 230(c)(1) does not bar plaintiffs’ claims.
III.
Even if we sent this case back to the district court,
as I believe to be the right course, these plaintiffs
might have proven unable to allege that Facebook’s
matchmaking algorithms played a role in the attacks
that harmed them. However, assuming arguendo that

66a
such might have been the situation here, I do not think
we should foreclose the possibility of relief in future
cases if victims can plausibly allege that a website
knowingly brought terrorists together and that an attack occurred as a direct result of the site’s actions.
Though the majority shuts the door on such claims, today’s decision also illustrates the extensive immunity
that the current formulation of the CDA already extends to social media companies for activities that
were undreamt of in 1996. It therefore may be time for
Congress to reconsider the scope of § 230.
As is so often the case with new technologies, the
very qualities that drive social media’s success—its
ease of use, open access, and ability to connect the
world—have also spawned its demons. Plaintiffs’ complaint illustrates how pervasive and blatant a presence
Hamas and its leaders have maintained on Facebook.
Hamas is far from alone—Hezbollah, Boko Haram, the
Revolutionary Armed Forces of Colombia, and many
other designated terrorist organizations use Facebook
to recruit and rouse supporters. Vernon Silver & Sarah
Frier, Terrorists Are Still Recruiting on Facebook, Despite
Zuckerberg’s Reassurances, Bloomberg Businessweek
(May 10, 2018), http://www.bloomberg.com/news/articles/
2018-05-10/terrorists-creep-onto-facebook-as-fast-as-itcan-shut-them-down. Recent news reports suggest
that many social media sites have been slow to remove
the plethora of terrorist and extremist accounts populating their platforms,6 and that such efforts, when
6

See, e.g., Gregory Waters & Robert Postings, Spiders of
the Caliphate: Mapping the Islamic State’s Global Support

67a
they occur, are often underinclusive. Twitter, for instance, banned the Ku Klux Klan in 2018 but allowed
David Duke to maintain his account, see Roose & Conger, supra, while researchers found that Facebook removed fewer than half the terrorist accounts and posts
those researchers identified, see Waters & Postings,
supra, at 8; Desmond Butler & Barbara Ortulay, Facebook Auto-Generates Videos Celebrating Extremist
Images, Assoc. Press (May 9, 2019), http://apnews.com/
f97c24dab4f34bd0b48b36f2988952a4. Those whose
accounts are removed often pop up again under different names or with slightly different language in their
profiles, playing a perverse and deadly game of Whacka-Mole with Silicon Valley. See Isaac, supra; Silver &
Frier, supra.
Of course, the failure to remove terrorist content,
while an important policy concern, is immunized under § 230 as currently written. Until today, the same
could not have been said for social media’s unsolicited,

Network on Facebook 8, Counter Extremism Project (May 2018),
http://www.counterextremism.com/sites/default/files/Spiders%20of
%20the%20Caliphate%20%28May%202018%29.pdf; Yaacov Benmeleh & Felice Maranz, Israel Warns Twitter of Legal Action
Over Requests to Remove Content, Bloomberg (Mar. 20, 2018),
http://www.bloomberg.com/news/articles/2018-03-20/israel-warnstwitter-of-legal-steps-over-incitement-to-terrorism; Mike Isaac,
Twitter Steps Up Efforts to Thwart Terrorists’ Tweets, N.Y. Times
(Feb. 5, 2016), http://www.nytimes.com/2016/02/06/technology/
twitter-account-suspensions-terrorism.html; Kevin Roose & Kate
Conger, YouTube to Remove Thousands of Videos Pushing Extreme Views, N.Y. Times (June 5, 2019), http://www.nytimes.com/
2019/06/05/business/youtube-remove-extremist-videos.html.

68a
algorithmic spreading of terrorism. Shielding internet
companies that bring terrorists together using algorithms could leave dangerous activity unchecked.
Take Facebook. As plaintiffs allege, its friend-suggestion algorithm appears to connect terrorist sympathizers with pinpoint precision. For instance, while two
researchers were studying Islamic State (“IS”) activity
on Facebook, one “received dozens of pro-IS accounts
as recommended friends after friending just one proIS account.” Waters & Postings, supra, at 78. More disturbingly, the other “received an influx of Philippinesbased IS supporters and fighters as recommended
friends after liking several non-extremist news pages
about Marawi and the Philippines during IS’s capture
of the city.” Id. News reports indicate that the friendsuggestion feature has introduced thousands of IS
sympathizers to one another. See Martin Evans, Facebook Accused of Introducing Extremists to One Another
Through ‘Suggested Friends’ Feature, The Telegraph
(May 5, 2018), http://www.telegraph.co.uk/news/2018/05/
05/facebook-accused-introducing-extremists-one-another-suggested.
And this is far from the only Facebook algorithm
that may steer people toward terrorism. Another
turns users’ declared interests into audience categories to enable microtargeted advertising. In 2017, acting on a tip, ProPublica sought to direct an ad at the
algorithmically-created category “Jew hater”—which
turned out to be real, as were “German Schutzstaffel,”
“Nazi Party,” and “Hitler did nothing wrong.” Julia Angwin
et al., Facebook Enabled Advertises [sic] to Reach

69a
‘Jew Haters,’ ProPublica (Sept. 14, 2017), https://www.
propublica.org/article/facebookenabled-advertisers-toreach-jew-haters. As the “Jew hater” category was too
small for Facebook to run an ad campaign, “Facebook’s
automated system suggested ‘Second Amendment’ as
an additional category . . . presumably because its
system had correlated gun enthusiasts with antiSemites.” Id.
That’s not all. Another Facebook algorithm autogenerates business pages by scraping employment information from users’ profiles; other users can then
“like” these pages, follow their posts, and see who else
has liked them. Butler & Ortutay, supra. ProPublica
reports that extremist organizations including alQaida, al-Shabab, and IS have such auto-created
pages, allowing them to recruit the pages’ followers. Id.
The page for al-Qaida in the Arabian Peninsula included the group’s Wikipedia entry and a propaganda
photo of the damaged USS Cole, which the group had
bombed in 2000. Id. Meanwhile, a fourth algorithm integrates users’ photos and other media to generate
videos commemorating their previous year. Id. Militants get a ready-made propaganda clip, complete with
a thank-you message from Facebook. Id.
This case, and our CDA analysis, has centered on
the use of algorithms to foment terrorism. Yet the consequences of a CDA-driven, hands-off approach to social media extend much further. Social media can be
used by foreign governments to interfere in American
elections. For example, Justice Department prosecutors recently concluded that Russian intelligence

70a
agents created false Facebook groups and accounts in
the years leading up to the 2016 election campaign,
bootstrapping Facebook’s algorithm to spew propaganda that reached between 29 million and 126 million
Americans. See 1 Robert S. Mueller III, Special Counsel, Report on the Investigation Into Russian Interference in the 2016 PresidentialElection 24-26, U.S. Dep’t
of Justice (March 2019), http://www.justice.gov/storage/
report.pdf. Russia also purchased over 3,500 advertisements on Facebook to publicize their fake Facebook
groups, several of which grew to have hundreds of
thousands of followers. Id. at 25-26. On Twitter, Russia
developed false accounts that impersonated American
people or groups and issued content designed to influence the election; it then created thousands of automated “bot” accounts to amplify the sham Americans’
messages. Id. at 26-28. One fake account received over
six million retweets, the vast majority of which appear
to have come from real Twitter users. See Gillian
Cleary, Twitterbots: Anatomy of a Propaganda Campaign,
Symantec (June 5, 2019), http://www.symantec.com/blogs/
threat-intelligence/twitterbots-propaganda-disinformation.
Russian intelligence also harnessed the reach that social media gave its false identities to organize “dozens
of U.S. rallies,” some of which “drew hundreds” of realworld Americans. Mueller, Report, supra, at 29. Russia
could do all this only because social media is designed
to target messages like Russia’s to the users most susceptible to them.
While Russia’s interference in the 2016 election
is the best-documented example of foreign meddling

71a
through social media, it is not the only one. Federal
intelligence agencies expressed concern in the weeks
before the 2018 midterm election “about ongoing campaigns by Russia, China and other foreign actors, including Iran,” to “influence public sentiment” through
means “including using social media to amplify divisive issues.” Press Release, Office of Dir. of Nat’l Intelligence, Joint Statement from the ODNI, DOJ, FBI,
and DHS: Combatting Foreign Influence in U.S. Elections, (Oct. 19, 2018), https://www.dni.gov/index.php/
newsroom/press-releases/item/1915-joint-statement-fromthe-odni-doj-fbi-and-dhs-combating-foreign-influencein-u-s-elections. News reports also suggest that China
targets state-sponsored propaganda to Americans on
Facebook and purchases Facebook ads to amplify its
communications. See Paul Mozur, China Spreads Propaganda to U.S. on Facebook, a Platform It Bans at
Home, N.Y. Times (Nov. 8, 2017), https://www.nytimes.com/
2017/11/08/technology/china-facebook.html.
Widening the aperture further, malefactors at
home and abroad can manipulate social media to promote extremism. “Behind every Facebook ad, Twitter
feed, and YouTube recommendation is an algorithm
that’s designed to keep users using: It tracks preferences through clicks and hovers, then spits out a
steady stream of content that’s in line with your tastes.”
Katherine J. Wu, RadicalIdeas Spread Through Social
Media. Are the Algorithms to Blame?, PBS (Mar. 28,
2019), https://www.pbs.org/wgbh/nova/article/radicalideas-social-media-algorithms. All too often, however,
the code itself turns those tastes sour. For example,

72a
one study suggests that manipulation of Facebook’s
news feed influences the mood of its users: place more
positive posts on the feed and users get happier; focus
on negative information instead and users get angrier.
Adam D. I. Kramer et al., Experimental Evidence of
Massive-Scale Emotional Contagion Through Social
Networks, 111 PNAS 8788, 8789 (2014). This can become
a problem, as Facebook’s algorithm “tends to promote
the most provocative content” on the site. Max Fisher,
Inside Facebook’s Secret Rulebook for Global Political
Speech, N.Y. Times (Dec. 27, 2018), http://www.nytimes.com/
2018/12/27/world/facebook-moderators.html. Indeed,
“[t]he Facebook News Feed environment brings together, in one place, many of the influences that have
been shown to drive psychological aspects of polarization.” Jaime E. Settle, Frenemies: How Social Media
Polarizes America (2018). Likewise, YouTube’s video
recommendation algorithm—which leads to more than
70 percent of time people spend on the platform—has
been criticized for shunting visitors toward ever more
extreme and divisive videos. Roose & Conger, supra;
see Jack Nicas, How YouTube Drives People to the Internet’s Darkest Corners, Wall St. J. (Feb. 7, 2018),
https://www.wsj.com/articles/how-youtube-drives-viewersto-the-internets-darkest-corners-1518020478. YouTube
has fine-tuned its algorithm to recommend videos that
recalibrate users’ existing areas of interest and steadily steer them toward new ones—a modus operandi
that has reportedly proven a real boon for far-right
extremist content. See Kevin Roose, The Making of
a YouTube Radical, N.Y. Times (June 8, 2019),

73a
http://www.nytimes.com/interactive/2019/06/08/technology/
youtube-radical.html.
There is also growing attention to whether social
media has played a significant role in increasing nationwide political polarization. See Andrew Soergel,
Is Social Media to Blame for Political Polarization
in America?, U.S. News & World Rep. (Mar. 20, 2017),
https://www.usnews.com/news/articles/2017-03-20/
is-social-media-to-blame-for-political-polarization-inamerica. The concern is that “web surfers are being
nudged in the direction of political or unscientific propaganda, abusive content, and conspiracy theories.”
Wu, Radical Ideas, supra. By surfacing ideas that were
previously deemed too radical to take seriously, social
media mainstreams them, which studies show makes
people “much more open” to those concepts. Max Fisher
& Amanda Taub, How Everyday Social Media Users
Become Real-World Extremists, N.Y. Times (Apr. 25,
2018), http://www.nytimes.com/2018/04/25/world/asia/
facebook-extremism.html. At its worst, there is evidence that social media may even be used to push
people toward violence.7 The sites are not entirely to
7

See, e.g., Sarah Marsh, Social Media Related to Violence
by Young People, Say Experts, The Guardian (Apr. 2, 2018),
https://www.theguardian.com/media/2018/apr/02/social-mediaviolence-young-people-gangs-say-experts; Kevin Roose, A Mass
Murder of, and for, the Internet, N.Y. Times (Mar. 15, 2019),
https://www.nytimes.com/2019/03/15/technology/facebook-youtubechristchurch-shooting.html; Craig Timberg et al., The New Zealand Shooting Shows How TouTube [sic] and Facebook Spread
Hate and Violent Images—Yet Again, Wash. Post (Mar. 15, 2019),
https://www.washingtonpost.com/technology/2019/03/15/facebookyoutube-twitter-amplified-video-christchurch-mosque-shooting;

74a
blame, of course—they would not have such success
without humans willing to generate and to view extreme content. Providers are also tweaking the algorithms to reduce their pull toward hate speech and
other inflammatory material. See Isaac, supra; Roose
& Conger, supra. Yet the dangers of social media, in its
current form, are palpable.
While the majority and I disagree about whether
§ 230 immunizes interactive computer services from liability for all these activities or only some, it is pellucid
that Congress did not have any of them in mind when
it enacted the CDA. The text and legislative history of
the statute shout to the rafters Congress’s focus on reducing children’s access to adult material. Congress
could not have anticipated the pernicious spread of
hate and violence that the rise of social media likely
has since fomented. Nor could Congress have divined
the role that social media providers themselves would
play in this tale. Mounting evidence suggests that providers designed their algorithms to drive users toward
content and people the users agreed with—and that
they have done it too well, nudging susceptible souls
ever further down dark paths. By contrast, when the
CDA became law, the closest extant ancestor to Facebook (and it was still several branches lower on the
evolutionary tree) was the chatroom or message forum,

Julie Turkewitz & Kevin Roose, Who Is Robert Bowers, the Suspect in the Pittsburgh Synagogue Shooting?, N.Y. Times (Oct.
27, 2018), https://www.nytimes.com/2018/10/27/us/robert-bowerspittsburgh-synagogue-shooter.html.

75a
which acted as a digital bulletin board and did nothing
proactive to forge off-site connections.8
Whether, and to what extent, Congress should allow liability for tech companies that encourage terrorism, propaganda, and extremism is a question for
legislators, not judges. Over the past two decades “the
Internet has outgrown its swaddling clothes,” Roommates.Com, 521 F.3d at 1175 n.39, and it is fair to ask
whether the rules that governed its infancy should still
oversee its adulthood. It is undeniable that the Internet and social media have had many positive effects
worth preserving and promoting, such as facilitating
open communication, dialogue, and education. At the
same time, as outlined above, social media can be manipulated by evildoers who pose real threats to our
democratic society. A healthy debate has begun both in

8

See Caitlin Dewey, A Complete History of the Rise and
Fall—and Reincarnation!—of the Beloved ‘90s Chatroom, Wash.
Post (Oct. 30, 2014), http://www.washingtonpost.com/news/theintersect/wp/2014/10/30/a-complete-history-of-the-rise-and-fall-andreincarnation-of-the-beloved-90s-chatroom; see also Then and Now:
A History of Social Networking Sites, CBS News, http://www.
cbsnews.com/pictures/then-and-now-a-history-of-social-networkingsites (last accessed July 9, 2019) (detailing the evolution of social
media sites from Classmates, launched only “as a list of school
affiliations” in December 1995; to “the very first social networking
site” Six Degrees, which launched in May 1997 but whose networks were limited “due to the lack of people connected to the
Internet”; to Friendster, launched in March 2002 and “credited as
giving birth to the modern social media movement”; to Facebook,
which was “rolled out to the public in September 2006”).

76a
the legal academy9 and in the policy community10
about changing the scope of § 230. Perhaps Congress
will clarify what I believe the text of the provision already states: that the creation of social networks
reaches beyond the publishing functions that § 230
9

See, e.g., Danielle Keats Citron & Benjamin Wittes, The
Problem Isn’t Just Backpage: Revising Section 230 Immunity, 2
Geo. L. Tech. Rev. 453, 454-55 (2018); Jeff Kosseff, Defending Section 230: The Value of Intermediary Immunity, 15 J. Tech. L. &
Pol’y 123, 124 (2010); Daniela C. Manzi, Managing the Misinformation Marketplace: The First Amendment and the Fight Against
Fake News, 87 Fordham L. Rev. 2623, 2642-43 (2019). Much of
the enterprising legal scholarship debating the intersection of social media, terrorism, and the CDA comes from student Notes.
See, e.g., Jaime E. Freilich, Note, Section 230’s Liability Shield in
the Age of Online Terrorist Recruitment, 83 Brook. L. Rev. 675,
690-91 (2018); Anna Elisabeth Jayne Goodman, Note and Comment, When You Give a Terrorist a Twitter: Holding Social Media
Companies Liable for their Support of Terrorism, 46 Pepp. L. Rev.
147, 182-86 (2018); Nicole Phe, Note, Social Media Terror: Reevaluating Intermediary LiabilityUnder the Communications Decency
Act, 51 Suffolk U. L. Rev. 99, 126-30 (2018).
10
See, e.g., Tarleton Gillespie, How Social Networks Set the
Limits of What We Can Say Online, Wired (June 26, 2018),
http://www.wired.com/story/how-social-networks-set-the-limitsof-what-we-can-say-online; Christiano Lima, How a Widening
Political Rift Over Online Liability Is Splitting Washington, Politico
(July 9, 2019), http://www.politico.com/story/2019/07/09/onlineindustry-immunity-section-230-1552241; Mark Sullivan, The
1996 Law That Made the Web Is in the Crosshairs, Fast Co. (Nov.
29, 2018), http://www.fastcompany.com/90273352/maybe-itstime-to-take-away-the-outdated-loophole-that-big-tech-exploits;
cf. Darrell M. West & John R. Allen, How Artificial Intelligence Is Transforming the World, Brookings (Apr. 24, 2018),
http://www.brookings.edu/research/how-artificial-intelligence-istransforming-the-world (“The malevolent use of AI exposes individuals and organizations to unnecessary risks and undermines
the virtues of the emerging technology.”).

77a
protects. Perhaps Congress will engage in a broader
rethinking of the scope of CDA immunity. Or perhaps
Congress will decide that the current regime best balances the interests involved. In the meantime, however, I cannot join my colleagues’ decision to immunize
Facebook’s friend- and content-suggestion algorithms
from judicial scrutiny. I therefore must in part respectfully dissent, as I concur in part.

78a
304 F.Supp.3d 315
United States District Court, E.D. New York.
Stuart FORCE, individually and as Administrator
on behalf of the Estate of Taylor Force, et al.,
Plaintiffs,
v.
FACEBOOK, INC., Defendant.
16-CV-5158 (NGG) (LB)
|
Signed January 17, 2018
|
Filed 01/18/2018
Attorneys and Law Firms
Robert Joseph Tolchin, The Berkman Law Office, LLC,
Brooklyn, NY, for Plaintiffs.
Kenneth W. Allen, Craig S. Primis, Pro Hac Vice, Kirkland & Ellis LLP, Washington, DC, Paul S. Grewal, Facebook, Inc., Menlo Park, CA, Shireen Anneke Barday,
Thomas Aulden Burcher-DuPont, Kirkland & Ellis
LLP, New York, NY, for Defendant.
MEMORANDUM & ORDER
NICHOLAS G. GARAUFIS, United States District
Judge
Plaintiffs in the above-captioned action are the
victims, estates, and family members of victims of terrorist attacks in Israel. (1st Am. Compl. (“FAC”) (Dkt.
28).) They assert various claims against Facebook, Inc.
(“Facebook”) based on their contention that Facebook

79a
has supported the terrorist organization Hamas by allowing that group and its members and supporters to
use Facebook’s social media platform to further their
aims.
On May 18, 2017, the court dismissed Plaintiffs’
first amended complaint without prejudice for failure
to state a claim upon which relief may be granted.1
(May 18, 2017, Mem. & Order (“May 18 M & O”) (Dkt.
48).) Before the court are Plaintiffs’ motions to alter
the judgment dismissing the first amended complaint
(Mot. to Alter J. (“Recons. Mot.”) (Dkt. 50)) and for leave
to file a second amended complaint (Mot. for Leave to
File 2d Am. Compl. (“Amendment Mot.”) (Dkt. 52)). For
the following reasons, the court DENIES both motions.
I.

BACKGROUND

The court assumes familiarity with Plaintiffs’ allegations and the court’s prior decision granting Facebook’s motion to dismiss Plaintiffs’ first amended
complaint. (See May 18 M & O.) In that opinion, the
court specified that the dismissal was without prejudice. (Id. at 28.) On June 15, 2017, Plaintiffs filed two
motions: first, a motion to alter the judgment, “retracting [the May 18 M & O] and issuing a modified opinion
denying Facebook’s motion to dismiss” (Recons. Mot.);
and second, a motion for leave to file a second amended
1

In that order, the court also addressed the factually similar
allegations in Cohen v. Facebook, Inc., No. 16-CV-4453, and dismissed the operative complaint in that case as well. (May 18 M &
O.)

80a
complaint, a copy of which Plaintiffs appended to their
memorandum in support of that motion (Amendment
Mot.; see also Proposed 2d Am. Compl. (“PSAC”) (Dkt.
53-1)).
II.

DISCUSSION
A. Motion to Alter the Judgment

Plaintiffs ask the court to reconsider its dismissal
of the first amended complaint. The court concluded
that all of the claims contained therein were barred by
Section 230(c)(1) (“Section 230”) of the Communications Decency Act (“CDA”), 47 U.S.C. § 230(c)(1). That
law states that “[n]o provider or user of an interactive
computer service shall be treated as the publisher or
speaker of any information provided by another information content provider.” 47 U.S.C. § 230(c)(1). Examining the myriad opinions considering the application
of that law, the court concluded that each of Plaintiffs’
claims and theories of liability sought to hold Facebook
liable based on its role as the “publisher or speaker” of
social media content generated by Hamas and affiliated individuals, and so were barred by the defense afforded by Section 230. (May 18 M & O at 17-23.) The
court also held that applying Section 230 to the claims
and theories at issue did not require an impermissible
extraterritorial application of the CDA, as the relevant
location for its extraterritoriality analysis was “the situs of the litigation.” (Id. at 26.)
Plaintiffs contend that the court erred both in its
determination that Section 230 applied to the claims

81a
raised in the first amended complaint and that the application of that law to those claims was not impermissibly extraterritorial. They seek reconsideration and
rescission of the opinion dismissing their complaint
pursuant to Rule 59(e) of the Federal Rules of Civil
Procedure. For the reasons that follow, the court sees
no reason to reconsider its previous decision dismissing the first amended complaint.
1.

Legal Standard

“A motion for reconsideration should be granted
only when the [moving party] identifies ‘an intervening
change of controlling law, the availability of new evidence, or the need to correct a clear error or prevent
manifest injustice.’ ” Kolel Beth Yechiel Mechil of
Tartikov, Inc. v. YLL Irrevocable Tr., 729 F.3d 99, 104
(2d Cir. 2013) (quoting Virgin Atl. Airways v. Nat’l Mediation Bd., 956 F.2d 1245, 1255 (2d Cir. 1992)). “It is
well-settled that Rule 59 is not a vehicle for relitigating old issues, presenting the case under new theories,
securing a rehearing on the merits, or otherwise taking
a ‘second bite at the apple.’ ” Analytical Surveys, Inc. v.
Tonga Partners, L.P., 684 F.3d 36, 52 (2d Cir. 2012) (internal quotation marks and citation omitted). “[T]he
standard for granting a Rule 59 motion for reconsideration is strict, and reconsideration will generally be denied unless the moving party can point to controlling
decisions or data that the court overlooked.” Id. (quoting Shrader v. CSX Transp., Inc., 70 F.3d 255, 257 (2d
Cir. 1995)) (alterations omitted). “The burden is on the
movant to demonstrate that the Court overlooked

82a
controlling decisions or material facts that were before
it on the original motion and that might materially
have influenced its earlier decision.” Schoolcraft v. City
of New York, 248 F.Supp.3d 506, 508 (S.D.N.Y. 2017);
see also Levin v. Gallery 63 Antiques Corp., No. 04-CV1504 (KMK), 2007 WL 1288641, at *2 (S.D.N.Y. Apr. 30,
2007) (“Motions for reconsideration allow the district
court to correct its own mistakes, not those of the Parties.” (internal quotation marks and citations omitted)).
2.

Application

Plaintiffs argue that the court erred in (1) determining that the “focus” of Section 230 was on the “limitation of liability;” and (2) applying Section 230 to the
claims against Facebook and, particularly, to claims
raised under the Anti-Terrorism Act (“ATA”) and Israeli law. (See generally Mem. in Supp. of Mot. for Recons. (“Recons. Mem.” (Dkt. 51).)) The court addresses
these arguments in turn.
a. “Focus” of Section 230
Plaintiffs first argue that the court erred in concluding that the presumption against extraterritoriality did not preclude application of Section 230 to the
allegations raised in the first amended complaint.
Plaintiffs take particular issue with the court’s determination that Section 230’s “focus” was on that section’s “limitation on liability.” (Recons. Mem. at 4
(quoting May 18 M & O at 25).) Plaintiffs argue both

83a
that the court’s identification of the statutory “focus”
was based on an overly narrow focus on the provision
at issue in this litigation, Section 230(c)(1) (Recons.
Mem. at 4-5), and that the court’s conclusion that the
statute’s focus is on liability “wrongly conflates the effect of a statute with its focus,” which is on the actions
of interactive computer providers (id. at 5-8).
Plaintiffs’ arguments on this point do not come
close to meriting reconsideration. The court notes that
Plaintiffs at no point attempted to raise either of these
arguments in their opposition to Facebook’s motion to
dismiss; in fact, the portions of Plaintiffs’ brief discussing extraterritoriality do not even mention the word
“focus.” (See Pls. Mem. in Opp’n to Mot. to Dismiss
(“Pls. MTD Opp’n”) (Dkt. 40) at 30-31.) Plaintiffs provide no reason why they could not have presented such
arguments in their initial briefing, and such new arguments have no place in a motion for reconsideration.
See, e.g., Schoolcraft, 248 F.Supp.3d at 508. While
Plaintiffs now seek to take a new tack, “[a] party requesting reconsideration is not supposed to treat the
court’s initial decision as the opening of a dialogue in
which that party may then use Rule [59(e)] to advance
new facts and theories in response to the court’s rulings.” Id. at 509 (quoting Church of Scientology Int’l v.
Time Warner, Inc., No. 92-CV-3024 (PKL), 1997 WL
538912, at *2 (S.D.N.Y. Aug. 27, 1997)).
Moreover, Plaintiffs identify no contrary authority
that the court overlooked or misapplied, as is normally
required to obtain reconsideration. See Analytical Surveys, 684 F.3d at 52. Instead, Plaintiffs contend the

84a
court’s approach is generally at odds with Supreme
Court and Second Circuit opinions examining issues of
extraterritoriality because the court failed to adequately account for “statutory context.” (Recons. Mem
at 4-6.) Plaintiffs plainly misread the court’s opinion,
however, which was explicit in basing its conclusion
about the statute’s focus on its reading of Section 230
as a whole. (See May 18 M & O at 25-26 (examining
policy statements and substantive provisions of Section 230).)
Plaintiffs’ second argument—that the court’s holding that Section 230’s focus is on limiting liability
“wrongly conflates the effect of a statute with its focus”
(Recons. Mem. at 6-7) —is likewise unsupported by any
contrary authority. Plaintiffs wave their hands at two
recent Supreme Court decisions contemplating statutes other than the CDA and purport to draw from
those decisions the proposition that “no statute’s focus
can ever be to simply limit liability.” (Id. at 6-7 (citing
Morrison v. Nat’l Austl. Bank Ltd., 561 U.S. 247, 130
S.Ct. 2869, 177 L.Ed.2d 535 (2010), and Kiobel v. Royal
Dutch Petroleum Co., 569 U.S. 108, 133 S.Ct. 1659, 185
L.Ed.2d 671 (2013)).) However, those decisions offer no
support for such a broad generalization, as they examine only the particular statutes before the Court while
stressing that the touchstone of extraterritoriality
analysis must be on the “focus of congressional concern” in enacting the challenged statute. Morrison, 561
U.S. at 266, 130 S.Ct. 2869. The court sees nothing
in those opinions that disturbs its analysis of the
CDA and certainly sees nothing that suggests that

85a
Congress’s focus in enacting a statute can never be on
limiting liability.
b. The Scope of the CDA
Plaintiffs next argue that the court misapplied
Section 230 to their claims against Facebook. (Recons.
Mem. at 8-17.) Plaintiffs make two separate arguments: first, that the court failed to consider Plaintiffs’
allegations and arguments that Facebook acted as an
“information content provider,” independent of content
provided by Hamas-affiliated users (id. at 11-14); and
second, that the court incorrectly extended Section
230’s coverage to “valuable services” provided by Facebook (id. at 14-17). The court examines these arguments separately.
i.

Facebook’s Role as “Information Content Provider”

Plaintiffs first contend that the court failed to address their contention that Facebook acted as an “information content provider” within the meaning of
Section 230 and could not claim protection under that
section. As noted in the court’s original decision, the
protection afforded by Section 230 applies only to
claims “based on information provided by [an] information content provider” other than the defendant.
(May 18 M & O at 18-19 (quoting FTC v. LeadClick Media, LLC, 838 F.3d 158, 173 (2d Cir. 2016)).) Plaintiffs
now maintain that their claims have, in fact, always
sought to hold Facebook liable for its own content, and
not that generated by another “information content

86a
provider,” i.e. Hamas and related entities, based on Facebook’s alleged role in “networking” and “brokering”
links among terrorists. (Recons. Mot. at 12.)
Plaintiffs’ contention is completely disingenuous.
In the current motion, Plaintiffs acknowledge in a footnote that “perhaps plaintiffs could have made their reliance on Facebook’s productive conduct clearer in
their briefing” but attribute this oversight to Facebook’s supposed failure to argue that it was not a content provider. (Recons. Mot. at 12 & n.9.) Plaintiffs’
contention is flatly refuted by Facebook’s briefing on
the original motion to dismiss, which clearly argued
that all of the offending content cited in Plaintiffs’ complaint was “provided by another information content
provider, not by Facebook itself.” (Def. Mem. in Supp. of
MTD (Dkt. 35) at 17-18.) Plaintiffs did not respond to
this argument at any point, and in fact began their opposition memorandum by stating that “[t]hese cases do
not concern speech or content.” (Pls. MTD Opp’n at 1.)
For Plaintiffs to now turn around and argue that its
allegations are largely about content that Facebook itself created borders on mendacious. More to the point,
this entirely new argument in support of liability is not
suitably considered on a motion for reconsideration,
which “may not be used to advance new facts, issues
or arguments not previously presented to the Court.”
See Montblanc-Simplo GmbH v. Colibri Corp., 739
F.Supp.2d 143, 147 (E.D.N.Y. 2010) (internal quotation
marks and citations omitted).

87a
ii.

Facebook’s Conduct as “Speaker or Publisher”

Plaintiffs next contend that the court “misapprehended” the scope of their claims in failing to consider
Plaintiffs’ allegation that Facebook “provided . . . terrorists with valuable services unrelated to publication
. . . that do not fall within the traditional role of a publisher.” (Recons. Mem. at 16.) In particular, Plaintiffs
contend that they are suing Facebook for “developing,
encouraging, and facilitating connections between terrorists,” and not simply based on its failure to “police
its accounts” and remove terrorist-affiliated users. (Id.)
In the court’s view, however, it has already addressed Plaintiffs’ argument and need not revisit its
conclusions on that point. It is true that the court’s previous opinion focused largely on whether Facebook’s
provision of accounts to Hamas-affiliated users could
meaningfully be separated from its role as a “publisher
or speaker” of content produced by users, with the
court concluding that “Facebook’s choices as to who
may use its platform are inherently bound up in its decisions as to what may be said on its platform, and so
liability imposed based on its failure to remove users
would equally “derive[ ] from [Facebook’s] status or
conduct as a ‘publisher or speaker.’ ” (May 18 M & O at
21 (quoting LeadClick Media, 838 F.3d at 175).) While
Plaintiffs now seek to distinguish between “making
[Facebook’s] system available to terrorists and a terrorist organization” and “provid[ing] [ ] terrorists with
valuable services” through such access (Recons. Mem.
at 16), this is a distinction without a difference: the
“valuable services” at issue are part and parcel of

88a
access to a Facebook account, and so imposing liability
on that basis would again effectively turn on “Facebook’s choices as to who may use its platform.” (May 18
M & O at 21.) Plaintiffs are merely attempting to rehash arguments that the court has already considered
and rejected, which are insufficient to merit reconsideration.2 See Shrader, 70 F.3d at 257 (“[A] motion to
reconsider should not be granted where the moving
party seeks solely to relitigate an issue already decided.”).
c. Interplay Between the CDA and the ATA
Plaintiffs next argue that, even if Section 230
would otherwise apply to the challenged conduct, it
cannot apply here because such application “would be
in direct conflict with the ATA.” (Recons. Mem. at 19.)
Though presented in several ways, Plaintiffs’ essential
argument is two part: (1) the ATA’s goal of imposing
expansive civil liability for harms resulting from terrorism is at odds with immunity under Section 230;

2

Plaintiffs make the related argument that the court simply
erred in its conclusion that Section 230 protects Facebook from
liability based on its provision of user accounts and platform services to Hamas-affiliated users. (Recons. Mem. at 17-18.) However, Plaintiff provides no contrary controlling authority, but only
argues the court unduly expanded the scope of Section 230’s coverage beyond that envisioned by the Second Circuit. (Id. at 18.)
As with Plaintiffs’ more indirect attack on the court’s holding discussed above, the court sees no reason to permit relitigation of
issues already decided simply because Plaintiffs are dissatisfied
with the court’s prior decision.

89a
and (2) because the ATA was adopted and amended after the CDA, it supersedes Section 230. (Id. at 17-23.)
At the outset, the court notes that it is skeptical
that this argument is properly raised in the instant
motion, as it can hardly be said to have been fully presented previously. Plaintiffs first advanced this argument in a single line in a footnote in their brief
opposing Facebook’s motion to dismiss. (See Pls. MTD
Opp’n at 27 n.6 (“Even if there were a conflict between
the limited immunity granted by the CDA and the liability imposed by the ATA, the ATA would control as
its later enactment would be a tacit limiting of the
CDA.”).) Expanding this line to encompass five pages
of their present briefing seems to the court to be the
very definition of impermissibly “advanc[ing] . . . arguments not previously presented to the court.”
Schoolcraft, 248 F.Supp.3d at 508 (internal quotation
marks and citations omitted).
Even if Plaintiffs’ argument is not waived, however, it is meritless. Quoting from the preamble to the
most recent amendment to the ATA, Plaintiffs contend
that immunizing Facebook under Section 230 frustrates Congress’s purpose of “provid[ing] civil litigants
with the broadest possible basis . . . to seek relief
against entities . . . that have provided material support, whether directly or indirectly, to foreign organizations or persons that engage in terrorist activities.”3
3

While it is not necessary to the decision here, the court
notes that, whatever their interpretive value, statements of purpose contained in the preamble to a statute are not part of the

90a
(Recons. Mem. at 21 (quoting Justice Against Sponsors
of Terrorism Act (“JASTA”), § 2(b), Pub. L. No. 114-222,
130 Stat. 852, 853).) Plaintiffs do not suggest that the
ATA explicitly limits Section 230 immunity, however,
but instead argue that the ATA’s later-in-time enactment and the broad policy statements quoted above
implicitly displace Section 230 with respect to ATAbased civil actions. (Id. at 21-23.)
“When it is claimed that a later enacted statute
creates an irreconcilable conflict with an earlier statute, the question is whether the later statute, by implication, has repealed all or, more typically, part of the
earlier statute.” Garfield v. Ocwen Loans Servicing,
LLC, 811 F.3d 86, 89 (2d Cir. 2016). “[R]epeals by implication are not favored.” In re Stock Exch. Options
Trading Antitrust Litig., 317 F.3d 134, 144 (2d Cir.
2003) (quoting United States v. Borden Co., 308 U.S.
188, 198, 60 S.Ct. 182, 84 L.Ed. 181 (1939)). Accordingly, courts must not “infer a statutory repeal unless
the later statute expressly contradicts the original act
or unless such construction is absolutely necessary in
order that the words of the later statute shall have any
meaning at all.” Nat’l Ass’n of Home Builders v. Defenders of Wildlife, 551 U.S. 644, 662, 127 S.Ct. 2518, 168
L.Ed.2d 467 (2007) (internal quotation marks and citations omitted, and alterations omitted); see also
Radzanower v. Touche Ross & Co., 426 U.S. 148, 155,
96 S.Ct. 1989, 48 L.Ed.2d 540 (1976) (“The statutory
provisions at issue here cannot be said to be in
substantive scope of the law itself. See, e.g., 73 Am. Jur. 2d Statutes § 101 (2d ed. updated Nov. 2017).

91a
‘irreconcilable conflict’ in the sense that there is a positive repugnancy between them or that they cannot
mutually co-exist.”). “[A] statute dealing with a narrow,
precise, and specific subject is not submerged by a later
enacted statute covering a more generalized spectrum.” Nat’l Ass’n of Home Builders, 551 U.S. at 663,
127 S.Ct. 2518 (quoting Radzanower, 426 U.S. at 153,
96 S.Ct. 1989).
The court sees no reason to conclude that the ATA
impliedly abrogated Section 230, as each statute can
be enforced without depriving the other of “any meaning at all.” Id. at 662, 127 S.Ct. 2518. The ATA’s civil
recovery provisions create a broad right of recovery for
U.S. nationals injured by acts of international terrorism, without differentiating based on the particular defendants against whom claims are raised. 18 U.S.C.
§ 2333. In enacting Section 230, however, Congress
“was focusing on the particularized problems of [providers and users of interactive computer services] that
might be sued in the state or federal courts,”
Radzanower, 426 U.S. at 153, 96 S.Ct. 1989, limiting
the liability of a narrow subset of defendants for a particular type of claims. Thus, the ATA’s general cause of
action for victims of international terrorism cannot be
said to “expressly contradict[ ]” the CDA, nor does the
Section 230’s limitation on certain theories of liability
deprive the ATA of “any meaning at all.” Nat’l Ass’n of
Home Builders, 551 U.S. at 662, 127 S.Ct. 2518. Said
differently, the two acts can be read without any conflict: Section 230 provides a limited defense to a specific

92a
subset of defendants against the liability imposed by
the ATA.
In contrast to the direction provided by the Supreme Court and Second Circuit to act cautiously in
inferring statutory repeal, Plaintiffs urge an approach
that would treat any statute that imposes liability and
which was enacted after the CDA as implicitly limiting
the reach of Section 230 absent an affirmative contrary
statement. This approach would effectively reverse the
presumption against inferring repeal and is patently
inconsistent with the law outlined above.4
Accordingly, the court sees no reason to conclude
that the ATA implicitly limited or repealed Section 230
or any other part of the CDA or to reconsider its prior
opinion on that basis.
d. Application of the CDA to Plaintiffs’
Israeli Law Claims
Plaintiffs’ final argument is that the court erred in
applying Section 230 to Plaintiffs’ Israeli-law claims.
(Recons. Mem. at 24-25.) Plaintiffs argue that court
should have conducted a conflict-of-laws analysis,
which would have demonstrated that Israeli (as opposed to New York) law applied to a number of
4

Plaintiffs make the related argument that the court’s interpretation of Section 230 “yields results that can only be described
as ‘absurd’ ” when applied to the ATA. (Recons. Mem. at 23-24.)
This argument, which is unsupported by citation to legal authority, is not properly presented on a motion for reconsideration, and
so the court does not address it.

93a
Plaintiffs’ claims. (Id. at 24-25.) From this, Plaintiffs
contend that the court should not have applied Section
230 to the Israeli law claims, as the CDA “is a feature
of American law that has no corollary in Israel.” (Id. at
25.)
Plaintiffs’ argument misunderstands the court’s
prior opinion, which addressed the issue raised. Noting
that Plaintiffs contended that Section 230 “does not apply to claims based in foreign law,” the court assumed
that the Plaintiffs’ Israeli tort claims were properly
presented and concluded those claims were barred in
any event. (May 18 M & O at 27 n.14.) In coming to
this determination, the court examined the enumerated exceptions to Section 230’s grant of immunity, and
concluded that the absence of any carve-out for claims
based on foreign law indicated that no such exception
was intended. (Id.)
To the extent that Plaintiffs argue that a conflictof-laws analysis prevents the application of federal
statutes to foreign-law-based claims, the argument is
unsupported in law or logic. Plaintiffs point to no authority for the notion that the decisional rules applied
in a conflict-of-laws analysis require courts in this
country to ignore governing sources of federal law
when applying claims raised under the laws of other
nations,5 nor is the court aware of any such authority.
5

Instead, Plaintiffs cite to cases considering conflicts of law
between the laws of individual states and other states or foreign
nations or between the laws of two foreign nations. See Licci ex
rel. v. Lebanese Canadian Bank, SAL, 672 F.3d 155, 157-58 (2d
Cir. 2012); Fin. One Pub. Co. Ltd. v. Lehman Bros. Special Fin.,

94a
Further, Plaintiffs’ suggestion appears to be fundamentally at odds with supremacy of federal law over
state law. When conducting a conflict-of-laws analysis,
federal courts look to the law of the forum state, in this
case New York. Cf., e.g., Licci ex rel. Licci v. Lebanese
Canadian Bank, SAL, 672 F.3d 155, 157 (2d Cir. 2012)
(“A federal court sitting in diversity or adjudicating
state law claims that are pendent to a federal claim
must apply the choice of law rules of the forum state.”
(internal quotation marks and citation omitted)). It is
almost too obvious to state that New York law, including the law governing conflict of laws, could not direct
courts to disregard federal law. Cf. Figueroa v. Foster,
864 F.3d 222, 227 (2d Cir. 2017) (“Under the Supremacy Clause of the Constitution, state and local laws
that conflict with federal law are without effect.” (internal quotation marks and citation omitted)). Finally,
the court notes that the application of Section 230’s affirmative defense to Israeli claims is sensible under the
circumstances, as it avoids the perverse result that
plaintiffs could bring claims in American courts under
foreign law that would be barred if brought under federal or state law.

Inc., 414 F.3d 325, 331-339 (2d Cir. 2005) (same as to New York
and Thai law); Cooney v. Osgood Mach., Inc., 81 N.Y.2d 66, 75,
595 N.Y.S.2d 919, 612 N.E.2d 277 (N.Y. 1993) (same as to New
York and Missouri law); Schultz v. Boy Scouts of Am., Inc., 65
N.Y.2d 189, 194-204, 491 N.Y.S.2d 90, 480 N.E.2d 679 (N.Y. 1985)
(same as to New York and New Jersey law); Wultz v. Islamic Rep.
of Iran, 755 F.Supp.2d 1, 78-80 (D.D.C. 2010) (same as to laws of
China and Israel).

95a
Accordingly, and again assuming that Israeli law,
not New York law, applies to the cited claims, the court
is not convinced that its prior decision was erroneous.
*

*

*

For the foregoing reasons, Plaintiffs’ motion to alter the judgment pursuant to Federal Rule of Civil Procedure 59(e) is DENIED.
B. Motion to Amend the Complaint
In the alternative, Plaintiffs move to amend their
complaint a second time and propose new allegations
which, in their account, correct the deficiencies in their
prior complaint. (Amendment Mot.; Pls. Mem. in Supp.
of Amendment Mot. (“Amendment Mem.”) (Dkt. 53);
see also PSAC.) After considering the proposed second
amended complaint, the court concludes that Plaintiffs
fail to allege facts that would support any of the asserted causes of action against Facebook. Their motion
to amend is accordingly denied.
1.

Legal Standard

Under Federal Rule of Civil Procedure 15(a), a
party may amend its complaint either with its opponent’s written consent or with leave of the court.6 Fed.
R. Civ. P. 15(a)(2). Courts “should freely give leave [to
6

Rule 15(a) also permits amendment once as a matter of
course within set time periods. That provision is not relevant
here, however, not least because Plaintiffs have already amended
their complaint once before.

96a
amend] when justice so requires.” Id. Accordingly, requests to amend should be [sic] generally be granted
absent a showing of “ ‘undue delay, bad faith or dilatory
motive on the part of the movant, repeated failure to
cure deficiencies by amendments previously allowed,
undue prejudice to the opposing party . . . [or] futility
of amendment.’ ” Conforti v. Sunbelt Rentals, Inc., 201
F.Supp.3d 278, 290-91 (E.D.N.Y. 2016) (quoting
Dougherty v. Town of N. Hempstead Bd. of Zoning Appeals, 282 F.3d 83, 87 (2d Cir. 2002)) (alterations in
original). In considering whether an amendment
would be “futile,” courts apply the same standard of legal sufficiency as that employed in motions to dismiss,
see Thea v. Kleinhandler, 807 F.3d 492, 496-97 (2d Cir.
2015), considering whether the proposed amended
complaint “contain[s] sufficient factual matter, accepted as true, to ‘state a claim to relief that is plausible on its face,’ ” Ashcroft v. Iqbal, 556 U.S. 662, 678, 129
S.Ct. 1937, 173 L.Ed.2d 868 (2009) (quoting Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570, 127 S.Ct. 1955, 167
L.Ed.2d 929 (2007)).
Leave to amend may be granted post-judgment.
“As a procedural matter, ‘[a] party seeking to file an
amended complaint postjudgment must first have the
judgment vacated or set aside pursuant to [Rules]
59(e) or 60(b).’ ” Williams v. Citigroup Inc., 659 F.3d
208, 213 (2d Cir. 2011) (quoting Ruotolo v. City of New
York, 514 F.3d 184, 191 (2d Cir. 2008)). In such cases,
however, “Rule 15’s liberality must be tempered by considerations of finality.” Id.

97a
2.

Application

In their proposed second amended complaint
(“PSAC”), Plaintiffs propose to add a number of allegations that fall into four primary categories: (1) “[f ]actual background and legislative statements involved in
the enactment of the federal antiterrorism statutes at
issue” (Amendment Mem. at 4); (2) allegations that Facebook violated the ATA by providing material support
to Hamas in the form of “personnel” and “expert assistance” (id. at 3-4), and that Facebook’s assistance to
Hamas “freed-up money and other resources for Hamas and the terrorists to carry out the terrorist acts
that severely injured the Plaintiffs” (id. at 7); (3) allegations related to Facebook users’ ability to “selfpublish” (id. at 4); and (4) Allegations demonstrating
that Facebook’s actions pertaining to its provision of
material support and resources to Hamas occurred”
outside of the United States (id. at 6). Additionally,
Plaintiffs propose adding a new claim under 18 U.S.C.
§ 2339C(c) based on Facebook’s purported concealment
of material resources provided to Hamas, as well as
factual allegations related to that claim. The court examines each of these categories of proposed amendments and, for the reasons that follow, denies the
motion to amend as futile.
a. Allegations Regarding Antiterrorism Statutes
The first category of new proposed new allegations
pertains only to the background of the two antiterrorism statutes at issue here, the ATA and JASTA. (Id. at

98a
4.) These allegations include a history of the ATA’s enactment (PSAC ¶¶ 2-7, 18-53), including specifically
the act’s civil enforcement provisions (id. ¶¶ 38-44).
Plaintiffs’ evident purpose in introducing this background is to demonstrate that civil claims for material
support fall outside of Section 230’s grant of immunity
based on an exception within that section, which states
that “[n]othing in this section shall be construed to impair the enforcement of . . . any . . . Federal criminal
statute.” 47 U.S.C. § 230(e)(1). Plaintiffs contend that
the background and legislative history of the ATA and
JASTA show that the creation of civil remedies for violations of criminal statutes prohibiting terrorism
were meant to facilitate “enforcement” of those statutes.7 (Pls. Reply in Supp. of Amendment Mot.
(“Amendment Reply”) (Dkt. 59) at 2-3.)
Plaintiffs’ arguments are unpersuasive. The court
addressed Section 230’s exception for enforcement of
federal criminal laws in its previous opinion, noting
that “most courts that have examined” that subsection
have concluded that it does not “inhibit immunity as to
civil liability predicated on federal criminal statutes.”
7

Plaintiffs also argue that the text and legislative history of
the ATA and, particularly, JASTA, demonstrate that “Congress
deems ATA claims supremely important, and insofar as other
statute or regulations—including the CDA—are inconsistent with
this most recent expression of Congress’s intent, the ATA claims
must prevail.” (Pls. Reply in Supp. of Amendment Mot. (“Amendment Reply”) (Dkt 59) at 4-6.) This argument effectively retreads
Plaintiffs’ contention that the ATA and JASTA implicitly repeal
the CDA to the extent of any conflict. For the same reasons that
it denied the motion for reconsideration, the court concludes that
Plaintiffs’ proposed amendments on this point are futile.

99a
(May 18 M & O at 21 n.11.) In this regard, the court
finds particularly convincing the First Circuit’s conclusion that Section 230(e)(1)’s specific reference to “criminal statutes,” viewed alongside other exceptions
within Section 230 that apply equally to civil and criminal remedies, indicates that Congress only intended to
exclude criminal prosecutions through that exception.8
Jane Doe No. 1 v. Backpage.com, 817 F.3d 12, 23 (1st
Cir. 2016). The court agrees with this reasoning and
concludes that the “enforcement”9 of “Federal criminal
8

Plaintiffs attempt to distinguish Jane Doe and other cases
cited in the court’s previous opinion on the basis that the statutes
cited therein “permitted recovery of compensatory damages, not
punitive or exemplary damages [as] permitted by the ATA.”
(Amendment Reply at 3 (emphasis in original).) However, the
First Circuit reasoned in Jane Doe from the language of the statute itself that Section 230(e)(1) excepts only criminal actions to
enforce criminal statutes, 817 F.3d at 23, which means that the
purposes of a particular civil action are irrelevant. Further, the
court notes that Plaintiffs appear to be incorrect in their contention that the statute at issue in Jane Doe does not permit punitive
damages in civil suits. While the statute and Second Circuit case
law do not provide direct guidance on the point, the Ninth Circuit
concluded that the civil remedies available under that section include punitive damages. See Ditullio v. Boehm, 662 F.3d 1091,
1098 (9th Cir. 2011); see also Walia v. Veritas Healthcare Solutions, L.L.C., No. 13-CV-6935 (KPF), 2015 WL 4743542, at *10
n.15 (S.D.N. Y Aug. 11, 2015).
9
Plaintiffs point to a statement by the Second Circuit that
“the ATA’s legislative history reflects that Congress conceived of
the ATA, at least in part, as a mechanism for protecting the public’s interests through private enforcement.” Linde v. Arab Bank,
PLC, 706 F.3d 92, 112 (2d Cir. 2013). The court is not convinced
that this language, which appears in dicta and arose in the entirely different context of international comity analysis, implies
that private suits to enforce the ATA are, in effect, on the same
footing as are prosecutions under that law. Moreover, as stressed

100a
statutes” in this context was intended only to extend to
enforcement by means of a criminal proceeding.
Accordingly, the court finds these new allegations
regarding the history and purpose of the ATA and
JASTA to be insufficient to overcome previously identified shortcomings in Plaintiffs’ first amended complaint.
b. Additional Material Support
Allegations and Self-Publication
Plaintiffs’ proposed complaint also attempts to refine its allegations that Facebook provided material
support to terrorism so as to avoid involving implicating Facebook’s role as a publisher or speaker of thirdparty content. First, Plaintiffs attempt to differentiate
Facebook from other websites by stressing that Facebook users register to “design and create their own
internet website,” from which they are free to “selfpublish” content without Facebook purporting to act as
“editor, publisher, or speaker” of its users’ postings.
(PSAC ¶ 127-28.) Second, Plaintiffs add new allegations regarding the types of “material support” that Facebook provides. They characterize Facebook as providing
“personnel” to Hamas by “making Hamas leaders,
above, the task before the court is not to interpret the ATA, but
to determine the meaning of Section 230(e)(1). As the court has
already determined that Section 230’s reference to “enforcement
. . . of any . . . Federal criminal statutes” is specific to criminal
prosecutions, it need not ascertain whether civil provisions of
other statutes were envisioned as providing a secondary means of
enforcement.

101a
operatives, and recruits available to Hamas to conspire, plan, prepare, and carry out terrorist activity.”
(PSAC ¶ 223.) Plaintiffs also contend that Facebook
provides “expert services” to Hamas-affiliated users by
allowing them access to its platform and, through such
access, “highly advanced software, algorithms, computer servers and storage, communications devices,
[and] computer applications” that Facebook provides to
all users. (Id. ¶¶ 123-24; see also Amendment Mem. at
5.)
Plaintiffs’ additional allegations do nothing to address the shortcomings in their theories of liability
identified in the court’s previous decision. With respect
to the allegations regarding “self-publication,” Plaintiffs misinterpret the scope of Section 230’s immunity.
Plaintiffs repeatedly stress that users’ introduction of
information onto Facebook’s eponymous platform occurs without Facebook “exercis[ing] any editorial discretion when providing registered accounts or over
what users publish on their own [ ] accounts.” (Amendment Reply at 8.) From this, Plaintiffs appear to suggest that Facebook cannot be exercising any editorial
or publication functions protected by Section 230
which, they imply, require some specific selection with
respect to the particular users or postings that may appear on its platform. This argument misunderstands
the court’s prior decision: In the court’s view, Facebook’s decision to keep its platform as an open forum,
available for registration and posting without prior approval from Facebook, is itself an exercise of editorial

102a
discretion. (May 18 M & O at 21.) As noted by the First
Circuit:
[the plaintiffs-appellants’] well-pleaded claims
address the structure and operation of the
[defendant-appellee’s] website, that is, [defendant’s] decisions about how to treat postings. Those claims challenge features that are
part and parcel of the overall design and operation of the website (such as the lack of
phone number verification, the rules about
whether a person may post after attempting
to enter a forbidden term, and the procedure
for uploading photographs). Features such as
these, which reflect choices about what content can appear on the website and in what
form, are editorial choices that fall within the
purview of traditional publisher functions.
Jane Doe, 817 F.3d at 21. The same reasoning supports
both the court’s previous decision and its conclusion
here that allegations regarding “self-publication” do
not exempt Plaintiffs’ claims from Section 230’s coverage: Facebook’s decisions regarding the “overall design
and operation of its website,” including the criteria (or
lack thereof ) for obtaining an account and posting on
the platform are themselves “editorial choices that fall
within the purview of traditional publisher functions.”
Id.; see also Fields v. Twitter, Inc., 217 F.Supp.3d 1116,
1124 (N.D. Cal. 2016) (holding that the defendant’s “decisions to structure and operate itself as a ‘platform . . .
allow[ing] for the freedom of expression of hundreds
[of ] millions of people around the world,’ and, through
its hands-off policy, allowing [a terrorist group] to

103a
obtain ‘dozens of accounts on its social network’ ‘reflect
choices about what [third-party] content can appear on
[Twitter] and in what form.’ ” (internal quotation
marks and citations omitted; alterations in original)).
Plaintiffs’ new allegations that these policies allow users to join Facebook’s platform and to “self-publish”
without Facebook’s prior approval do not alter the conclusion that Facebook’s decisions regarding the structure of its platform fall within the traditional functions
of a publisher and so that Plaintiffs’ theory relies only
on a “duty . . . derive[d] from [Facebook’s] status or conduct as a ‘publisher or speaker.’ ” LeadClick Media, 838
F.3d at 175.
Plaintiffs’ new allegations regarding Facebook’s
alleged provision of “personnel” and “expert services”
to Hamas and Hamas-affiliated users suffer from the
same flaw. Plaintiffs claim that “technological tools”
Facebook provided to its users, and that these tools are
unrelated to the content of the underlying communications. (Amendment Reply at 8; see also Amendment
Mem. at 4-5.) Plaintiffs contend these tools provided to
users “extend[ ] far beyond providing or performing
traditional services of a publisher,” and so are not
within the scope of the services of a ‘publisher.’ ”
(Amendment Reply at 7-8.) At root, however, these theories again derive from a claimed duty on Facebook’s
part to prevent certain users from using its platform
and seek to impose liability based on Facebook’s decision to allow free access to, and use of, its platform and
forum. Said differently, Facebook is alleged to have violated a duty to prevent certain users from accessing

104a
and using its platform. As discussed above and in this
court’s previous dismissal of Plaintiffs’ claims, Section
230 shields Facebook from such claims, as “Facebook’s
choices as to who may use its platform are inherently
bound up in its decisions as to what may be said on its
platform, and so liability imposed based on its failure
to remove users would equally ‘derive[ ] from [Facebook’s] status or conduct as a ‘publisher or speaker.’ ”
(May 18 M & O at 21 (quoting LeadClick Media, 838
F.3d at 175).)
Moreover, like Plaintiffs’ first amended complaint,
Plaintiffs’ new allegations regarding Facebook’s claimed
provision of “personnel” and “expert services” again “rely
on content to establish causation and, by extension, Facebook’s liability,” a theory already rejected by this
court. (May 18 M & O at 22.) As Plaintiffs’ proposed
amended complaint makes clear, their theory that Facebook makes “personnel” available to Hamas depends
on the content of communications on Facebook’s website: Plaintiffs seek to hold Facebook liable for providing a publication forum for Hamas and its leaders,
operatives, and recruits, “to conspire, plan, prepare,
and carry out terrorist activity.” (SAC ¶ 223.) This is
fundamentally no different than Plaintiffs’ prior argument that “Facebook contributed to their harm by allowing Hamas to use its platform to post particular
offensive content.” (May 18 M & O at 22.) Likewise,
both the “personnel” and “expert services” allegations
appear to rest in large part on allegations that Facebook’s networking algorithms recommend content to
account holders. However, as Facebook points out, “the

105a
features of Facebook that [P]laintiffs criticize operate
solely in conjunction with . . . content posted by Facebook users.” (See Def. Opp’n to Amendment Mot.
(“Amendment Opp’n”) (Dkt. 57) at 5 (emphasis in original)); see also PSAC ¶¶ 611-22 (describing how Facebook’s algorithms connect “users to one another and to
groups and events that they will be interested in based
on the information in their user profiles and online activities”). Plaintiffs’ new allegations would again
simply seek to hold Facebook liable solely on the basis
of the website’s role in hosting and re-publishing content generated by Hamas-affiliated users.10 Bound up
as they are in the content that Hamas-affiliated users
provide, the court concludes that these new claims remain subject to the immunity afforded under Section

10

Plaintiff also proposes to add new allegations regarding
additional “predicate” acts of terrorism by Hamas. (PSAC ¶¶ 64849; Amendment Mem. at 7.) Plaintiffs contend that these additional predicate acts support the conclusion that “Facebook’s
liability does not depend upon attributing the content of Hamas’
Facebook posts to Facebook.” (Amendment Mem. at 7.) In particular, Plaintiffs point to the “aiding and abetting” charges brought
under JASTA and argue that “once Facebook . . . provid[es] material support to Hamas, Facebook is liable under [JASTA] for any
reasonably foreseeable injury that may result from Hamas’s use
of that material support.” (Amendment Reply at 9.) These proposed amendments do nothing to address or sidestep the basis for
the court’s prior dismissal of Plaintiffs’ claims: regardless of the
predicate acts at issue, the only basis that Plaintiffs propose for
imposing liability on Facebook for “aiding and abetting” or providing “material support” to those terroristic crimes is Facebook’s decision to permit Hamas-affiliated users to use its platform. The
court has repeatedly rejected that theory, and so the proposed
amendments do not further Plaintiffs’ entitlement to relief.

106a
230 and so cannot provide a basis for liability as to Facebook.11
c. Extraterritoriality Allegations
Plaintiffs’ proposed amendments include a number of factual allegations regarding Facebook’s conduct
outside of the United States, which Plaintiffs contend
“support [their] contention that the CDA does not apply to claims involving violation of laws outside of the
territorial jurisdiction of the United States.” (Amendment Reply at 10; PSAC ¶¶ 629-32.) The court need not
dwell on these new allegations. The court concluded in
its prior opinion that, for purposes of the extraterritoriality analysis, the relevant territorial relationships
are based “where redress is sought and immunity is
needed”—the situs of the litigation. (May 18 M & O at
27.) Plaintiffs’ new allegations obviously do not suggest that the situs of this litigation has changed, but
are better viewed as part of their tenacious effort to
convince the court to reconsider its prior extraterritoriality analysis. The court has already declined to do

11

Plaintiffs also propose alleging that, because of its use of
Facebook, Hamas was able to “allocate other financial resources
to terrorist activities.” (Amendment Reply at 10; see also PSAC
¶ 219.) Plaintiffs are correct that this allegation could support a
claim under the material support statutes. See, e.g., Holder v. Humanitarian Law Project, 561 U.S. 1, 30, 130 S.Ct. 2705, 177
L.Ed.2d 355 (2010). In light of the court’s conclusion that the
Plaintiffs’ material support claims are not viable because they
rely on theories barred by Section 230, however, these allegations
do not support Facebook’s liability.

107a
so, and so concludes that these new allegations fail to
advance Plaintiffs’ claims.
d. “Concealment” of Material Support
Plaintiffs’ final set of new allegations relates to
their new claim that Facebook “concealed” its provision
of material support to Hamas in violation of the ATA.
Specifically, Plaintiffs allege that Facebook’s “Community Standards,” which purport to prevent terrorists
and terrorist organizations to use the platform, “conceal” both Facebook’s own provision of material support to Hamas and the separate use of the platform by
terrorists to provide material support to Hamas.
(Amendment Mem. at 6.)
The relevant section of the material support statutes prohibits covered individuals and entities12 from
“knowingly conceal[ing] or disguis[ing] the nature, location, source, ownership, or control of any material
support or resources, or any proceeds of such funds . . .
knowing or intending that the support or resources are
to be provided, or . . . were provided, in violation of section 2339B[.]” 18 U.S.C. § 2339C(c)(2)(A). Thus, in order to violate that provision, the entity must have
knowingly “concealed” or “disguised” material support
12

Specifically, the prohibition applies to individuals and entities in the United States or outside of the United States if they
are either “a national of the United States or a legal entity organized under the laws of the United States (including any of its
States, districts, commonwealths, territories, or possession)[.]” 18
U.S.C. § 2339C(c)(1)(A)-(B). Facebook does not argue that it falls
outside this coverage.

108a
provided to a designated foreign terrorist organization13 but need not necessarily have provided the material support itself.
In the court’s view, allegations brought under that
section against Facebook, if plausibly pled, would escape Section 230’s coverage. In its opposition to the
amendment, Facebook argues strenuously that the
“concealment claim boils down to a challenge to who
may use Facebook and what content they share” and
so seeks to impose liability on the same basis already
rejected by the court. (Def. Suppl. Opp’n to Amendment
Mot. (Dkt. 60) at 3.) It may be true that a concealment
claim based only on Facebook’s own purported provision of material support would fail: As noted, Section
2339C(c) requires a predicate violation of Section
2339B, 18 U.S.C. § 2339C(c)(2)(A), and the court has already held that Facebook cannot be held liable under
that statute based on Plaintiffs’ theories. Plaintiffs
also contend, however, that Facebook’s statements in
the Community Standards “conceal” acts by Hamas
members and supporters that provide material support to Hamas using Facebook’s platform. (Amendment Mem., at 6 (“By its actions and deceptions,
Facebook also conceals the Hamas leaders’ and affiliates’ own provision of personnel (themselves) via their
Facebook accounts.” (emphasis in original)); PSAC
¶¶ 222-24.) Said differently, unlike the other theories
of liability proposed by Plaintiffs, the “concealment”
13

18 U.S.C. § 2339B applies only to material support provided to designated foreign terrorist organizations. 18 U.S.C.
§ 2339B(a).

109a
claim does not seek to hold Facebook liable for failing
to prevent Hamas and its affiliates from obtaining accounts or posting offensive content. (See May 18 M &
O, at 21-22.) Instead, Plaintiffs argue that Facebook’s
own actions conceal or disguise material support to
Hamas provided by others. The court agrees that, thus
construed, the concealment cause of action does not fall
within the coverage of Section 230, as it does not “inherently require[ ] the court to treat [Facebook] as the
publisher or speaker of content provided by another,”
or “derive[ ] from [Facebook’s] status or conduct as a
‘publisher or speaker.’ ” (Id. at 20 (quoting LeadClick
Media, 838 F.3d at 175)).
This does not end the inquiry, however, as Plaintiffs must still set forth sufficient allegations “to state
a claim to relief that is plausible on its face.” Iqbal, 556
U.S. at 678, 129 S.Ct. 1937 (internal quotation marks
and citation omitted). The key question in this instance
is whether the proposed amendments set forth a sufficient factual basis for the court to conclude that Facebook “concealed” or “disguised” material support to
Hamas provided using its platform. The statute does
not define those terms, nor does any court appear to
have interpreted them in the context of this or similar
statutes.14 “[W]here a statute does not define a term,
14

Similar language appears in 18 U.S.C. § 2339A (criminalizing “conceal[ing] or disguis[ing] the nature, location, source, or
ownership of material support or resources”) and various places
in 18 U.S.C § 1956 (defining money laundering transaction to include transactions intended “to conceal or disguise the nature, location, source, ownership, or control of property believed to be the
proceeds of specified unlawful activity”). The court reviewed cases

110a
we give the term its ordinary meaning.” EMI Christian
Music Grp., Inc. v. MP3Tunes, LLC, 844 F.3d 79, 89 (2d
Cir. 2016) (internal quotation marks and citation omitted). The Merriam-Webster dictionary defines “conceal” as, inter alia, “to prevent disclosure or recognition
of,” Conceal, Merriam-Webster Online Dictionary, https://
www.merriam-webster.com/dictionary/conceal (last
visited Jan. 8, 2018), and “disguise” as, inter alia, “to
obscure the existence or true state or character of,” Disguise, Merriam-Webster Online Dictionary, https://www.
merriam-webster.com/dictionary/disguise (last visited
Jan. 8, 2018). Thus, in order to avoid the conclusion
that leave to amend should be denied as futile,
Plaintiffs must present facts sufficient to show that Facebook’s actions either prevented “disclosure or recognition” of Hamas’ use of its platform or “obscured the
existence or true state or character” of that use.
After examining the allegations set forth in the
proposed amended complaint, the court concludes that
Plaintiffs fail to set forth a plausible claim that Facebook “concealed” or “disguised” the use of its platform
by Hamas and its member [sic] and supporters. As
noted, Plaintiffs’ claims that Facebook conceals Hamas’s presence on its platform are based solely on allegedly false claims in Facebook’s “Community Standards”
and public statements by the company that it does not
permit terrorists or terrorist organizations to use the
website. (See Pls. Suppl. Mem. in Supp. of Amendment Mot.
(Dkt. 61) at 5-6; see also, e.g., PSAC ¶¶ 172-74, 583-89.)
interpreting the terms “conceal” and “disguise” in the context of
those statutes as well, but found no helpful guidance.

111a
Plaintiffs do not allege, however, that such false statements had the effect of preventing anyone from discovering that Hamas or its members were using
Facebook’s platform. At most, the policy statements
and public pronouncements to which Plaintiffs point
have the effect of concealing or disguising Facebook’s
factual willingness to abide such use, but not the fact
of the use itself. To the contrary, the complaint is replete with allegations that “HAMAS, its leaders,
spokesmen, and members have openly maintained and
used official Facebook accounts” (PSAC ¶ 9), use those
accounts to draw attention to their activities (PSAC
¶ 165), and that this use of the platform by Hamas and
other, similar groups has been widely recognized by the
public (id. ¶¶ 590-98). Against these allegations, the
court sees no plausible claim that Facebook’s statements—or any other action by the company, for that
matter—did anything to “prevent disclosure or recognition” or “obscure the existence or true . . . character
of ” the use of its platform to support Hamas.15

15

In their supplemental brief in support of the concealment
claim, Plaintiffs also request leave to amend their complaint—
again—to include allegations related to testimony by Facebook’s
general counsel before the United States Senate. (Pls. Suppl.
Mem. in Supp. of Amendment Mot. at 9-10.) Plaintiffs do not,
however, state how this information would support any of their
claims, leaving the court without any basis to assess the utility or
futility of such amendments. Particularly in light of court’s existing judgment against Plaintiff, the court finds that considerations
of finality outweigh any interest in allowing Plaintiffs to submit
another round of amendments and denies the motion accordingly.
Cf. Williams, 659 F.3d at 213 (“Where . . . a ‘party does not seek
leave to file an amended complaint until after judgment is

112a
*

*

*

Accordingly, Plaintiffs’ motion to amend their complaint is pursuant to Federal Rules of Civil Procedure
15(a), 59(e), and 60(b) is denied. Moreover, as the proposed amendments fail to correct the deficiencies identified by the court’s decision dismissing Plaintiffs’ first
amended complaint, the court concludes that it is appropriate to deny the motion with prejudice. See, e.g.,
Curtis v. Citibank, N.A., 204 Fed.Appx. 929, 932 (2d Cir.
2006) (summary order) (holding that dismissal with
prejudice was within the court’s discretion where
plaintiff had notice of and failed to correct deficiencies
in complaint).
III. CONCLUSION
For the foregoing reasons, Plaintiffs’ motions to
amend the judgment (Dkt. 50) and to file a second
amended complaint (Dkt. 52) are DENIED WITH
PREJUDICE.
SO ORDERED.

entered, Rule 15’s liberality must be tempered by considerations
of finality.’ ”).

113a
252 F.Supp.3d 140
United States District Court, E.D. New York.
Racheli COHEN, et al., Plaintiffs,
v.
FACEBOOK, INC., Defendant.
Stuart Force, Individually and as Administrator on
Behalf of the Estate of Taylor Force, et al., Plaintiffs,
v.
Facebook, Inc., Defendant.
16–CV–4453 (NGG) (LB)
|
16–CV–5158 (NGG) (LB)
|
Signed 05/18/2017
Attorneys and Law Firms
Robert Joseph Tolchin, The Berkman Law Office, LLC,
Brooklyn, NY, for Plaintiff.
Craig S. Primis, Jennifer M. Bandy, Kenneth W. Allen,
Kirkland & Ellis LLP, Washington, DC, Paul S. Grewal,
Facebook, Inc., Menlo Park, CA, Shireen Anneke
Barday, Thomas Aulden Burcher-DuPont, Kirkland &
Ellis LLP, New York, NY, for Defendant.
MEMORANDUM & ORDER
NICHOLAS G. GARAUFIS, United States District
Judge.
Plaintiffs in the above-captioned related actions
assert various claims against Facebook, Inc. (“Facebook”) based on their contention that Facebook has

114a
supported terrorist organizations by allowing those
groups and their members to use its social media platform to further their aims. The plaintiffs in the first
action (the “Cohen Action”) are roughly 20,000 Israeli
citizens (the “Cohen Plaintiffs”). (Cohen Am. Compl.
(“Cohen FAC”) (Dkt. 17), No. 16–CV–4453.) The second
action (the “Force Action”) is brought by victims, estates, and family members of victims of terrorist attacks in Israel (the “Force Plaintiffs” and, together
with the Cohen Plaintiffs, “Plaintiffs”). (Force Am.
Compl. (“Force FAC”) (Dkt. 28), No. 16–CV–5158.)
Before the court are Facebook’s motions to dismiss
the operative complaints in both actions pursuant to
Federal Rules of Civil Procedure 12(b)(1), (2), and (6)
(as to the Cohen Action) and 12(b)(2) and (6) (as to the
Force Action). (Cohen Def. Mot. to Dismiss (“Cohen
MTD”) (Dkt. 23), No. 16–CV–4453; Force Def. Mot. to
Dismiss (“Force MTD”) (Dkt. 34), No. 16–CV–5158.)
Because of the substantial similarity in facts and the
legal issues raised, the court addresses these motions
together in this Memorandum and Order.
For the following reasons, the court GRANTS Facebook’s motions to dismiss the operative complaints in
both the Cohen Action and the Force Action.
I.

BACKGROUND
A. Facebook’s Social Media Platform

Facebook’s eponymous social media website allows
users to create personalized webpages that contain

115a
information about themselves, including identifying
information, photographs, videos, interests, recent activities, and links to content from other websites. (Cohen FAC ¶ 42; see also Force FAC ¶¶ 94–95, 522.) Once
a user joins the website, they can engage with other
Facebook users in a number of ways, including by adding those users as “friends” and providing feedback to
content provided by other users by “sharing,” “liking”
(i.e. applying a tag that is shared with other users), or
commenting on that content. (Cohen FAC ¶ 42; Force
FAC ¶ 523.) Additionally, users are able to view their
contacts’ activities on the website, including both information posted by those contacts as well as their contacts’ interactions with other users and content. (See
Cohen FAC ¶ 42; Force FAC ¶¶ 524, 527.)
Facebook users are also able to create “groups”
with other users, which allows multiple users to join a
shared website which has its own profile and information. (Cohen FAC ¶ 43; Force FAC ¶ 525–26.) Members of a group can view, interact with, and share
content posted in these group forums. (Cohen FAC
¶ 43.)
Facebook collects data as to its users’ activities
through the website, including but not limited to information regarding contacts and group associations,
content that users post and interact with, and use of
third party websites. (Cohen FAC ¶ 44; Force Compl
¶ 528.) Using proprietary algorithms, Facebook generates targeted recommendations for each user, promoting content, websites, advertisements, users, groups,
and events that may appeal to a user based on their

116a
usage history. (Cohen FAC ¶¶ 45–48; Force FAC
¶¶ 529–41.) In this way, Facebook connects users
with other individuals and groups based on projected
common interests, activities, contacts, and patterns of
usage. (Cohen FAC ¶ 48; Force FAC ¶¶ 530–33.) Facebook also presents users with content posted by other
users, groups, and third parties (e.g., advertisers) that
is likely to be of interest to them, again based on prior
usage history. (Cohen FAC ¶¶ 53–55; Force FAC
¶¶ 534–41.)
B. The Plaintiffs
The Cohen Plaintiffs are 20,000 individuals residing in Israel who state that they “have been and continue to be targeted by” attacks by Palestinian terrorist
organizations. (Cohen FAC ¶ 4.) The Cohen Plaintiffs
claim that they are “presently threatened with imminent violent attacks that are planned, coordinated,
directed, and/or incited by terrorist users of Facebook.”
(Id. ¶ 5.) In particular, they claim to be threatened by
an outbreak of violence by Palestinian groups—which
they sometimes refer to as the “Facebook Intifada”—
and their Complaint recounts 54 separate attacks by
Palestinian terrorists and terror groups in Israel since
October 1, 2015. (Id. ¶¶ 11–16.)
Unlike the Cohen Plaintiffs, who claim to be
threatened only by potential future attacks, the Force
Plaintiffs are the estates of victims (and, in one case,
the surviving victim) of past attacks by the Palestinian
terrorist organization Hamas and the family members

117a
of those victims. (Force FAC ¶¶ 5–18). The victims
were U.S. citizens, most of whom were domiciled in
Israel at the time of the attacks. (See id.) In their Complaint, the Force Plaintiffs describe the attacks that
harmed them, providing a detailed timeline of the
events and Hamas’s particular involvement in the attacks. (See generally id. ¶¶ 156–499.)
C. Allegations Against Facebook
Plaintiffs in the two actions make substantially
similar allegations as to Facebook’s role in their alleged harms. Plaintiffs claim that Palestinian terrorists1 “use Facebook’s social media platform and
Communications services to incite, enlist, organize,
and dispatch would-be killers to ‘slaughter Jews.’ ”
(Cohen FAC ¶ 18; see also Force FAC ¶ 362.) They further aver that Palestinian terrorist groups and associated individuals use their Facebook pages for general
and specific incitements to violence and to praise past
terrorist attacks. (See Cohen Compl ¶¶ 23–36; Force
FAC ¶¶ 111–15.) Plaintiffs allege that Facebook’s algorithms, used to connect users with other users, groups,
and content that may be of interest to them, play a vital role in spreading this content, as Palestinian terrorist organizations are able to “more effectively
disseminate [incitements to violence], including commands to murder Israelis and Jews, to those most
1

While the Cohen Complaint refers to Palestinian terrorists
and terrorist groups generally, the allegations in the Force Complaint are specific to Hamas, and references to both Complaints
together should be read accordingly.

118a
susceptible to that message, and who most desire to act
on that incitement.” (Cohen FAC ¶ 56; see also Force
FAC ¶¶ 530–41.)
Plaintiffs allege that Facebook is aware of the use
of its platform by Palestinian terrorist organizations
and their members but has failed to take action to deactivate their accounts or prevent them from inciting
violence. (Cohen FAC ¶ 40; Force FAC ¶ 502–04.) In
the case of Hamas, the Force Complaint alleges that
Facebook allows that organization, its members, and
affiliated organizations to operate Facebook accounts
in their own names, despite knowledge that many of
them have been officially named as terrorists and sanctioned by various governments. (See Force FAC
¶¶ 118–25.) Plaintiffs claim that Facebook’s approach
to addressing this use of the platform has been piecemeal (intermittently deleting individual postings or
banning users) and inconsistent (e.g., deleting offending posts from one individual without removing identical messages or banning users without taking steps
to ensure that the same person does not subsequently
rejoin the website under a different moniker). (Id.
¶¶ 549–55; see also Cohen FAC ¶¶ 40, 61–62.)
II.

PROCEDURAL HISTORY

The Cohen Plaintiffs originally filed their action in
the Supreme Court of New York, Kings County, and it
was removed to this court by Facebook on August 10,
2016, on the basis of diversity of citizenship. (Not. of
Removal (Dkt. 1), No. 16–CV–4453.) The operative

119a
complaint in this action is the First Amended Complaint, filed on October 10, 2016. (See generally Cohen
FAC.) The Cohen Plaintiffs bring Israeli law claims of
negligence, breach of statutory duty, and vicarious liability (id. ¶¶ 67–106), as well as New York law claims
for prima facie tort, intentional infliction of emotional
distress, aiding and abetting a tort, and civil conspiracy (id. ¶¶ 107–34). The Cohen Plaintiffs seek only
declaratory and injunctive relief. (Id. ¶¶ 149–55.)
Separate from their substantive claims for relief, the
Cohen Complaint requests a judicial declaration that
the causes of action noted above are not barred by Section 230(c)(1) of the Communications Decency Act, 47
U.S.C. § 230. (Id. ¶¶ 135–48)
The Force Plaintiffs filed their action in the United
States District Court for the Southern District of New
York on July 10, 2016. (See generally Force Compl.
(Dkt. 1), No. 16–CV–5158.) The case was subsequently
transferred to this court as related to the Cohen Action
on September 16, 2016. (Sept. 16, 2016, Order Reassigning Case (Dkt. 15).) The operative complaint is the
First Amended Complaint, filed on October 10, 2016.
(Force FAC.) Like the Cohen Complaint, the Force
Complaint brings claims for negligence, breach of statutory duty, and vicarious liability under Israeli law.
(Id. ¶¶ 586–620.) The Force Complaint also raises
claims under the civil enforcement provisions of the
federal Anti-Terrorism Act (“ATA”) and the Justice
Against Sponsors of Terror Act for aiding and abetting
acts of international terrorism, conspiracy in furtherance of acts of international terrorism, and providing

120a
material support to terrorist groups in violation of 18
U.S.C. §§ 2339A and 2339B. (Id. ¶¶ 561–85.) The Force
Plaintiffs seek $1 billion in compensatory damages,
punitive damages to be determined at trial, and treble
damages for violations of the federal anti-terrorism
statutes. (Id. at ECF p.123.)
III. DISCUSSION
Before the court are Facebook’s motions to dismiss
the operative complaints in each of the two actions.
(Cohen MTD; Force MTD.) Facebook moves to dismiss
the Cohen Complaint for lack of subject matter and
personal jurisdiction and for failure to state a claim
upon which relief may be granted pursuant to Rules
12(b)(1), (2), and (6) of the Federal Rules of Civil Procedure. (Cohen MTD; see also Mem. in Supp. of Def.
Mot. to Dismiss (“MTD Mem.”) (Dkt. 24), No. 16–CV–
4453.)2 Facebook separately moves to dismiss the Force
Complaint for lack of personal jurisdiction and failure
to state a claim upon which relief may be granted pursuant to Rules 12(b)(2) and (6). (Force MTD; see also
MTD Mem.)
A court facing challenges as to both its jurisdiction
over a party and the sufficiency of any claims raised
2

The parties briefed the motions to dismiss together, and
their filings in support of and opposition to Facebook’s motions
to dismiss appear in identical form on both the Cohen and Force
dockets. In order to avoid confusion, the court’s citations to Facebook’s Memorandum in Support of the Motions to Dismiss, Plaintiffs’ Response in Opposition to the Motions to Dismiss, and
Facebook’s Reply are to the entries on the Cohen docket.

121a
must first address the jurisdictional question. See Arrowsmith v. United Press Int’l, 320 F.2d 219, 221 (2d
Cir. 1963). However, there is no such required ordering
as between questions of personal and subject matter
jurisdiction. Ruhrgas AG v. Marathon Oil Co., 526 U.S.
574, 586–87, 119 S.Ct. 1563, 143 L.Ed.2d 760 (1999);
Carver v. Nassau Cty. Interim Fin. Auth., 730 F.3d 150,
156 (2d Cir. 2013) (holding that courts “are not bound
to decide any particular jurisdictional question before
any other”).
The court concludes that the Cohen Plaintiffs lack
standing to bring their claims and so dismisses their
Complaint in its entirety for lack of subject matter jurisdiction. The court finds that it has personal jurisdiction over Facebook with respect to the claims in the
Force Complaint but that the action must be dismissed
for failure to state a claim, as Facebook makes out a
sufficient affirmative defense pursuant to Section
230(c)(1) of the Communications Decency Act.
A. Subject Matter Jurisdiction
Facebook first argues that the Cohen Plaintiffs
lack standing to bring their challenges in federal court,
as they fail to point to an injury which is either distinguishable from the harm faced by the public at large,
fairly traceable to Facebook’s actions, or redressable
through relief against the company. (See MTD Mem. at
30–32.) The court does not address the potential traceability or redressability issues, as it concludes that the

122a
Cohen Plaintiffs do not allege a cognizable “injury-infact” and so fail to establish standing.
1.

Legal Standard

“A case is properly dismissed for lack of subject
matter jurisdiction . . . when the district court lacks
the statutory or constitutional power to adjudicate it.”
Makarova v. United States, 201 F.3d 110, 113 (2d Cir.
2000). “The plaintiff bears the burden of alleging facts
that affirmatively and plausibly suggest that it has
standing to sue,” Cortlandt St. Recovery Corp. v. Hellas
Telecomms. S.a.r.l., 790 F.3d 411, 417 (2d Cir. 2015)
(internal quotation marks, alterations, and citation
omitted), a burden which it must satisfy by a preponderance of the evidence, Luckett v. Bure, 290 F.3d 493,
496–97 (2d Cir. 2002). Courts must “accept as true all
material factual allegations in the complaint. . . . [but]
jurisdiction must be shown affirmatively, and that
showing is not made by drawing from the pleadings inferences favorable to the party asserting it.” Shipping
Fin. Servs. Corp. v. Drakos, 140 F.3d 129, 131 (2d Cir.
1998); accord Morrison v. Nat’l Austl. Bank Ltd., 547
F.3d 167, 170 (2d Cir. 2008), aff ’d, 561 U.S. 247, 130
S.Ct. 2869, 177 L.Ed.2d 535 (2010).
Federal jurisdiction is constitutionally constrained
to “cases” and “controversies,” one element of which requires plaintiffs before the court to establish standing:
a “genuinely personal stake” in the outcome of a case
sufficient to “ensure[ ] the presence of ‘that concrete
adverseness which sharpens the presentation of issues

123a
upon which [a] court so largely depends.’ ” Cortland St.
Recovery, 790 F.3d at 417 (quoting Baker v. Carr, 369
U.S. 186, 204, 82 S.Ct. 691, 7 L.Ed.2d 663 (1962)). “In
its constitutional dimension, standing imports justiciability,” Warth v. Seldin, 422 U.S. 490, 498, 95 S.Ct.
2197, 45 L.Ed.2d 343 (1975), and objections to standing
are properly made under Rule 12(b)(1), as they are directed at the court’s ability to adjudicate an issue as to
parties before it, see, e.g., Tasini v. N.Y. Times Co., 184
F.Supp.2d 350, 354–55 (S.D.N.Y. 2002).
2.

Standing

In order to meet the “irreducible constitutional
minimum” of standing, a “plaintiff must have (1) suffered an injury in fact, (2) that is fairly traceable to the
challenged conduct of the defendant, and (3) that is
likely to be redressed by a favorable judicial decision.”
Spokeo, Inc. v. Robins, ___ U.S. ___, 136 S.Ct. 1540,
1547, 194 L.Ed.2d 635 (2016) (internal quotation
marks and citations omitted). “To establish injury in
fact, a plaintiff must show that he or she suffered ‘an
invasion of a legally protected interest’ that is ‘concrete
and particularized’ and ‘actual or imminent, not conjectural or hypothetical.’ ” Id. at 1548 (quoting Lujan v.
Defenders of Wildlife, 504 U.S. 555, 560, 112 S.Ct. 2130,
119 L.Ed.2d 351 (1992)). Additionally, Plaintiffs must
demonstrate a “present case or controversy” with respect to claims seeking prospective, injunctive relief,
City of L.A. v. Lyons, 461 U.S. 95, 102–03, 103 S.Ct.
1660, 75 L.Ed.2d 675 (1983), and “past injuries cannot
satisfy the injury-in-fact requirement” for such claims,

124a
Vaccariello v. XM Satellite Radio, Inc., 295 F.R.D. 62,
72 (S.D.N.Y. 2013) (citing Shain v. Ellison, 356 F.3d
211, 215 (2d Cir. 2004)).
Plaintiffs may, under some circumstances, rely on
the risk of a future harm to support their injury in fact,
see Deshawn E. v. Safir, 156 F.3d 340, 344 (2d Cir.
1998); however, such injuries are only “actual or imminent” where “the threatened injury is ‘certainly impending,’ or there is a ‘substantial risk’ that the harm
will occur.”3 Susan B. Anthony List v. Driehaus, ___ U.S.
3

The Supreme Court’s decision in Clapper v. Amnesty International USA emphasized that the “[t]hreatened injury must be
‘certainly impending’ ‘to constitute injury in fact’ and ‘allegations
of possible future injury’ are not sufficient. 568 U.S. 398, 133 S.Ct.
1138, 1141, 185 L.Ed.2d 264 (2013). While the Clapper decision
acknowledges certain instances in which the Court previously endorsed standing based on a “substantial risk” that the harm
would occur if that underlying risk “may prompt plaintiffs to reasonably incur costs to mitigate or avoid that harm,” id. at 1151
n.5, it appeared to treat those cases as an exception to the general
rule. However, the Court’s subsequent decision in Susan B. Anthony List v. Driehaus incorporated the “substantial risk” language into its recitation of the standard for measuring injury in
fact. ___ U.S. ___, 134 S.Ct. 2334, 2341, 189 L.Ed.2d 246 (2014).
At this point, it is not clear when one or the other standard should
be applied, see Hedges v. Obama, 724 F.3d 170, 196 (2d Cir. 2013),
or even whether those standards are distinct, see N.Y. Bankers
Ass’n Inc. v. City of N.Y., No. 13-CV-7212 (KPF), 2014 WL
4435427, at *9 (S.D.N.Y. Sept. 9, 2014). While some courts have
applied the potentially lower “substantial risk” analysis in assessing pre-enforcement challenges to laws, such as that considered in Susan B. Anthony List, the governing standard for
actuality or imminence with regard to other types of claims is less
clear. See. e.g., Hedges, 724 F.3d at 195–96; Knife Rights, Inc. v.
Vance, 802 F.3d 377, 384 (2d Cir. 2015). The court need not wade
into these questions in the present case. The Cohen Complaint

125a
___, 134 S.Ct. 2334, 2341, 189 L.Ed.2d 246 (2014)
(quoting Clapper v. Amnesty Int’l USA, 568 U.S. 398,
133 S.Ct. 1138, 1147, 185 L.Ed.2d 264 (2013)). A plaintiff alleging only an “objectively reasonable possibility”
that it will sustain the cited harm at some future time
does not satisfy this requirement. Clapper, 133 S.Ct. at
1147–48. For this reason, courts are generally hostile
to “standing theories that require guesswork as to how
independent decisionmakers will exercise their judgment,” id. at 1150, which almost by definition require
speculation as to the likelihood of injury resulting from
the third party’s actions.
Moreover, plaintiffs cannot evade the required
showing of an “actual or imminent” injury by alleging
present harms incurred as a result of their “fear[ ] of a
hypothetical future harm that is not certainly impending,” as doing so would allow parties to “repackage”
their conjectural injury to “manufacture standing.” Id.
at 1151. Instead, the focus of the standing inquiry remains whether “the threat creating the fear is sufficiently imminent.” Hedges v. Obama, 724 F.3d 170, 195
(2d Cir. 2013); see also Lyons, 461 U.S. at 107 n.8, 103
S.Ct. 1660 (“It is the reality of the threat . . . that is
relevant to the standing inquiry, not the plaintiff ’s
subjective apprehensions.”).
Courts have broadly rejected claims based on the
risk of falling victim to a future terrorist attack,
relies wholly on possible future injuries untethered from any allegation as to the likelihood or imminence of their occurrence that
are insufficient under either standard.

126a
concluding that such harms are impermissibly speculative and so insufficient to confer standing. See, e.g.,
Tomsha v. Gen. Servs. Admin., No. 15-CV-7326 (AJN),
2016 WL 3538380, at *2–3 (S.D.N.Y. June 21, 2016);
Bernstein v. Kerry, 962 F.Supp.2d 122, 127–28 (D.D.C.
2013); People of Colo. ex rel. Suthers v. Gonzales, 558
F.Supp.2d 1158, 1162 (D. Colo. 2007); cf. George v. Islamic Rep. of Iran, 63 Fed.Appx. 917, 918 (7th Cir.
2003) (holding that plaintiffs were “no more likely than
the average [ ] citizen to be victims of future attacks”
and so their claimed injury was “purely speculative”).
3.

Application to the Cohen Complaint

The Cohen Plaintiffs fail to carry their burden of
showing that their claims are grounded in some nonspeculative future harm. Despite offering extensive
descriptions of previous attacks (see Cohen FAC
¶¶ 11–16), the Cohen Plaintiffs do not seek redress for
past actions but instead seek prospective, injunctive
relief based on their allegation that Facebook’s actions
increase their risk of harm from future terrorist attacks (see, e.g., id. ¶¶ 5, 37). This claimed harm relies
on multiple conjectural leaps, most significantly its
central assumption that the Cohen Plaintiffs will be
among the victims of an as-yet unknown terrorist attack by independent actors not before the court. The
Cohen Complaint contains no factual allegation that
could form a basis to conclude that those individuals
in particular are at any “substantial” or “certainly impending” risk of future harm. Susan B. Anthony List,
134 S.Ct. at 2341. At most, the Complaint shows a

127a
general risk of harm to residents of Israel and impliedly asks the court to extract a risk of harm to the
Cohen Plaintiffs based on this risk. Without further
allegations, however, the court sees no basis to conclude that the Cohen Plaintiffs “specifically will be the
target of any future, let alone imminent, terrorist attack.” Tomsha, 2016 WL 3538380, at *2.
Nor can the Cohen Plaintiffs rescue their claims
by arguing that they suffer a present harm resulting
from their fear of such attacks, as “allegations of a subjective [fear] are not an adequate substitute for a claim
of specific present objective harm or threat of a specific
future harm.” Clapper, 133 S.Ct. at 1152 (quoting
Laird v. Tatum, 408 U.S. 1, 13–14, 92 S.Ct. 2318, 33
L.Ed.2d 154 (1972)). While the court does not question
the sincerity of the Cohen Plaintiffs’ anxieties, their
subjective fears cannot confer standing absent a sufficient showing of the risk of future harm.4

4

The Cohen Plaintiffs argue that they establish an injury in
fact because “the Israeli statutes [that form the basis for some of
their claims] were passed to protect the plaintiffs and impose a
duty upon Facebook.” (Pls. Mem. in Opp’n to MTD (“Opp’n Mem.”)
(Dkt. 29), No. 16–CV–4453, at 40.) Their argument appears to be
that Israeli law gives rise to a cognizable injury in fact by creating
a protected interest. However, the presence of a statutory right
does not itself satisfy Article III’s injury in fact requirement,
which must be met in all cases. See Lujan, 504 U.S. at 576–78,
112 S.Ct. 2130. Where, as here, the examining court finds that
plaintiffs fail to establish a constitutionally cognizable injury in
fact, the resulting jurisdictional defect is not remedied by the
presence of a statutory right. See Spokeo, Inc. v. Robbins, ___ U.S.
___, 136 S.Ct. 1540, 1549, 194 L.Ed.2d 635 (2016) (“Article III

128a
For the foregoing reasons, the Cohen Complaint is
dismissed without prejudice in its entirety. See Carter
v. HealthPort Techs., LLC, 822 F.3d 47, 54-55 (2d Cir.
2016) (“[W]here a complaint is dismissed for lack of
Article III standing, the dismissal must be without
prejudice. . . .”).
B. Personal Jurisdiction
Facebook also argues that subjecting it to personal
jurisdiction in New York as to the Force5 claims would
be inconsistent with state law requirements and due
process principles. (See MTD Mem. at 22–30.) The court
concludes that personal jurisdiction over Facebook is
proper based on the Force Complaint’s ATA-based
claims, which permit a court to exercise jurisdiction
over a defendant who has minimum contacts with the
United States, and the doctrine of pendent personal
jurisdiction. Accordingly, the court declines to dismiss
the Force Complaint on this basis.

standing requires a concrete injury even in the context of a statutory violation.”).
5
Facebook’s argument against personal jurisdiction is also
directed at the Cohen Complaint and raises a number of valid but
vexing questions as to the interaction between New York’s statutory scheme for extending jurisdiction over corporations and recent Supreme Court decisions concerning due process limitations
on personal jurisdiction. (See MTD Mem. at 27–30.) Because the
court has determined that the Cohen Plaintiffs fail to establish
standing, it need not address the question of personal jurisdiction
as to their Complaint. Cf. Ruhrgas AG, 526 U.S. at 583–84, 119
S.Ct. 1563 (holding that subject matter questions may be, but are
not necessarily, decided before questions of personal jurisdiction).

129a
1.

Legal Standard

Personal jurisdiction refers to a “court’s power to
exercise control over the parties.” Leroy v. Great W.
United Co., 443 U.S. 173, 180, 99 S.Ct. 2710, 61 L.Ed.2d
464 (1979). “In order to survive a motion to dismiss for
lack of personal jurisdiction, a plaintiff must make a
prima facie showing that jurisdiction exists.” Licci ex
rel. Licci v. Lebanese Canadian Bank, SAL (“Licci III”),
732 F.3d 161, 167 (2d Cir. 2013) (internal quotation
marks and citation omitted). “Prior to discovery, a
plaintiff may defeat a motion to dismiss based on legally sufficient allegations of jurisdiction.” In re Magnetic Audiotape Antitrust Litig., 334 F.3d 204, 206 (2d
Cir. 2003) (citation omitted). In evaluating the sufficiency of the jurisdictional allegations, a court must
“construe the pleadings and affidavits in the light most
favorable to the plaintiffs, resolving all doubts in their
favor.” Dorchester Fin. Secs. Inc. v. Banco BRJ, S.A., 722
F.3d 81, 85 (2d Cir. 2013) (internal quotation marks
and citation omitted).
Establishing personal jurisdiction over a party
“requires satisfaction of three primary elements”:
(1) procedurally proper service of process on the defendant; (2) a statutory basis for personal jurisdiction;
and (3) the exercise of jurisdiction must be consistent
with “constitutional due process principles.” Licci ex
rel. Licci v. Lebanese Canadian Bank, SAL (“Licci I”),
673 F.3d 50, 59–60 (2d Cir. 2012). Facebook does not
argue that service of process was procedurally improper, and so the court’s evaluation focuses on
whether the exercise of personal jurisdiction is

130a
statutorily authorized and consistent with the strictures of due process.
2.

Statutory Basis for Personal Jurisdiction

“The available statutory bases [for asserting personal jurisdiction] are enumerated by Federal Rule of
Civil Procedure 4(k).” Licci I, 673 F.3d at 59. In one of
its provisions, that rule states that “[s]erving a summons or filing a waiver of service establishes personal
jurisdiction over a defendant . . . when authorized by a
federal statute.” Fed. R. Civ. P. 4(k)(1)(C). Where a federal statute authorizes nationwide service of process,
this provision permits the exercise of personal jurisdiction over parties properly served anywhere in the
United States. See Kidder, Peabody & Co., Inc. v. Maxus
Energy Corp., 925 F.2d 556, 562 (2d Cir. 1991) (stating
nationwide service provision of the Securities Exchange Act “confers personal jurisdiction over a defendant who is served anywhere within the United
States”).
The Force Plaintiffs argue that the service provision of the ATA provides the statutory basis for exercising personal jurisdiction over Facebook. (Pls. Mem.
in Opp’n to MTD (“Opp’n Mem.”) (Dkt. 29), No. 16–CV–
4453, at 7–8). In pertinent part, the relevant statute
states that, for civil enforcement of federal antiterrorism statutes pursuant to 18 U.S.C. § 2333, “[p]rocess
. . . may be served in any district where the defendant

131a
resides, is found, or has an agent.”6 18 U.S.C. § 2334(a).
Various opinions, including two recent decisions from
this district, have held that this provision authorizes
nationwide service of process and so provides personal
jurisdiction over defendants who are properly served
anywhere in the United States. Weiss v. Nat’l Westminster Bank PLC, 176 F.Supp.3d 264, 284 (E.D.N.Y.
2016); Strauss v. Credit Lyonnais, S.A., 175 F.Supp.3d
3, 26–27 (E.D.N.Y. 2016); see also Licci I, 673 F.3d at 59
n.8 (2d Cir. 2012) (noting the ATA’s service provision
as a potential basis for establishing personal jurisdiction).
Facebook does not argue that service was defective, nor does it contest the holdings in the cases cited
above other than to argue that they were wrongly decided. Given the unanimity of opinion on the subject,
including within the Second Circuit, and the clear language of the statute, there are no apparent grounds
to disagree with Plaintiffs’ position. Accordingly, the
6

Immediately before its service provision, Section 2334
states that “[a]ny civil action under section 2333 . . . may be instituted in the district court of the United States for any district
where any plaintiff resides or where any defendant resides or is
served, or has an agent.” 18 U.S.C. § 2334(a). At least one prior
opinion restricted nationwide service to instances in which this
venue requirement is satisfied. See Wultz v. Islamic Rep. of Iran,
762 F.Supp.2d 18, 25–29 (D.D.C. 2011). Facebook’s apparent concession that it was properly served in the Southern District of
New York prior to transfer to this court is also sufficient to establish that statutory venue was proper and so that the statutory
prerequisite for nationwide service was satisfied. Cf. Wultz, 762
F.Supp.2d at 29–30; Weiss v. Nat’l Westminster Bank PLC, 176
F.Supp.3d 264, 284 n.10 (E.D.N.Y. 2016).

132a
court finds that the ATA provides statutory grounds
for extending personal jurisdiction over Facebook.
3.

Due Process Considerations

Even where statutorily authorized, the exercise of
personal jurisdiction must be consistent with constitutional due process requirements. See, e.g., Waldman v.
Palestine Liberation Org., 835 F.3d 317, 327–28 (2d Cir.
2016). The reviewing court must satisfy itself that
“maintenance of a lawsuit does not offend ‘traditional
notions of fair play and substantial justice.’ ” Id. at 328
(quoting Int’l Shoe Co. v. Washington, 326 U.S. 310, 316,
66 S.Ct. 154, 90 L.Ed. 95 (1945)).
While the required analysis typically looks to a
party’s “minimum contacts” with the particular state
in which the examining court sits, satisfaction of due
process as to federal statutes with nationwide service
provisions depends only on a party’s contact with the
United States as a whole. See. e.g., In re Terrorist Attacks on Sept. 11, 2001, 349 F.Supp.2d 765, 806
(S.D.N.Y. 2005); cf. Mariash v. Morrill, 496 F.2d 1138,
1143 (2d Cir. 1974) (noting that personal jurisdiction
predicated on nationwide service “remains subject to
the constraints of the Due Process clause of the Fifth
Amendment” (emphasis added)). The First Circuit explained the basis for this distinction, stating: “Inasmuch as the federalism concerns which hover over the
jurisdictional equation in a diversity case are absent in
a federal question case, a federal court’s power to assert personal jurisdiction is geographically expanded.”

133a
United Elec. Radio, and Mach. Workers of Am. v. 163
Pleasant St. Corp., 960 F.2d 1080, 1085 (1st Cir. 1992).
Applying this reasoning to the ATA’s nationwide
service provision, courts have consistently held that
defendants are subject to personal jurisdiction for civil
claims under that act where they have minimum contacts with the United States as a whole.7 See Waldman,
835 F.3d at 331–334 (assessing personal jurisdiction
based on defendants’ contacts with the United States
as a whole); Strauss, 175 F.Supp.3d at 28; Weiss, 176
F.Supp.3d at 285; In re Terrorist Attacks, 349 F.Supp.2d
at 810–11.
There is no question that Facebook has the required contacts with the United States as a whole. The
Force Plaintiffs allege—and Facebook does not dispute—that Facebook is incorporated in Delaware and
7

Facebook argues that the ATA cases noted here are distinguishable on the basis that they apply only to foreign defendants,
a distinction they claim has legal salience because “any American
defendants would have very different federalism-backed expectations than a foreign defendant about where in the United States
it may be hailed into court.” (Def. Reply in Further Supp. of MTD
(“Reply Mem.”) (Dkt. 31), No. 16–CV–4453, at 9.) However, Facebook cites no authority that supports this restriction and, though
it is correct that analysis of minimum contacts and personal
jurisdiction under the ATA has been limited to foreign parties,
courts in this circuit have applied the same rule to US-based defendants under other laws with similar provisions. See. e.g., Local
8A-28A Welfare and 401(k) Retirement Funds v. Golden Eagles
Architectural Metal Cleaning and Refinishing, 277 F.Supp.2d
291, 294 (S.D.N.Y. 2003); Hallwood Realty Partners, L.P. v. Gotham Partners, L.P., 104 F.Supp.2d 279, 281–87 (S.D.N.Y. 2000).
Accordingly, the court finds no reasons to treat this distinction as
controlling here.

134a
has its principal place of business in California. (Force
FAC ¶ 19.) As a United States resident, Facebook
could hardly argue that it lacks the required contacts
with the country as a whole. Mariash, 496 F.2d at 1143
(“[W]here, as here, the defendants reside within the
territorial boundaries of the United States, the ‘minimal contacts,’ required to justify the federal government’s exercise of power over them, are present.”);
cf. Daimler AG v. Bauman, ___ U.S. ___, 134 S.Ct. 746,
760, 187 L.Ed.2d 624 (2014) (holding that a corporation is “fairly regarded at home” and so “amenable” to
personal jurisdiction for suits relating to all of its activities, including those outside the forum, in its principal place of business and place of incorporation).
Accordingly, the court finds that exercising of jurisdiction over Facebook with respect to the ATA claims comports with the requirements of due process.
4.

Pendent Personal Jurisdiction8

“A plaintiff must establish the court’s jurisdiction
with respect to each claim asserted” Sunward Elec.,
Inc. v. McDonald, 362 F.3d 17, 24 (2d Cir. 2004), and so
8

The Court does not address the potential state law bases for
extending personal jurisdiction over the Force Plaintiffs’ remaining
claims, nor it is required to do so where pendent personal jurisdiction is available. IUE AFL-CIO Pension Fund v. Herrmann, 9 F.3d
1049, 1057 (2d Cir. 1993) (“We need not reach the question whether
personal jurisdiction as to the state law claims was otherwise available because the district court had personal jurisdiction over the
defendants under [a statute with a nationwide service of process
provision] and the state law claims derive from a common nucleus
of operative facts with the federal claims.”)

135a
the court is required to assess personal jurisdiction as
to the Force Complaint’s remaining, Israeli law-based
claims.
“[U]nder the doctrine of pendent personal jurisdiction, where a federal statute authorizes nationwide
service of process, and the federal and [non-federal]
claims ‘derive from a common nucleus of operative
fact’, the district court may assert personal jurisdiction
over the parties to the related [ ] claims even if personal jurisdiction is not otherwise available.” IUE
AFL–CIO Pension Fund v. Herrmann, 9 F.3d 1049,
1056 (2d Cir. 1993) (internal quotation marks and citations omitted). A common nucleus of operative fact
exists between claims where “the facts underlying the
federal and [non-federal] claims substantially overlap[ ] [or] the federal claim necessarily [brings] the
facts underlying the [non-federal] claim before the
court.” Achtman v. Kirby, McInerney & Squire, LLP,
464 F.3d 328, 335 (2d Cir. 2006) (internal quotation
marks and citation omitted).
District courts have discretion as to whether to
exercise pendent personal jurisdiction, the exercise of
which should be informed by “considerations of juridical economy, convenience, and fairness to litigants.” See
In re LIBOR-Based Fin. Instruments Antitrust Litig.,
No. 11-MD-2262 (NRB), 2015 WL 6243526, at *23
(S.D.N.Y. Oct. 20, 2015) (quoting Oetiker v. Jurid Werke,
G.m.b.H., 556 F.2d 1, 5 (D.C. Cir. 1977)).
Those considerations strongly favor exercising
pendent jurisdiction over Facebook with respect to the

136a
Force Complaint’s non-ATA-based claims. The ATA
and non-ATA-based claims derive from the same underlying allegations and legal theories: that Facebook’s
provision of “services” to Hamas assisted that organization in recruiting, organizing, facilitating, and instigating attacks, and that Facebook failed to stop this
abuse of its platform. There would be no inconvenience
or unfairness to Facebook in requiring it to litigate the
same facts before the same court, nor would splitting
up the claims between multiple courts do anything to
conserve judicial resources. In view of the foregoing
discussion of the ATA’s nationwide service provision,
the court exercises personal jurisdiction over Facebook
with respect to the Force Plaintiffs’ remaining claims
as well.
***
Accordingly, the court concludes that Facebook is
subject to personal jurisdiction in New York as to the
claims asserted in the Force Complaint, and denies its
motion to dismiss for lack of personal jurisdiction.
C. Failure to State a Claim Based on the
Communications Decency Act9
The parties dedicate much of their briefing debating the applicability of Section 230(c)(1) of the
9

Facebook separately seeks dismissal of the Force Complaint’s
federal law-based causes of action, arguing that the Force Plaintiffs
fail to state a plausible claim for relief under the applicable statutes.
(MTD Mem. at 32–40.) The court does not address this argument, as
it concludes that all of the Force Complaint’s claims must be dismissed on the basis of the Communications Decency Act.

137a
Communications Decency Act (“Section 230(c)(1)”) to
the present dispute. There are two distinct species of
arguments regarding Section 230(c)(1) raised in the
parties’ briefs. First, the parties dispute whether the
asserted claims fall within the substantive coverage of
Section 230(c)(1). Second, the Force Plaintiffs argue
that Facebook is improperly attempting to apply Section 230(c)(1) extraterritorially. The court considers
these arguments separately and concludes that the activity alleged falls within the immunity granted by
Section 230(c)(1) and that application of that subsection to the present dispute is not impermissibly extraterritorial.
1.

Legal Standard

The purpose of a motion to dismiss for failure to
state a claim under Rule 12(b)(6) is to test the legal
sufficiency of a plaintiff ’s claims for relief. Patane v.
Clark, 508 F.3d 106, 112 (2d Cir. 2007). In reviewing a
complaint on such a motion, the court must accept as
true all allegations of fact, and draw all reasonable inferences in favor of the plaintiff. ATSI Commc’ns, Inc.
v. Shaar Fund Ltd., 493 F.3d 87, 98 (2d Cir. 2007). A
complaint will survive a motion to dismiss if it contains
“sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’ ” Ashcroft v.
Iqbal, 556 U.S. 662, 678, 129 S.Ct. 1937, 173 L.Ed.2d
868 (2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 570, 127 S.Ct. 1955, 167 L.Ed.2d 929 (2007)). However, even where a claim is otherwise plausible, a defendant may move to dismiss based on an available

138a
affirmative defense, and the court may grant the motion on that basis “if the defense appears on the face of
the complaint.” Pani v. Empire Blue Cross Blue Shield,
152 F.3d 67, 74 (2d Cir. 1998); see also Ricci v. Teamsters Union Local 456, 781 F.3d 25, 28 (2d Cir. 2015).
2.

Coverage of Section 230(c)(1)

a. Overview of Section 230(c)(1)
Section 230(c)(1) shields defendants who operate
certain internet services from liability based on content created by a third party and published, displayed,
or issued through the use of the defendant’s services.
That subsection states: “No provider or user of an interactive computer service shall be treated as the publisher or speaker of any information provided by
another information content provider.” 47 U.S.C.
§ 230(c)(1).
The Second Circuit recently described the necessary components of an immunity claim under Section
230(c)(1), stating that the law “shields conduct if the
defendant (1) is a provider or user of an interactive
computer service, (2) the claim is based on information
provided by another information content provider and
(3) the claim would treat [the defendant] as the publisher or speaker of that information.” FTC v. LeadClick Media, LLC, 838 F.3d 158, 173 (2d Cir. 2016)
(alteration in original) (internal quotation marks and
citations omitted). Where a defendant establishes
these requirements based on the face of a complaint, a
motion to dismiss may be granted. See Ricci, 781 F.3d

139a
at 28 (citing Klayman v. Zuckerberg, 753 F.3d 1354,
1357 (“Klayman II”) (D.C. Cir. 2014)).
The Force Plaintiffs do not genuinely contest that
the first and second elements of this test are satisfied
in the present case,10 but rather focus their efforts on
contesting the final requirement for obtaining Section
230(c)(1) immunity—that “the claim would treat [the
defendant] as the publisher or speaker of ” third party
content. Under this prong, qualifying defendants are
protected from liability predicated on their “exercise of
a publisher’s traditional editorial functions—such as
deciding whether to publish, withdraw, postpone, or alter content” that they did not themselves create. LeadClick Media, 838 F.3d at 174 (internal quotation marks
10

While the court does not engage in an extended discussion
of the first two prongs here, Facebook and the content at issue
qualify easily. The Second Circuit has not considered whether social media platforms in particular are “interactive computer services” within the meaning of the law; however, other courts have
readily concluded that such websites (and Facebook in particular)
fall into this category. See. e.g., Klayman II, 753 F.3d at 1357–58;
Doe v. MySpace, Inc., 528 F.3d 413, 420–22 (5th Cir. 2008). With
regard to the second prong—that the “claim is based on information provided by another content provider”—the Second Circuit has indicated that a defendant falls afoul of this requirement
only where “it assisted in the development of what made the
content unlawful.” LeadClick Media, 838 F.3d at 174. The District Court for the District of Columbia recently rejected an argument that Facebook fell afoul of this standard by using data
collected from users to suggest other content and users, stating
that “the manipulation of information provided by third parties
does not automatically convert interactive service providers into
information content providers.” Klayman v. Zuckerberg, 910
F.Supp.2d 314, 321 n.3 (“Klayman I”) (D.D.C. 2012), aff ’d, 753
F.3d 1354 (D.C. Cir. 2014).

140a
and citation omitted). The Second Circuit’s most recent
opinion on the subject provided the following guidance
as to when a defendant is shielded:
[W]hat matters is whether the cause of action
inherently requires the court to treat the defendant as the “publisher or speaker” of content provided by another. To put it another
way, courts must ask whether the duty that
the plaintiff alleges the defendant violated
derives from the defendant’s status or conduct
as a “publisher or speaker.”
Id. at 175 (quoting Barnes v. Yahoo!, Inc., 570 F.3d
1096, 1102 (9th Cir. 2009)) (emphasis added). This
guidance emphasizes that Section 230(c)(1) is implicated not only by claims that explicitly point to third
party content but also by claims which, though artfully
pleaded to avoid direct reference, implicitly require recourse to that content to establish liability or implicate
a defendant’s role, broadly defined, in publishing or excluding third party Communications. See, e.g., Jane
Doe No. 1 v. Backpage.com, LLC, 817 F.3d 12, 19 (1st
Cir. 2016) (“The ultimate question [of whether Section
230(c)(1) applies] does not depend on the form of the
asserted cause of action. . . .”) (collecting cases);
Manchanda v. Google, No. 16-CV-3350 (JPO), 2016 WL
6806250, at *2 (S.D.N.Y. Nov. 16, 2016).
In keeping with this expansive view of the publisher’s role, judicial decisions in the area consistently
stress that decisions as to whether existing content
should be removed from a website fall within the editorial prerogative. See Ricci, 781 F.3d at 28; Klayman

141a
II, 753 F.3d at 1359; Green v. Am. Online (AOL), 318
F.3d 465, 471 (3d Cir. 2003) (“[D]ecisions relating to the
monitoring, screening, and deletion of content from
[defendant’s] network . . . quintessentially relate[ ] to a
publisher’s role.”); Barnes, 570 F.3d at 1103 (“[R]emoving content is something publishers do.”). Similarly, a
recent opinion found that decisions as to the “structure
and operation” of a website also fall within Section
230(c)(1)’s protection, Backpage.com, 817 F.3d at 21, a
determination which one court extended to a social media platform’s decisions as to who may obtain an account, see Fields v. Twitter, 217 F.Supp.3d 1116, 1123–
24, No. 16-CV-213, 2016 WL 6822065, at *6 (“Fields II”)
(N.D. Cal. Nov. 18, 2016).
b. Application
While the Force Plaintiffs attempt to cast their
claims as content-neutral, even the most generous
reading of their allegations places them squarely
within the coverage of Section 230(c)(1)’s grant of immunity. In their opposition to the present motion, the
Force Plaintiffs argue that their claims seek to hold
Facebook liable for “provision of services” to Hamas in
the form of account access “coupled with Facebook’s refusal to use available resources . . . to identify and shut
down Hamas [ ] accounts.” (Opp’n Mem. at 27; see also
Force FAC ¶¶ 543–55.) While superficially contentneutral, this attempt to draw a narrow distinction
between policing accounts and policing content must
ultimately be rejected. Facebook’s choices as to who
may use its platform are inherently bound up in its

142a
decisions as to what may be said on its platform, and
so liability imposed based on its failure to remove users would equally “derive[ ] from [Facebook’s] status or
conduct as a ‘publisher or speaker.’ ” LeadClick Media,
838 F.3d at 175 (internal quotation marks and citations omitted). Section 230(c)(1) prevents courts from
entertaining civil actions11 that seek to impose liability
on defendants like Facebook for allowing third parties
to post offensive or harmful content or failing to remove such content once posted. See Ricci, 781 F.3d at
28; Klayman II, 753 F.3d at 1359 (“[T]he very essence
of publishing is making the decision whether to print
or retract a given piece of content.”). For the same reason, it is clear that Section 230(c)(1) prevents the necessarily antecedent editorial decision to allow certain
parties to post on a given platform, as that decision
cannot be meaningfully separated from “choices about
11

The Force Plaintiffs also refer in passing to a subsection of
Section 230 which states that “[n]othing in this section shall be
construed to impair the enforcement of . . . any [ ] Federal criminal statute.” 47 U.S.C. § 230(e)(1). (Opp’n Mem. at 26–27.) While,
read most favorably, this section could be interpreted to inhibit
immunity as to civil liability predicated on federal criminal statutes, such as the ATA provisions at issue here, this reading has
been rejected by most courts that have examined it. See Backpage.com, 817 F.3d at 23; M.A. ex rel P.K. v. Vill. Voice Media
Holdings, LLC, 809 F.Supp.2d 1041, 1054–55 (E.D. Mo. 2011);
Doe v. Bates, No. 5:05-CV-91, 2006 WL 3813758, at *3–4 (E.D.
Tex. Dec. 27, 2006); Obado v. Magedson, No. 13-cv-2382, 2014 WL
3778261 (D.N.J. July 31, 2014); but see Nieman v. Versuslaw, Inc.,
No.12–3104, 2012 WL 3201931, at *9 (C.D. Ill. Aug. 3, 2012). The
court concludes that this subsection does not limit Section
230(c)(1) immunity in civil actions based on criminal statutes but
rather extends only to criminal prosecutions.

143a
what [third party] content can appear on [the platform] and in what form.” Fields II, 217 F.Supp.3d at
1124, 2016 WL 6822065, at *6 (quoting Backpage.com,
817 F.3d at 20–21).
Further, it is clear that the Force Plaintiffs’ claims
are not based solely on the provision of accounts to
Hamas but rely on content to establish causation and,
by extension, Facebook’s liability. The essence of the
Force Complaint is not that Plaintiffs were harmed by
Hamas’s ability to obtain Facebook accounts but rather
by its use of Facebook for, inter alia, “recruiting, gathering information, planning, inciting, [ ] giving instructions for terror attacks, . . . issu[ing] terroristic threats,
. . . [and] intimidating and coerc[ing] civilian populations.” (Force FAC ¶ 112; see also Opp’n Mem. at 29
(“[P]laintiffs have alleged how Facebook’s provision of
services and resources to Hamas substantially contributed to Hamas’s ability to carry out the attacks at issue
and the attacks were a foreseeable consequence of the
support provided by Facebook.”) Said differently, the
Force Plaintiffs claim that Facebook contributed to
their harm by allowing Hamas to use its platform to
post particular offensive content that incited or encouraged those attacks. Facebook’s role in publishing that
content is thus an essential causal element of the
claims in the Force Complaint, and allowing liability to
be imposed on that basis would “inherently require[ ]
the court to treat the defendant as the publisher or
speaker of content provided by” Hamas. LeadClick
Media, 838 F.3d at 175 (internal quotation marks and
citations omitted); see also Fields II, 217 F.Supp.3d at

144a
1124, 2016 WL 6822065, at *7 (“Although plaintiffs
have carefully restructured their [complaint] to focus
on their provision of accounts theory of liability, at
their core, plaintiffs’ allegations are still that [the social media platform] failed to prevent [terrorists] from
disseminating content through [its] platform, not its
mere provision of accounts. . . .”).
Accordingly, the court finds that the Force Plaintiffs’ claims against Facebook fall within the scope of
Section 230(c)(1)’s grant of immunity. The court proceeds to consider whether that statute may be applied
to the present dispute.
3.

Extraterritorial Application of the
Communications Decency Act

Separate from its substantive scope, the Force
Plaintiffs argue that Section 230(c)(1) does not apply
to the present dispute because, under the presumption
against extraterritoriality, it cannot be applied to conduct that occurs wholly outside of the United States.
(See Opp’n Mem. at 30–31.) Pointing to recent Supreme Court holdings, Plaintiffs claim that because
“the CDA ‘gives no clear indication of an extraterritorial application,’ under [Morrison v. Nat’l Austl. Bank
Ltd., 561 U.S. 247 [130 S.Ct. 2869, 177 L.Ed.2d 535]
(2010)], the CDA has no extraterritorial application.”
(Id. at 31.)

145a
a. Overview of the Presumption
against Extraterritoriality
Based on the premise that “United States law
governs domestically but does not rule the world,” the
presumption against extraterritoriality dictates that
statutes should only be given domestic effect absent a
definitive demonstration of Congress’s intent for them
to apply abroad. See RJR Nabisco, Inc. v. European
Cmty., ___ U.S. ___, 136 S.Ct. 2090, 2100, 195 L.Ed.2d
476 (2016) (internal quotation marks and citations
omitted). While “the presumption against extraterritoriality is ‘typically’ applied to statutes ‘regulating conduct,’ ” id. at 2100 (quoting Kiobel v. Roval [sic] Dutch
Petroleum, 569 U.S. 108, 133 S.Ct. 1659, 1664, 185
L.Ed.2d 671 (2013)), the Supreme Court recently clarified that, “regardless of whether the statute in question regulates conduct, affords relief, or merely confers
jurisdiction,” all questions of extraterritoriality should
be assessed using a “two-step framework,” id. at 2101.
The first step requires the court to determine
“whether the statute gives a clear, affirmative indication that it applies extraterritorially.” Id. The presumption against extraterritoriality does not apply if a
statute contains an express demonstration of Congress’s intent that the law should apply abroad. See
Morrison, 561 U.S. at 255, 130 S.Ct. 2869. Conversely,
absent evidence of such intent, the statute can only be
applied domestically. Id. (“[W]hen a statute gives no
clear indication of extraterritorial application, it has
none.”)

146a
If a statute lacks clear indicia of intended extraterritorial effect, the examining court must then “determine whether the case at issue involves [ ] a
prohibited [extraterritorial] application” of the law.
Matter of Warrant to Search a Certain E-Mail Account
Controlled and Maintained by Microsoft Corp. (“Microsoft Corp.”), 829 F.3d 197, 216 (2d Cir. 2016). Accomplishing this step requires the court to identify the
“focus” of the statute, defined as the “objects of the statute’s solicitude.” Morrison, 561 U.S. at 267, 130 S.Ct.
2869. From this, the court must distill the relevant
“territorial events or relationships” that bear on that
“focus,” see Microsoft Corp., at 216 (internal citation
omitted), separating those events whose location is relevant to the statute’s central emphasis from those that
are peripheral. The final element of this analysis requires the court to assess whether the relevant “territorial events and relationships” occurred domestically
or abroad with respect to the challenged application of
the statute. Id. If, in the final analysis, the court determines that “the domestic contacts presented by the
case fall within the ‘focus’ of the statutory provision or
are ‘the objects of the statute’s solicitude,’ then the application of the provision is not unlawfully extraterritorial.” Id. (quoting Morrison, 561 U.S. at 267, 130 S.Ct.
2869).

147a
b. Application to Section 230(c)(1)
i.

Indicia of Section 230(c)(1)’s Intended
Extraterritorial Effect

No other court appears to have addressed the presumption against extraterritoriality in the context of a
statute which limits liability or imparts immunity. At
the outset, the court agrees with the Force Plaintiffs
that the statute itself lacks an “affirmative indication
that it applies extraterritorially,” RJR Nabisco, 136
S.Ct. at 2101, as none of Section 230(c)(1), the surrounding provisions, or any other section of the Communications Decency Act demonstrate any clear
consideration of such application, see Communications
Decency Act of 1996, Pub. L. No. 104–104, 110 Stat 56,
§§ 501–61 (codified in scattered sections of Title 18 and
Title 47 of the United States Code).
ii.

Determining the Statutory “Focus”

Moving on to find the statute’s “focus,” the court
concludes that the “object[ ] of [Section 230(c)(1)’s] solicitude” is its limitation on liability. Morrison, 561 U.S.
at 267, 130 S.Ct. 2869. In drawing this conclusion, the
court turns “to the familiar tools of statutory interpretation,” Microsoft Corp., 829 F.3d at 217, determining
the relevant provision’s focus by examining its text and
context.
Looking first to the plain language of Section
230(c)(1), the court concludes that the “most natural
reading of [that provision] . . . suggests a legislative
focus on” providing immunity. Id. Section 230(c)(1)

148a
offers only one directive—that qualifying defendants
may not be treated as the “publisher or speaker of any”
third party content—which it does not cabin based
on either the location of the content provider or the
user or provider of the interactive computer service.
47 U.S.C. § 230(c)(1). This emphasis on immunity over
other considerations is clear from the text, and courts
interpreting that provision have consistently found
Section 230(c)(1)’s plain language focuses on protecting qualified defendants from civil suits. See. e.g.,
Zeran v. Am. Online, Inc., 129 F.3d 327, 330 (4th Cir.
1997).
Viewing the relevant language in the context of
the surrounding provisions and the policy goals of that
section further supports this view of its “focus.” Other
than the relevant provision, Section 230 contains only
two other substantive provisions, one of which is similarly explicit in limiting civil liability for providers
and users of interactive computer services.12 47 U.S.C.
§ 230(c)(2). Both of these immunizing provisions were
adopted specifically for the purpose of clarifying—and
curtailing—the scope of internet-providing defendants’
exposure to liability predicated on third party content,13 and much of the surrounding statutory
12

Section 230 also requires interactive computer service providers to provide notice to customers of commercially available
parental control products that allow for content limitations. 47
U.S.C. § 230(d).
13
Notes of debates around the adoption of the precise language at issue demonstrate that Congress acted with the purpose
of limiting liability. See H.R. Rep. No. 104–458, at 194H.R. Rep.
No. 104–458, at 194 (1996) (H.R. Conf. Rep.), reprinted in 1996

149a
language emphasizes and supports this focus. This is
evidenced, for instance, by Section 230’s stated purpose
of preserving an open and free internet uninhibited by
external limitations, see 47 U.S.C. § 230(b)(2), and its
listed exceptions to the broad liability provided
therein, see id. § 230(e).
iii.

Ascertaining the Relevant “Territorial
Events and Relationships”

In light of its focus on limiting civil liability, the
court concludes that the relevant location is that where
U.S.C.C.A.N. 10. The court observes, however, that the legislative
intent is not unequivocal in this regard. The provision at issue
was adopted in response to a New York case, Stratton Oakmont
Inc. v. Prodigy Servs. Co., 1995 WL 323710 (N.Y. Sup. Ct. May 24,
1995), which held an internet service provider liable for the comments by its users, concluding that the service provider became a
“publisher” by virtue of having selectively removed content and
so was subject to liability for republishing defamatory comments
that it had not removed. Id. at *3–4. In overruling that decision,
Congress evidently sought to remove disincentives to selective removal of material created by that opinion, which it concluded
would impair “the important federal policy of empowering parents to determine the content of Communications their children
receive through interactive computer service.” H.R. Rep. No. 104–
458 at 194H.R. Rep. No. 104–458 at 194. Some opinions have
noted that the subsequent interpretation of the law, which arguably undermines information service providers’ incentives to remove any information by inculcating them against liability for the
content they display, overreads the protections that Congress
sought to provide. See Chi. Lawyers’ Comm. for Civil Rights Under Law, Inc. v. Craigslist, Inc., 519 F.3d 666, 669–70 (7th Cir.
2008). Whatever the merits of that argument, for present purposes it is relevant only to show that Congress’s “focus” in including the relevant language was on limiting liability, not its reasons
for adopting that policy.

150a
the grant of immunity is applied, i.e. the situs of the
litigation. Section 230(c)(1) suggests a number of “territorial relationships and events,” which are generally
divisible into those associated with the underlying
claim (e.g., the location of the information content provider, the internet service provider, or the act of publishing or speaking) and the location associated with
the imposition of liability, i.e. where the internet service provider is to be “treated” as the publisher or
speaker. Given the statutory focus on limiting liability,
however, the location of the relevant “territorial
events” or “relationships” cannot be the place in which
the claims arise but instead must be where redress is
sought and immunity is needed.
With this in mind, the court concludes that the
Force Action does not require an impermissible extraterritorial application of Section 230(c)(1). As the situs
of the litigation is New York, the relevant “territorial
events or relationships” occur domestically. Accordingly, the court rejects the Force Plaintiff ’s argument
that Facebook should be denied immunity under Section 230(c)(1).14

14

The Force Plaintiffs separately claim that Section 230(c)(1)
does not apply to claims based in foreign law (Opp’n Mem. at 31),
and argue that their Israeli tort law claims are properly before
the court under a conflict of laws analysis (id. at 31–36). Their
argument that the Communications Decency Act does not limit
Israeli law claims is apparently based on lack of any reference to
foreign law in the Section 230’s subsection entitled “Effect on
other laws.” 47 U.S.C. § 230(e). The relevant subsection provides
a limited list of exceptions to Section 230(c)’s limitations on liability. See, e.g., id. §§ 230(e)(1) (stating that the liability provisions

151a
***
Accordingly, the court grants Facebook’s motion to
dismiss all claims in the Force Complaint for failure to
state a claim upon which relief can be granted.
IV. CONCLUSION
For the foregoing reasons, Facebook’s Motions to
Dismiss ((Dkt. 23), No. 16–CV–4453; (Dkt. 34), No. 16–
CV–5158) are GRANTED. The Amended Complaint in
the Cohen Action (Dkt. 17), No. 16–CV–4453) is DISMISSED WITHOUT PREJUDICE. The Amended
Complaint in the Force Action ((Dkt. 28), No. 16–CV–
5158) is DISMISSED WITHOUT PREJUDICE. The
Clerk of Court is respectfully DIRECTED to enter
judgment accordingly.
SO ORDERED.

do not impair enforcement of federal criminal laws), 230(e)(3)
(stating that Section 230 does not affect state laws that are “consistent with this section”). The Force Plaintiffs argue that failing
to include foreign law in this section indicates that Section
230(c)(1)’s grant of immunity does not apply to Israeli law-based
claims. The court disagrees and understands the significance of
this omission to be just the opposite: because there is no listed
exception for foreign law claims, those claims remain subject to
the limitations on liability provided by Section 230(c)(1). Cf. TRW
Inc. v. Andrews, 534 U.S. 19, 28, 122 S.Ct. 441, 151 L.Ed.2d 339
(2001) (“Where Congress explicitly enumerates certain exceptions
to a general prohibition, additional exceptions are not to be implied, in the absence of evidence of a contrary legislative intent.”
(internal quotation marks and citations omitted)).

152a
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
----------------------------------------------------------------------------------------------------------------------------------------

At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 29th day of August, two
thousand nineteen.

Stuart Force, individually and
as Administrator on behalf of
the Estate of Taylor Force,
ORDER
Robbi Force, Kristin Ann Force,
Abraham Ron Fraenkel, individ- Docket No: 18-397
ually and as Administrator on (Filed Aug. 29, 2019)
behalf of the Estate of Yaakov
Naftali Fraenkel, and as the
natural and legal guardian of
minor plaintiffs A.H.H.F, A.L.F,
N.E.F, N.S.F, and S.R.F.,
A.H.H.F., A.L.F., N.E.F., N.S.F.,
S.R.F., Rachel Devora Sprecher
Fraenkel, individually and as
Administrator on behalf of the
Estate of Yaakov Naftali
Fraenkel and as the natural
and legal guardian of minor
plaintiffs A.H.H.F, A.L.F, N.E.F,
N.S.F, and S.R.F., Tzvi Amitay
Fraenkel, Shmuel Elimelech
Braun, individually and as

153a
Administrator on behalf of the
Estate of Chaya Zissel Braun,
Chana Braun, individually and
as Administrator on behalf of
the Estate of Chaya Zissel
Braun, Shimshon Sam
Halperin, Sara Halperin, Murray Braun, Esther Braun, Micah Lakin Avni, individually,
and as Joint Administrator on
behalf of the Estate of Richard
Lakin, Maya Lakin, individually, and as Joint Administrator
on behalf of the Estate of Richard Lakin, Menachem Mendel
Rivkin, individually, and as the
natural and legal guardian of
minor plaintiffs S.S.R., M.M.R.,
R.M.R., S.Z.R., Bracha Rivkin,
individually, and as the natural
and legal guardian of minor
plaintiffs S.S.R., M.M.R.,
R.M.R., and S.Z.R., S.S.R.,
M.M.R., R.M.R., S.Z.R.,
Plaintiffs - Appellants,
v.
Facebook, Inc.,
Defendant - Appellee.
Appellants filed a petition for panel rehearing, or,
in the alternative, for rehearing en banc. The panel
that determined the appeal has considered the request

154a
for panel rehearing, and the active members of the
Court have considered the request for rehearing en
banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

155a
47 U.S.C.A. § 230. Protection for private
blocking and screening of offensive material
Effective: April 11, 2018
(a)

Findings

The Congress finds the following:
(1) The rapidly developing array of Internet and
other interactive computer services available to
individual Americans represent an extraordinary
advance in the availability of educational and informational resources to our citizens.
(2) These services offer users a great degree of
control over the information that they receive, as
well as the potential for even greater control in the
future as technology develops.
(3) The Internet and other interactive computer
services offer a forum for a true diversity of political discourse, unique opportunities for cultural development, and myriad avenues for intellectual
activity.
(4) The Internet and other interactive computer
services have flourished, to the benefit of all Americans, with a minimum of government regulation.
(5) Increasingly Americans are relying on interactive media for a variety of political, educational,
cultural, and entertainment services.

156a
(b)

Policy

It is the policy of the United States –
(1) to promote the continued development of the
Internet and other interactive computer services
and other interactive media;
(2) to preserve the vibrant and competitive free
market that presently exists for the Internet and
other interactive computer services, unfettered by
Federal or State regulation;
(3) to encourage the development of technologies
which maximize user control over what information is received by individuals, families, and
schools who use the Internet and other interactive
computer services;
(4) to remove disincentives for the development
and utilization of blocking and filtering technologies that empower parents to restrict their children’s access to objectionable or inappropriate
online material; and
(5) to ensure vigorous enforcement of Federal
criminal laws to deter and punish trafficking in
obscenity, stalking, and harassment by means of
computer.
(c) Protection for “Good Samaritan” blocking
and screening of offensive material
(1)

Treatment of publisher or speaker

No provider or user of an interactive computer service shall be treated as the publisher or speaker of
any information provided by another information
content provider.

157a
(2)

Civil liability

No provider or user of an interactive computer service shall be held liable on account of –
(A) any action voluntarily taken in good
faith to restrict access to or availability of material that the provider or user considers to be
obscene, lewd, lascivious, filthy, excessively violent, harassing, or otherwise objectionable,
whether or not such material is constitutionally protected; or
(B) any action taken to enable or make
available to information content providers or
others the technical means to restrict access
to material described in paragraph (1).1
(d)

Obligations of interactive computer service

A provider of interactive computer service shall, at the
time of entering an agreement with a customer for the
provision of interactive computer service and in a manner deemed appropriate by the provider, notify such
customer that parental control protections (such as
computer hardware, software, or filtering services) are
commercially available that may assist the customer
in limiting access to material that is harmful to minors. Such notice shall identify, or provide the customer with access to information identifying, current
providers of such protections.

1

So in original. Probably should be “subparagraph (A)”.

158a
(e)

Effect on other laws
(1)

No effect on criminal law

Nothing in this section shall be construed to impair the enforcement of section 223 or 231 of this
title, chapter 71 (relating to obscenity) or 110 (relating to sexual exploitation of children) of Title
18, or any other Federal criminal statute.
(2)

No effect on intellectual property law

Nothing in this section shall be construed to limit
or expand any law pertaining to intellectual property.
(3)

State law

Nothing in this section shall be construed to prevent any State from enforcing any State law that
is consistent with this section. No cause of action
may be brought and no liability may be imposed
under any State or local law that is inconsistent
with this section.
(4) No effect on communications privacy
law
Nothing in this section shall be construed to limit
the application of the Electronic Communications
Privacy Act of 1986 or any of the amendments
made by such Act, or any similar State law.
(5)

No effect on sex trafficking law

Nothing in this section (other than subsection
(c)(2)(A)) shall be construed to impair or limit –
(A) any claim in a civil action brought under section 1595 of Title 18, if the conduct

159a
underlying the claim constitutes a violation of
section 1591 of that title;
(B) any charge in a criminal prosecution brought
under State law if the conduct underlying the
charge would constitute a violation of section 1591
of Title 18; or
(C) any charge in a criminal prosecution brought
under State law if the conduct underlying the
charge would constitute a violation of section
2421A of Title 18, and promotion or facilitation of
prostitution is illegal in the jurisdiction where the
defendant’s promotion or facilitation of prostitution was targeted.
(f )

Definitions
As used in this section:
(1)

Internet

The term “Internet” means the international computer network of both Federal and non-Federal interoperable packet switched data networks.
(2)

Interactive computer service

The term “interactive computer service” means
any information service, system, or access software provider that provides or enables computer
access by multiple users to a computer server, including specifically a service or system that provides access to the Internet and such systems
operated or services offered by libraries or educational institutions.

160a
(3)

Information content provider

The term “information content provider” means
any person or entity that is responsible, in whole
or in part, for the creation or development of information provided through the Internet or any other
interactive computer service.
(4)

Access software provider

The term “access software provider” means a provider of software (including client or server software), or enabling tools that do any one or more of
the following:
(A)

filter, screen, allow, or disallow content;

(B)

pick, choose, analyze, or digest content; or

(C) transmit, receive, display, forward, cache,
search, subset, organize, reorganize, or translate
content.

